<html>
<title> - NASA'S SPACE SHUTTLE AND INTERNATIONAL SPACE STATION PROGRAMS: STATUS AND ISSUES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                        NASA'S SPACE SHUTTLE AND
                      INTERNATIONAL SPACE STATION
                      PROGRAMS: STATUS AND ISSUES

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 24, 2007

                               __________

                           Serial No. 110-48

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.house.gov/science

                                 ______


                     U.S. GOVERNMENT PRINTING OFFICE

36-737PS                  WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001











                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
PAUL KANJORSKI, Pennsylvania         TOM FEENEY, Florida
DARLENE HOOLEY, Oregon               RANDY NEUGEBAUER, Texas
STEVEN R. ROTHMAN, New Jersey        BOB INGLIS, South Carolina
MICHAEL M. HONDA, California         DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

                 Subcommittee on Space and Aeronautics

                  HON. MARK UDALL, Colorado, Chairman
DAVID WU, Oregon                     TOM FEENEY, Florida
NICK LAMPSON, Texas                  DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        FRANK D. LUCAS, Oklahoma
MIKE ROSS, Arizona                   JO BONNER, Alabama
BEN CHANDLER, Kentucky               VACANCY
CHARLIE MELANCON, Louisiana              
BART GORDON, Tennessee                   
                                     RALPH M. HALL, Texas
              RICHARD OBERMANN Subcommittee Staff Director
            PAM WHITNEY Democratic Professional Staff Member
            KEN MONROE Republican Professional Staff Member
            ED FEDDEMAN Republican Professional Staff Member
                    DEVIN BRYANT Research Assistant






























                            C O N T E N T S

                             July 24, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Mark Udall, Chairman, Subcommittee on 
  Space and Aeronautics, Committee on Science and Technology, 
  U.S. House of Representatives..................................    12
    Written Statement............................................    13

Statement by Representative Tom Feeney, Ranking Minority Member, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    14
    Written Statement............................................    15

                               Witnesses:

Mr. William H. Gerstenmaier, Associate Administrator, Space 
  Operations Mission Directorate, National Aeronautics and Space 
  Administration
    Oral Statement...............................................    16
    Written Statement............................................    18
    Biography....................................................    22

Mr. Tommy W. Holloway, Chairman, ISS Independent Safety Task 
  Force
    Oral Statement...............................................    22
    Written Statement............................................    25
    Biography....................................................    29

Dr. G. Paul Neitzel, Professor of Fluid Mechanics, Georgia 
  Institute of Technology
    Oral Statement...............................................    29
    Written Statement............................................    31
    Biography....................................................    38

Ms. Cristina T. Chaplain, Director, Acquisition and Sourcing 
  Management, Government Accountability Office
    Oral Statement...............................................    38
    Written Statement............................................    40

Discussion
  Logistical Support for ISS and COTS............................    43
  Micrometeoroids and Orbital Debris Protection for ISS..........    46
  Logistical Support for ISS and COTS............................    47
  Status of AMS..................................................    47
  Research on ISS................................................    50
  Enhanced Use Leasing...........................................    51
  Status of U.S.A. Strike and Its Affect on the Shuttle..........    52
  Shuttle Launch Schedule........................................    53
  Possibility for an Additional Shuttle Flight...................    54
  Orbital Debris.................................................    55
  NASA and ITAR..................................................    55
  Feasability of Additional Shuttle Flights......................    56
  Status and Future of ISS Research..............................    57
  Shuttle Contingency Flights....................................    58
  Workforce Transition...........................................    60
  Status of Hubble Servicing Mission.............................    62

              Appendix: Answers to Post-Hearing Questions

Mr. William H. Gerstenmaier, Associate Administrator, Space 
  Operations Mission Directorate, National Aeronautics and Space 
  Administration.................................................    66

Mr. Tommy W. Holloway, Chairman, ISS Independent Safety Task 
  Force..........................................................    78

Dr. G. Paul Neitzel, Professor of Fluid Mechanics, Georgia 
  Institute of Technology........................................    81

Ms. Cristina T. Chaplain, Director, Acquisition and Sourcing 
  Management, Government Accountability Office...................    84


























 
 NASA'S SPACE SHUTTLE AND INTERNATIONAL SPACE STATION PROGRAMS: STATUS 
                               AND ISSUES

                              ----------                              


                         TUESDAY, JULY 24, 2007

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Mark Udall 
[Chairman of the Subcommittee] presiding.



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                        NASA's Space Shuttle and

                      International Space Station

                      Programs: Status and Issues

                         tuesday, july 24, 2007
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Tuesday, July 24, 2007 at 10:00 a.m., the House Committee on 
Science and Technology's Subcommittee on Space and Aeronautics will 
hold a hearing to examine the National Aeronautics and Space 
Administration's (NASA) Fiscal Year 2008 budget request and plans for 
the Space Shuttle and International Space Station (ISS) programs, the 
status of the programs, and issues related to the programs.

Witnesses

    Witnesses scheduled to testify at the hearing include the 
following:

Mr. William Gerstenmaier, Associate Administrator, Space Operations 
Mission Directorate, National Aeronautics and Space Administration

Mr. Tommy Holloway, Chairman, ISS Independent Safety Task Force

Dr. G. Paul Neitzel, Professor of Fluid Mechanics, Georgia Institute of 
Technology

Ms. Christina Chaplain, Director, Acquisition and Sourcing Management, 
Government Accountability Office

Potential Issues

    The following are some of the potential issues that might be raised 
at the hearing:

        <bullet>  What are the main challenges to successfully flying 
        the Space Shuttle until its planned 2010 retirement? How will 
        NASA ensure the continued safety of Space Shuttle operations in 
        the face of an ongoing labor strike, workforce transition 
        uncertainties, competition with other NASA human space flight 
        programs for resources, and a schedule driven by the need to 
        complete International Space Station (ISS) assembly by the 
        planned 2010 retirement date of the Shuttle?

        <bullet>  What are the main challenges to successfully 
        completing the planned Shuttle mission to service the Hubble 
        Space Telescope, and how firm is NASA's launch schedule for the 
        Hubble servicing mission?

        <bullet>  What are the main risks to successfully assembling 
        the International Space Station (ISS) by the time the Shuttle 
        is retired? What will NASA do if the actual Shuttle flight rate 
        turns out to be insufficient to complete all of the planned ISS 
        assembly and logistics fights by the end of 2010, and what will 
        be the impact on ISS utilization and operations?

        <bullet>  What actions, if any, is NASA taking to respond to 
        the findings and recommendations of the ISS Independent Safety 
        Task Force that raised a number of concerns about the program?

        <bullet>  Does NASA have a credible logistics plan for 
        supporting ISS utilization and operations once the Shuttle is 
        retired, and does that plan have adequate backup strategies for 
        contingencies?

        <bullet>  What does NASA want to do with the ISS once it is 
        assembled, and does NASA have well defined utilization plans 
        and resource commitments in place that are aligned with those 
        utilization objectives? Given the cuts to the microgravity 
        research community, will a research community be available to 
        effectively utilize the ISS once it is assembled?

        <bullet>  What would be required for NASA's ISS National 
        Laboratory concept to become a reality, and what are the main 
        impediments to its success? What will NASA do with the unused 
        capacity and capabilities of the ISS if other agencies decide 
        not to make significant use of it?

BACKGROUND

Space Shuttle Program

Fiscal Year 2008 Budget Request for the Space Shuttle Program

    The FY08 budget request for the Space Shuttle program is $4.007 
billion. [A multi-year funding chart for the Space Shuttle and ISS 
programs is included as an attachment to this memo.] Funding for the 
Space Shuttle program is used to pay for the following:

        (1)  Program Integration--which includes flight software, 
        system engineering, construction of facilities, safety and 
        mission assurance, etc.

        (2)  Flight and Ground Operations--pre-flight planning, crew 
        training, operations, mission support for each missions, 
        maintenance and operation of support facilities, final 
        integration and checkout of flight hardware for launch, etc.

        (3)  Flight Hardware--manufacturing and testing of the Orbiter, 
        Space Shuttle Main Engines, External Tank, Solid Rocket Motors, 
        and Solid Rocket Boosters, as well as any needed design and 
        development activities.

    The FY 2007 plans for the Space Shuttle program assumed that four 
Shuttle missions would be conducted during the current fiscal year. At 
present, NASA anticipates that it will be able to complete three. 
NASA's FY 2008 budget request assumes five Shuttle flights during FY 
2008--four to the ISS and one to service the Hubble Space Telescope. 
Overall, NASA is projecting 12 Shuttle flights to the ISS, one to 
Hubble, and two ISS ``contingency'' logistics flights prior to the 
Shuttle's retirement.
    As part of the President's Vision for Space Exploration, NASA has 
been directed to ``focus use of the Space Shuttle to complete assembly 
of the International Space Station; and retire the Space Shuttle as 
soon as assembly of the International Space Station is completed, 
planned for the end of this decade.'' As a result, NASA is also taking 
steps to begin the transition of the Shuttle workforce and facilities, 
including identification of assets that will not be needed for follow-
on programs and thus can be decommissioned/disposed of by the agency. 
NASA has submitted some proposed legislative provisions to Congress 
intended to address Shuttle transition issues. Those legislative 
proposals will be the focus of a future Subcommittee hearing.
    Approximately 500 members of the International Association of 
Machinists (IAM) have been on strike at the NASA Kennedy Space Center 
since June 14th of this year as part of a contract dispute with the 
United Space Alliance (USA), which operates the Space Shuttle for NASA. 
The IAM strikers have asserted that USA ``has abandoned safety, 
training, and paperwork requirements they have held us to for years'' 
during the strike. USA, for its part, has stated that replacement 
workers were ``properly trained and, where required, certified as 
proficient to safely perform the task supporting Shuttle processing.'' 
Without attempting to judge the competing claims, Members may wish to 
see what steps NASA independently is taking to ensure that Shuttle 
processing activities are being conducted safely.
    The following are a number of the challenges related to the FY08 
budget request and five-year runout for the Space Shuttle program:

        <bullet>  Impact of reduced Space Shuttle reserves to address 
        remaining program threats prior to retirement of the Shuttle

        <bullet>  Feasibility of safely completing the currently 
        planned Shuttle launch schedule prior to the scheduled 
        retirement date in light of the technical issues that have 
        arisen during preparations for several of the missions since 
        the Shuttle returned-to-flight

        <bullet>  Need to maintain necessary Shuttle workforce and 
        skills through remaining flight schedule

        <bullet>  Potential Space Shuttle program transition and 
        retirement requirements--budget submitted to Congress does not 
        include funds to address these issues past FY 2010, with 
        explanation given that the requirement are not yet well 
        defined.

Space Shuttle Servicing of the Hubble Space Telescope

    In late October 2006, NASA Administrator Michael Griffin announced 
plans to conduct a final Shuttle servicing mission to the Hubble Space 
Telescope. The servicing mission (SM4) will be the fifth Hubble 
servicing mission since the Hubble was deployed in 1990 and will 
improve and enable the telescope's continuing operations through 2013. 
The flight is currently manifested on Shuttle mission STS-125, which is 
targeted to fly on Atlantis in September 2008. It will be the only non-
ISS-related Shuttle mission among the remaining Shuttle flights.
    The servicing mission will involve a series of five challenging 
spacewalks to replace and upgrade components such as batteries and 
gyroscopes and to install new science instruments--the Cosmic Origins 
Spectrograph (COS) and Wide Field Camera 3 (WFC3). The COS will allow 
astronomers to look at the structure and composition of the universe 
and the WFC3 will look through the infrared, visible, and ultraviolet 
wavelengths of light to provide insight into planets, the formation of 
the solar system, the study of early and distant galaxies, and the 
formation of stars. Astronauts servicing the Hubble will also attempt 
to repair the Space Telescope Imaging Spectrograph (STIS) instrument 
installed in 1997, which lost power in 2004. That instrument performs 
high resolution studies of nearby stars and distant galaxies in visible 
and infrared wavelengths. Astronauts will also install a Soft Capture 
Mechanism to allow a vehicle to attach to the Hubble and safely de-
orbit the spacecraft once it reaches the end of its mission.
    The SM4 mission was intended to fly earlier in the decade. After 
the loss of the Space Shuttle Columbia in 2003, NASA decided, in 
January 2004 not to conduct the mission. The cancellation of the 
servicing mission and expected loss of the Hubble around 2007-2008 
prompted an outcry from the public and science community. NASA 
continued to evaluate options for extending the Hubble's operating 
lifetime, including a possible robotic servicing mission. The National 
Academies' Assessment of Options for Extending the Life of the Hubble 
Space Telescope report recommended ``that NASA should commit to a 
servicing mission to the Hubble Space Telescope that accomplishes the 
objectives of the originally planned SM-4 mission.''

Aerospace Safety Advisory Panel (ASAP) Report

    ASAP recently released its 2006 Annual Report. In that report, the 
Panel made several observations and recommendations related to the 
Space Shuttle program. Quoting the report, some of those are as 
follows:

        <bullet>  ``NASA has shown an appreciation of the persistence 
        of risk associated with the Shuttle, and therefore the 
        continuing need to properly assess it--so that appropriate 
        measures can be taken to mitigate that risk through the 
        remainder of the program.''

        <bullet>  ``The ASAP has observed that launch decisions are too 
        regularly being elevated to the Administrator level, and the 
        Panel noted the lack of an analytical risk-assessment process 
        that is standardized, comprehensive and well understood 
        throughout the agency.''

        <bullet>  ``The ASAP said it was concerned about NASA's shift 
        away from an approach aimed at modifying safety culture to one 
        that appeared to only monitor the status of the culture. . . 
        Despite these concerns, the ASAP does find signs of improving 
        safety culture, particularly indications that communications 
        have become more open within the Agency.''

        <bullet>  ``For the Space Shuttle, as with other programs, it 
        is management's responsibility to set priorities and assess 
        risk--and eliminating all risk is an unrealistic goal. The 
        Agency and the Shuttle Program must guard against developing 
        `tunnel vision' with respect to foam, which could distract them 
        from potential problems developing in other areas.''

International Space Station Program

Fiscal Year 2008 Budget Request for International Space Station Program 
                    (ISS)

    The FY08 budget request for the International Space Station (ISS) 
program is $2.239 billion. [A multi-year funding chart for the Space 
Shuttle and ISS programs is included as an attachment to this memo.] 
Funding for the ISS program is used to pay for the following:

        (1)  Flight Hardware--It should be noted that, according to 
        NASA, all U.S. ISS development activities will be completed 
        with the exception of Habitability upgrades and improvements to 
        the ExPRESS Logistics Carrier

        (2)  ISS Operations Program Integration Activities

        (3)  ISS Spacecraft Operations Activities

        (4)  ISS Launch and Mission Operations

        (5)  Multi-User System Support (MUSS)

        (6)  ISS Crew-Cargo Services--To be provided by commercial 
        entities or International Partners (e.g., Europeans, Japanese, 
        Russians). Over the near-term, the funding is primarily to pay 
        the Russians for Soyuz and Progress services.

    The ISS program is currently in the most challenging portion of the 
assembly phase. In FY 2008, ``Node 2'' will be launched, which is a key 
piece of ISS hardware that will allow the European and Japanese 
pressurized modules to be added to the ISS in 2008. In addition, the 
truss [``backbone''] of the ISS will be completed and additional solar 
power added. The European ATV cargo carrier is also scheduled to be 
launched to the ISS in late 2007 or early 2008. That will provide an 
additional means of getting cargo to the ISS besides the Space Shuttle 
and the Russian Progress cargo vehicle.
    In addition, under the Commercial Orbital Transportation System 
[COTS] program, potential commercial cargo services providers will be 
continuing their development activities in FY08. NASA is proposing to 
carry out a competition to award a contract to one or more commercial 
providers for cargo delivery [and perhaps eventually crew transfer 
services] to the ISS. The Subcommittee plans to examine the status and 
issues related to COTS and logistical support of the ISS in a future 
meeting.
    In the NASA Authorization Act of 2005 [P.L. 109-155], Congress 
directed the establishment of an ISS Independent Safety Task Force to 
``review the International Space Station program with the objective of 
discovering and assessing any vulnerabilities of the International 
Space Station that could lead to its destruction, compromise the health 
of its crew, or necessitate its premature abandonment.'' The Task Force 
delivered its report to Congress earlier this year, and its principal 
observations and recommendations are listed in the following section of 
this hearing charter. The Chair of the Task Force will be testifying 
before the Subcommittee at this hearing.
    The following are a number of challenges related to the FY08 budget 
request and five-year runout for the ISS program:

        <bullet>  The ISS program has depleted reserves through FY 2008 
        while facing the most challenging period of ISS assembly.

        <bullet>  According to NASA, there is a $300 million shortfall 
        in the ISS Crew-Cargo Services budget based on current 
        estimates, with an additional $600 million shortfall being held 
        as a lien against the Exploration Systems Mission Directorate 
        budget. The ISS Independent Safety Task Force was very 
        concerned about the adequacy of the ISS's post-Shuttle 
        logistics support.

        <bullet>  There are additional threats to reserves related to 
        dealing with the impact of the Shuttle retirement.

        <bullet>  Although two of the remaining Shuttle flights are 
        listed as ``contingency'' and have not yet been approved by 
        OMB--although NASA says sufficient funds have been included in 
        the budget--NASA indicates that those flights will be needed to 
        deliver spares and logistics in advance of the Shuttle's 
        retirement, i.e., they should not be considered optional 
        flights.

        <bullet>  Current International Traffic in Arms Regulations 
        (ITAR) restrictions on NASA ``are a threat to the safe and 
        successful integration and operations of the International 
        Space Station,'' according to the ISS Independent Safety Task 
        Force.

        <bullet>  Funding for ISS research has been cut back 
        significantly over the last several years, and the research 
        community that was intended to utilize the ISS has been 
        decimated by the reductions in funding. No well defined 
        research and utilization plan yet exists, which raises concerns 
        about the ability of NASA to make productive use of the ISS 
        once it is assembled.

Summary of Principal Observations and Recommendations of the ISS 
                    Independent Safety Task Force

Principal Observations

        <bullet>  The International Space Station Program is currently 
        a robust and sound program with respect to safety and crew 
        health. Safety and crew health issues are well documented and 
        acceptable, and are either currently adequately controlled or 
        mitigations are being developed to maintain acceptable risk 
        levels.

        <bullet>  The International Space Station Program has strong 
        and proactive crosscutting functions that--if continued--should 
        provide advance indications and warnings that will avoid events 
        that might lead to destruction of the Station, loss of the 
        Station crew, abandonment of the Station, or development of 
        untoward crew health issues. The International Space Station 
        Program's operating procedures and processes are thorough and 
        sound.

        <bullet>  The International Space Station currently has an 
        experienced, knowledgeable, and proactive team, both internally 
        and in its institutional technical checks and balances, that 
        provides the defense for process and management failures that 
        might lead to an ISS safety or major crew health issue. This 
        posture must be maintained to continue the Station's successful 
        operation.

        <bullet>  Micrometeoroid and orbital debris penetrating the 
        living quarters or damaging critical equipment is a high safety 
        risk to the crew and the Station.

        <bullet>  Spontaneous crew illness is a significant crew risk 
        and may necessitate returning the crew to Earth for specialized 
        medical attention, which would result in temporary abandonment 
        of the Station. International Space Station medical and Program 
        management officials are taking all reasonable precautions to 
        minimize this risk.

        <bullet>  There are significant programmatic risks associated 
        with completing the ISS Shuttle manifest and providing robust 
        post-Shuttle logistics capabilities that threaten the ability 
        to support a viable Station.

        <bullet>  Workforce composition is a growing concern throughout 
        NASA because of the technical and specialized nature of most of 
        the agency's work and the large-scale program transition now 
        under way. The International Space Station Program is 
        vulnerable to critical management losses, making strategic 
        workforce planning as important as ever.

        <bullet>  Design, development and certification of the new 
        Commercial Orbital Transportation System capability for ISS 
        resupply are just beginning. If similar to other new program 
        development activities, it most likely will take much longer 
        than expected and will cost more than anticipated.

        <bullet>  The current International Traffic in Arms Regulation 
        restrictions on NASA are a threat to the safe and successful 
        integration and operations of the International Space Station.

Principal Recommendations

        <bullet>  The International Space Station Program should place 
        the highest priority on options to decrease the risk of 
        micrometeoroid and orbital debris.

        <bullet>  NASA should develop and implement plans to maintain 
        Station critical skills and experienced managers.

        <bullet>  The Administration, Congress, and NASA should support 
        the completion of the current Shuttle manifest to the 
        International Space Station, including flights ULF-4 and ULF-5, 
        to assemble a viable Station and provide spares for its long-
        term operation.

        <bullet>  The Administration, Congress, and NASA should support 
        a proactive and phased post-Shuttle logistical transportation 
        program, including adequate funding of approximately one 
        billion dollars per year above current allocations to ensure 
        that adequate logistics and spares are available to maintain a 
        viable Station.

        <bullet>  NASA senior management should conduct a comprehensive 
        review of the Automated Transfer Vehicle to ensure agreement of 
        the policies, approach, and technical implementation of the 
        safety strategy for the Automated Transfer Vehicle's 
        demonstration flight. [Note: This review was conducted on 
        January 8, 2007, and met the intent of this recommendation.]

        <bullet>  The Department of State should grant immediate relief 
        from the International Traffic in Arms Regulation restrictions 
        in the form of an exemption to allow NASA contractors direct 
        interaction with the International Space Station's 
        International Partners and their contractors. This must be 
        affected no later than summer 2007 to support Automated 
        Transfer Vehicle operations.

        <bullet>  The ISS Program should carefully consider 
        implementing all IISTF recommendations to improve the overall 
        safeguards and controls against vulnerabilities.

Utilization of the International Space Station

Current Status
    NASA's priorities include completing the assembly of the 
International Space Station (ISS) by 2010 and then retiring the 
Shuttle. Based on current plans, starting in 2010 NASA intends to 
utilize the ISS to conduct research that supports mission-enabling 
objectives for the Vision for Space Exploration. A 2006 report by the 
National Academies that reviewed NASA's ISS plans states that ``these 
objectives represent a major shift in research goals compared to 
earlier versions of ISS plans. It has always been an ISS objective to 
study and develop countermeasures for the detrimental effects of space 
flight on astronauts. However, ISS plans had also previously included a 
major focus on basic research in a number of diverse fields of 
biological and physical sciences, with research projects directed at 
increasing fundamental scientific understanding as well as eventual 
terrestrial applications such as understanding disease or improving 
industrial technologies.'' As part of that shift, NASA severely cut the 
support of scientists working on basic research and longer-term 
challenges in space biology and medicine and the physical sciences. 
According to the January-March 2007 Newsletter of the National 
Academies' Space Studies Board, the human research program lost 59 
percent of its investigators, fundamental space biology lost 88 percent 
of its researchers, and the physical sciences lost 84 percent of its 
research community. Correspondingly large cuts were made to NASA's life 
and physical sciences microgravity research and applications budgets 
over the past several years.
    Only a few years remain before NASA is scheduled to complete 
assembly of the ISS and focus on utilizing the Station. At present, 
however, NASA still lacks a well defined utilization plan with 
schedules, milestones, specific and prioritized research experiments to 
actually realize the broad research goals outlined by NASA, budgetary 
profiles and resource commitments (logistics, crew time, funding) 
needed to execute the plan.
    In the face of these realities, issues that Members may wish to 
examine are whether a world-class research community that can support 
investigations to achieve NASA's utilization objectives will be 
available in 2010 under NASA's current approach, and whether 
experiments that contribute to NASA's mission-enabling objectives will 
be mature and ready for flight. Another issue is what the implications 
of the reductions to fundamental life and physical science research 
will be for NASA's ability to achieve its longer-term exploration goals 
as well as its ability to deliver the terrestrial benefits of ISS 
research that the Agency had long used to help justify the ISS program. 
According to a National Academies report, An Assessment of Balance in 
NASA's Science Programs, published in 2006, ``Analysis of the NASA FY 
2007 budget suggests that funds will not be provided for the physical 
and biological research necessary to identify and define problems that 
are critical to human survival and function in long-term space flight 
or to develop new technologies and countermeasures to overcome these 
challenges.''
The ISS as a National Laboratory
    The NASA Authorization Act of 2005, apart from establishing 
requirements for NASA-supported exploration and non-exploration ISS 
research, designates the ISS as a national laboratory. The Act seeks to 
increase the utilization of the ISS by other federal agencies and the 
private sector. NASA prepared a report for Congress, International 
Space Station National Laboratory Application Development, dated April 
2007, as required under the Act. According to the report, NASA's 
primary strategy for the ISS national laboratory is ``early efforts on 
identifying qualified end-users from the public and private sectors.'' 
To that end, NASA has taken the following steps:

        <bullet>  led an interagency task force to explore how ISS 
        might be used for science, technology, engineering, and math 
        (STEM) activities;

        <bullet>  entered into discussions on a Memorandum of 
        Understanding with the National Institutes of Health on use of 
        the ISS;

        <bullet>  issued a Sources Sought announcement seeking 
        commercially-provided water generation services on the ISS.

    The report indicates that NASA will support the operations and 
maintenance of the ISS. Public and private sector partners seeking to 
use the ISS will most likely be required to pay for transporting any 
experiments, equipment, and supplies supporting their utilization to 
the ISS. According to the report, NASA identifies the ``availability of 
cost-effective transportation services'' as the most significant risk 
factor in the success of the national laboratory. NASA plans to begin 
managing the operations and utilization of the ISS national laboratory 
internally. If non-governmental interests in using the ISS grow, NASA 
may develop an institute to manage non-governmental utilization.
    In exploring the opportunities for using the ISS National 
Laboratory for potential educational activities, a NASA-led task force 
produced the International Space Station National Laboratory Education 
Concept Development Report. The task force concluded ``that there is 
significant interest among other federal agencies in the opportunity to 
further develop the ISS as an asset for education.'' The report 
discusses potential educational projects that non-NASA users could 
conduct on the ISS national laboratory and also discusses the 
opportunities for American students to participate in international 
projects and benefit from the international cooperative environment 
that the ISS offers.
    According to NASA's ISS National Laboratory report, the success of 
the ISS National Laboratory concept will, in part, determine how long 
NASA plans to operate the ISS. As described in the report, the ISS has 
a 15-year design lifetime, based on the launch of the first element in 
February 2001, and NASA's budget for ISS operations reflects the 15-
year period. NASA has therefore estimated FY 2016 as the end of the 
operations of the ISS. The report notes that NASA will allow four 
years, FY 2011-FY 2014, to assess the ``value'' of the ISS as a 
national laboratory, at which point NASA would need to extend the 
``certified design lifetime.'' That process could involve tests and 
analyses that would require lead time and decisions on costs versus 
benefits.

Alpha Magnetic Spectrometer (AMS)
    The Alpha Magnetic Spectrometer (AMS) is a particle physics 
experiment proposed by Dr. Samuel Ting of the Massachusetts Institute 
of Technology to search for antimatter in the universe. AMS, which is 
sponsored by the Department of Energy (DOE), is designed to be flown on 
the Space Shuttle and attached to the exterior of the ISS. Some 16 
international partners are involved in the project and have funded and 
performed the majority of its construction. In 1995, NASA entered into 
an agreement with the DOE to provide AMS with three years of operation 
on the ISS. Space Shuttle Discovery flew a prototype of the experiment 
in 1998.
    Following the Space Shuttle Columbia accident, NASA focused on the 
return-to-flight of the Shuttle and completion of the ISS consistent 
with the Vision to Space Exploration. In a 2005 letter from NASA to 
DOE, NASA stated that it ``cannot commit to a Shuttle flight for AMS to 
the International Space Station (ISS) given current constraints.'' In a 
2006 letter from the NASA Administrator to Senator Kay Bailey 
Hutchinson, NASA maintained its position that it could not commit to a 
Shuttle flight for AMS and noted that ``NASA intends to proceed with 
the payload integration process within the existing AMS budget in order 
to preserve the option of a future launch.'' NASA personnel have 
indicated that they believe that alternatives to a Shuttle launch, 
including launch on a foreign launch vehicle, would require significant 
and costly modifications to the payload and launch vehicle. Thus, at 
this point, NASA has no plans to fly the AMS to the ISS.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Udall. This hearing will come to order. Good 
morning to all of you who have assembled here. I want to begin 
by welcoming all of our witnesses to today's hearing. This 
morning we will be examining NASA's Space Shuttle and 
International Space Station programs. I think it is appropriate 
that we consider both of these programs at the same hearing 
since the Shuttle and Station activities are tightly coupled 
and issues affecting one program can have a direct impact on 
the other.
    As we all know, NASA successfully completed its Shuttle 
mission to the ISS last month, and another Shuttle mission to 
the ISS is scheduled for early next month. And by all accounts 
last month's STS-117 flight was a very challenging ISS mission 
during one of the hardest parts of the Station's assembly 
phase.
    It is a testament to the skill of the entire NASA team that 
they have made assembling the ISS in orbit look relatively 
easy, when the reality is that it is anything but easy.
    So in that spirit I want to congratulate you, Mr. 
Gerstenmaier, on last month's success and wish you well on next 
month's mission.
    NASA also is preparing for next year's Shuttle mission to 
service the Hubble Space Telescope. Many of us were very 
concerned when that servicing mission was canceled by the 
previous NASA Administrator, and I am pleased that it is back 
on the Shuttle manifest. We all look forward to hearing about 
its status at today's hearing as well.
    However, assembling the ISS and servicing Hubble are only 
two of the challenges that NASA will need to address over the 
next several years in its human space flight programs. The 
Space Shuttle is scheduled to be retired upon the completion of 
the ISS at the end of this decade, and there are a great many 
issues that will need to be addressed during this transition 
period, and dealing with workforce concerns is clearly an 
important one.
    This subcommittee held an initial hearing on NASA's 
workforce in May, and I anticipate that we will examine NASA's 
plans for the Shuttle workforce, including its legislative 
proposals, in greater detail at another hearing later this 
year.
    Another area of great concern is how the ISS will be 
supported logistically once the Shuttle is retired. It is not 
yet clear that NASA's budget for logistical support of the 
Station is sufficient for the task or that all of the planned 
capabilities will be available when needed. I hope that today's 
hearing will shed some light on the situation.
    Yet all of the work being done to assemble the Station and 
support it logistically is not meant to be an end in itself. 
Rather, it is the degree to which it is utilized productively 
that will determine the ultimate success or failure of the ISS.
    That is why a number of us have been so concerned about the 
severe cutbacks in NASA's Space Station research program and 
budget over the past several years. Those cuts have largely 
decimated the research community that had planned to use the 
Station, with potentially serious implications for the 
productivity of the Station as a research facility once it is 
assembled.
    In addition, NASA has yet to develop a well-defined 
research program for the Station that contains clear 
milestones, prioritized research objectives and experiments, 
and resource requirements. We all understand that funding is 
tight and that funding for the Station research has to compete 
with other NASA priorities.
    However, the Nation has invested substantial funds over 
many years to develop and build the Station. And the NASA team 
represented by Mr. Gerstenmaier worked hard to make the Station 
a reality. It seems to me that we need to insure that the 
Nation gets an adequate return on that investment.
    We have a great many issues to cover at today's hearing, 
and again, I want to welcome our witnesses, and I look forward 
to your testimony.
    The Chair now with great pleasure recognizes Mr. Feeney, 
the Ranking Member, for his opening statement.
    [The prepared statement of Chairman Udall follows:]
               Prepared Statement of Chairman Mark Udall
    Good morning. I want to welcome all of our witnesses to today's 
hearing.
    This morning we will be examining NASA's Space Shuttle and 
International Space Station programs. I think that it's appropriate for 
us to consider the programs at the same hearing, since the Shuttle and 
Station activities are tightly coupled and issues affecting one program 
can have a direct impact on the other.
    As you know, NASA successfully completed a Shuttle mission to the 
ISS last month, and another Shuttle mission to the ISS is scheduled for 
early next month. By all accounts, last month's STS-117 flight was a 
very challenging ISS mission during one of the hardest parts of the 
Station's assembly phase. It is a testament to the skill of the entire 
NASA team that they have made assembling the ISS in orbit look 
relatively easy, when the reality is that it is anything but easy!
    So I want to congratulate you, Mr. Gerstenmaier, on a last month's 
success and wish you well on next month's mission.
    NASA also is preparing for next year's Shuttle mission to service 
the Hubble Space Telescope. Many of us were very concerned when that 
servicing mission was canceled by the previous NASA Administrator, and 
I am pleased that it is back on the Shuttle manifest.
    I look forward to hearing about its status at today's hearing.
    However, assembling the ISS and servicing Hubble are only two of 
the challenges that NASA will need to address over the next several 
years in its human space flight programs.
    The Space Shuttle is scheduled to be retired upon the completion of 
the ISS at the end of this decade. There are a great many issues that 
will need to be addressed during this transition period, and dealing 
with workforce concerns is clearly an important one.
    This subcommittee held an initial hearing on NASA's workforce in 
May, and I anticipate that we will examine NASA's plans for the Shuttle 
workforce, including its legislative proposals, in greater detail at 
another hearing later this year.
    Another area of great concern is how the ISS will be supported 
logistically once the Shuttle is retired.
    It's not yet clear that NASA's budget for logistical support of the 
Station is sufficient for the task, or that all of the planned 
capabilities will be available when needed. I hope that today's hearing 
will shed some light on the situation.
    Yet all of the work being done to assemble the ISS and support it 
logistically is not meant to be an end in itself. Rather, it's the 
degree to which it is utilized productively that will determine the 
ultimate success or failure of the ISS.
    That is why a number of us have been so concerned about the severe 
cutbacks in NASA's Space Station research program and budget over the 
past several years.
    Those cuts have largely decimated the research community that had 
planned to use the ISS, with potentially serious implications for the 
productivity of the ISS as a research facility once it is assembled.
    In addition, NASA has yet to develop a well-defined research plan 
for the ISS that contains clear milestones, prioritized research 
objectives and experiments, and resource requirements.
    We all understand that funding is tight, and that funding for ISS 
research has to compete with other NASA priorities. However, the nation 
has invested substantial funds over many years to develop and build the 
International Space Station. And the NASA team represented by Mr. 
Gerstenmaier has worked hard to make the ISS a reality. It seems to me 
that we need to ensure that the nation gets an adequate return on that 
investment.
    Well, we have a great many issues to cover at today's hearing. I 
again want to welcome our witnesses, and I look forward to your 
testimony.

    Mr. Feeney. Well, thank you, Chairman, for holding today's 
important hearing on the Space Shuttle and International Space 
Station, where we will examine the interrelationships between 
these programs and gain insight about supporting and operating 
the ISS in the post-Shuttle era.
    As you know, Mr. Chairman, many of my constituents at 
Kennedy Space Center prepare Space Station components and the 
Space Shuttle for launch. I appreciate the fact that you are 
considering holding a hearing later this year to examine NASA's 
Shuttle to Constellation transition planning, which is very 
important in my district as well as many other areas that are 
interested in space.
    I look forward to working with you on this hearing. We 
can't repeat past mistakes like the Apollo to Shuttle 
transition where America frittered away hard-earned, space-
faring skills which are almost impossible to replace.
    NASA faces many challenges, both now and in the future, 
chief among them is to safely maintain the International Space 
Station, support its research agenda, and insure the safety of 
the crews while transitioning to the new Orion spacecraft and 
the Ares launch vehicles. To do this NASA intends to increase 
reliance on our international partners and the new Commercial 
Orbital Transportation System capacity, COTS. We need to better 
understand the implications of this strategy, and in fact, I 
note that Mr. Holloway in his testimony expresses some concerns 
about heavily relying on COTS until it is a proven technology. 
I hope to explore that today.
    In the post-Shuttle era COTS will hopefully provide a 
viable replacement of the Shuttle's capability to deliver cargo 
and crew to the International Space Station. Establishing 
private commercial providers to perform these tasks will bring 
a new and much desired dimension to space faring.
    NASA may also increase its reliance on international 
partners. The Russians will continue to play a significant role 
but NASA also plans to use the European Automated Transfer 
Vehicle that will have roughly three times the cargo capability 
of Russian progress. Development of the ATV has been delayed, 
but the first one is currently being shipped to its French 
Guiana launch site with launch scheduled for January of next 
year. If we become more reliant on the international community, 
I want to understand the effect of the International Traffic in 
Arms Regulation restrictions on NASA's ability to work with our 
international partners, and, again, Mr. Holloway's report 
addresses some concerns in that area.
    As NASA works to complete the International Space Station 
it should fully examine the capabilities for exploration-
related as well as non-exploration related International Space 
Station research. The success of the International Space 
Station as a National Laboratory depends in part on maintaining 
sufficient research capabilities, which the Chairman mentioned 
in his opening remarks, needed to prepare humans for long-
duration lunar missions among other things.
    I remain vigilant about the temptation to backslide into 
pre-Columbia behavior, burdening NASA to do too much with too 
little. Demands on NASA must be tempered. Furthermore, this 
Administration and Congress must deliver the resources needed 
to complete what has been assigned. That means adequate budgets 
in fiscal year 2008, and beyond.
    I am concerned about this year's appropriations. The $18 
million reduction from NASA's request for International Space 
Station reserves and the $85 million reduction in needed 
replacements for the tracking and data relay satellite system 
represent a fiddling at the margins that cumulatively invites 
more serious consequences down the road.
    When the world thinks of NASA, it envisions human space 
exploration. We are once again laying the foundation to explore 
beyond low-Earth orbit. Human space flight is one of the most 
inspirational undertakings we do as a nation. Indeed, other 
nations now strive to emulate our successes because they 
recognize the great national prestige that accompanies human 
space exploration.
    By the way, I have been heartened in reading the testimony 
of the witnesses about where we are in the space program today. 
Looking back, I was a newly elected Congressman a couple of 
weeks into my tenure when we had the last disaster, and it is 
with a great deal of optimism that I read the remarks and the 
testimony about where we are today given where we could be.
    Finally, NASA often makes the difficult look easy, but 
significant challenges await. I welcome today's distinguished 
panel, and thank you for taking the time to help us better 
understand and prepare for those challenges. In particular, I 
want to thank Mr. Bill Gerstenmaier and thank you for your 
long-term, dedicated service.
    With that, Mr. Chairman, again, I appreciate the work that 
you and the staff has done to prepare us for this hearing.
    [The prepared statement of Mr. Feeney follows:]
            Prepared Statement of Representative Tom Feeney
    Thank you Mr. Chairman for holding today's important hearing on the 
Space Shuttle and International Space Station (ISS). We will examine 
the interrelationships between these programs and gain insight about 
supporting and operating ISS in the post-Shuttle era.
    As you know Mr. Chairman, many of my constituents at the Kennedy 
Space Center prepare Space Station components and the Space Shuttle for 
launch. I understand you are considering a hearing later this year to 
examine NASA's Shuttle to Constellation transition planning. I look 
forward to working with you on this hearing. We can't repeat past 
mistakes--like the Apollo to Shuttle transition--where America 
frittered away hard-earned spacefaring skills.
    NASA faces many challenges, both now and in the future. Chief among 
them is to safely maintain the International Space Station, support its 
research agenda, and ensure the safety of the crews, while 
transitioning to the new Orion spacecraft and Ares launch vehicles. To 
do this, NASA intends to increase reliance on our international 
partners and the new Commercial Orbital Transportation System 
capability (COTS). We need to better understand the implications of 
this strategy.
    In the post-Shuttle era, COTS will hopefully provide a viable 
replacement of the Shuttle's capability to delivery cargo and crew to 
ISS. Establishing private commercial providers to perform these tasks 
would bring a new and much desired dimension to spacefaring.
    NASA may also increase its reliance on international partners. The 
Russians will continue to play a significant role. But NASA also plans 
to use the European Automated Transfer Vehicle (ATV) that will have 
roughly three times the cargo capability of the Russian Progress. 
Development of the ATV has been delayed. But the first one is currently 
being shipped to its French Guiana launch site with launch scheduled 
for January 2008. If we become more reliant on the international 
community, I want to understand the effect of the ITAR (International 
Traffic in Arms Regulation) restrictions on NASA's ability to work with 
our international partners.
    As NASA works to complete the ISS, it should fully examine the 
capabilities for exploration-related, as well as non-exploration-
related ISS research. The success of ISS as a National Laboratory 
depends in part on maintaining sufficient research capabilities needed 
to prepare humans for long duration lunar missions.
    I remain vigilant about the temptation to backslide into pre-
Columbia behavior--burdening NASA to do too much with too little. 
Demands on NASA must be tempered. Furthermore, this Administration and 
Congress must deliver the resources needed to complete what has been 
assigned. That means adequate budgets in FY08 and beyond. I'm concerned 
about this year's appropriations. The $18 million reduction from NASA's 
request for ISS reserves and the $85 million reduction in needed 
replacements for the Tracking and Data Relay Satellite System represent 
a fiddling at the margins that cumulatively invites more serious 
consequences.
    When the world thinks of NASA, it envisions human space 
exploration. We are once again laying the foundation to explore beyond 
low-Earth orbit. Human space flight is one of the most inspirational 
undertakings we do as a nation. Indeed, other nations now strive to 
emulate our successes because they recognize the great national 
prestige that accompanies human space exploration.
    NASA often makes the difficult look easy, but significant 
challenges await. I welcome today's distinguished panel and thank you 
for taking the time to help us better understand and prepare for those 
challenges. In particular, I want to welcome Bill Gerstenmaier and 
thank you for your dedicated service.

    Chairman Udall. Thank you, Mr. Feeney. At this point I 
would like to make it clear that if there are Members who wish 
to submit additional opening statements, those statements will 
be added to the record. Without objection, so ordered.
    At this time I would like to introduce our panel of 
witnesses today, and I will introduce all four witnesses, and 
then we will move back to my left, and we will start with Mr. 
Gerstenmaier. Mr. Bill Gerstenmaier is here as we have 
mentioned, both Mr. Feeney and myself, who is the associate 
administrator for the Space Operations Mission Directorate at 
NASA.
    And next to him with have Mr. Tommy Holloway, who was the 
Chairman for the ISS Independent Safety Task Force Report, 
which was completed in February of 2007.
    Next to Mr. Holloway, Dr. Paul Neitzel, who is a Professor 
of Fluid Mechanics at the Georgia Institute of Technology.
    And finally we have Ms. Cristina Chaplain, who is a 
Director of Acquisition and Sourcing Management at the 
Government Accountability Office.
    Welcome to all of you. I think all of you know that spoken 
testimony is limited to five minutes, after each and after 
which the members of the Subcommittee will have five minutes 
each to ask questions.
    We will start with Mr. Gerstenmaier.

      STATEMENT OF MR. WILLIAM H. GERSTENMAIER, ASSOCIATE 
 ADMINISTRATOR, SPACE OPERATIONS MISSION DIRECTORATE, NATIONAL 
              AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Gerstenmaier. Chairman Udall, Ranking Member Feeney, 
thank you for inviting me here today. It is my privilege and 
pleasure to represent the International Space Station and Space 
Shuttle teams. I have attempted to answer your questions in my 
written statement, and I will use my opening remarks to expand 
slightly on my written statement and provide kind of the latest 
status of where we are with both Shuttle and Station.
    This is a very dynamic time in both programs. It has also 
been a very exciting time because the work we are doing now 
directly supports the future of human space exploration. 
Lessons we have been learning and will continue to learn as we 
live and work aboard the Space Station will help when we 
undertake our new exploration to the Moon, take our first steps 
on Mars, and the United States leads to the expansion of 
humanity's reach into the solar system beyond the current 
confines of low-Earth orbit. The work we are doing today 
clearly helps and supports those activities in the future.
    Take, for example, yesterday the Space Station crew 
performed a seven-hour and 41 minute space walk to complete 
several critical tests for the continued assembly of the Space 
Station. Mostly likely you have heard about how the crew 
disposed of the early ammonia servicer device carrying 300 
pounds of ammonia. It had to be removed to allow for the P-6, 
the truss that sits up on top, to be moved to a new location on 
STS-120 scheduled for launch in October.
    But the thing that is important is they did many other 
tests as well. They changed data remote power control module, 
an electronic circuit breaker. This device provides power, a 
redundant power to the mobile transporter. That is the crane 
that runs up and down the truss of the Space Station. That 
crane needs to be in a position to install the trusses that is 
delivered on this next Shuttle flight. So that circuit breaker 
had to be changed out to allow the Shuttle flight to occur and 
be launched.
    They also cleaned some debris off of a seal. The teams went 
ahead and actually took the arm earlier and looked at a seal on 
the outside of the Space Station. This is a pressure seal that 
is, allowed the modules to, when they back together, to be 
sealed and keep the vacuum away from the side. We noticed some 
debris that had accumulated on that seal. It was carried up in 
the Shuttle on one of the seals and got stuck there. The crew 
went out and cleaned that debris off so then we can move 
another mating adaptor there. And that activity is critical to 
an event that will occur later this month.
    And the last thing that they did was, I think the thing 
that is important to see how all these are connected to the 
future events and future flights. They are not just related to 
the next flight, but they are related to a flight that may be 
occurring in the fall or maybe occurring in activity later this 
month. And that is the complexity of the Space Station. All the 
tasks are interrelated. There is not a single dimension. There 
are multiple interactions between all the different pieces.
    While the Space Station team was doing the space walk, the 
Shuttle team was busy getting the Shuttle ready for launch down 
in Florida. The teams have done a good job getting that vehicle 
for launch on August 7. Tomorrow we will do, begin a two-day 
readiness review to make sure that everything is ready for that 
flight, but everything appears on track. The weather has been a 
little tough in Florida in the afternoons, so there has been a 
lot of thunderstorms, and the teams have been able to work 
around those thunderstorms as this process moves forward and 
things look pretty good, and we will have an extensive two-day 
review, and we should be ready for launch on August 7.
    Again, I think the teams have established a strong rhythm 
moving forward with assembly. We recovered from the hail damage 
that occurred to the tank earlier this year. That was an 
amazing team effort across the teams to get that tank repaired. 
That tank performed exactly as it was designed, did exactly 
what it was supposed to do. We repaired about 6,000 damages 
sites on that tank, and the team did a phenomenal job with 
that.
    So, again, I think things are moving forward, and we are 
posed for the future. The work we are doing today postures us 
well for the activities in the future. And I look forward to 
your questions.
    [The prepared statement of Mr. Gerstenmaier follows:]
             Prepared Statement of William H. Gerstenmaier
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear before you today to discuss the status of the 
Space Shuttle and the International Space Station (ISS). It is a 
pleasure to report to you the good year we have had in the human space 
flight program, and the progress we are making in support of the 
Nation's exploration goals. I would like to give you an update on the 
Space Shuttle and ISS programs, discuss the challenges over the next 
five years, and share with you some of our success stories.
    Only a few weeks ago, the Shuttle made an unscheduled stop at the 
Rick Husband Amarillo International Airport in Texas. Resting atop its 
modified Boeing 747 carrier, the Shuttle Atlantis was returning to 
NASA's Kennedy Space Center (KSC) in Florida following a successful 
mission to the ISS. While the Shuttle waited in sunny Amarillo for 
better weather on its planned flight to KSC, television news coverage 
showed hundreds of people gathering around the airport perimeter to 
catch a glimpse of the Shuttle. A spontaneous American pilgrimage 
ensued. Some drove hours and took time off work. Parents brought their 
children and paid homage to their space program. The children and the 
grownups were in awe at the sight of Atlantis.
    Amarillo should remind all of us that the American public, in the 
face of challenges, even tragedy, values exploration and the 
contributions of the Space Shuttle and the ISS. NASA captures the 
imagination of Americans to reach farther, create opportunities, and 
live beyond the confines of our environment.

International Space Station (ISS)

    With each new assembly and logistics flight, with each additional 
year of continuous habitation, the ISS continues to grow in both size 
and capability. In the second half of 2006, NASA successfully completed 
three Space Shuttle missions, including ISS-12A (STS-115) and ISS-12A.1 
(STS-116), which continued ISS assembly with the addition of the P3, 
P4, and P5 truss segments. In June 2007, ISS-13A (STS-117) added the S3 
and S4 truss segments, further boosting available power on the ISS to 
42 kilowatts. This flight allowed for the final step in activating the 
permanent power and thermal systems on ISS. All of these new systems 
continue to operate flawlessly. As of the ISS-13A mission, the ISS is 
now almost 250 tons, which represents approximately 57 percent of the 
mass of the ISS once it is completed in 2010. The pressurized volume 
has grown to 14,509 cubic feet, representing approximately 45 percent 
of the final configuration, and ten of the twelve truss segments and 
three of the four U.S. solar arrays are already on-orbit.
    Our state of preparedness for the upcoming missions is also very 
high, with the ground-based teams exercised and fully engaged as a 
result of the recently completed orbital assembly operations. In the 
second half of calendar year 2007, three more Space Shuttle missions 
remain on schedule to deliver the S5 truss segment, Node 2, and the 
first partner laboratory. The flight readiness review for the first of 
these missions, ISS-13A.1 (STS-118), will start tomorrow, July 25, 
2007, in preparation for a launch no earlier than August 7. Together, 
ISS-13A.1 and the subsequent mission, ISS-10A (STS-120), will complete 
the major U.S. pressurized elements of the Station, after which we will 
turn our attention to fulfilling commitments to our international 
partners.
    Europe, Japan and Canada are preparing for an exciting period in 
human space flight as their elements launch over the next year. These 
will include the European laboratory Columbus, the Japanese laboratory 
Kibo and its pressurized logistics module, and the Canadian dexterous 
remote manipulator system Dextre. All of these elements have been 
delivered to KSC and are going through their final pre-flight checkouts 
and launch preparations. In addition, the European Autonomous Transfer 
Vehicle is scheduled for its maiden flight in early 2008.
    The ISS is also proceeding well along the path towards seeing the 
crew size expand from three to six in 2009. The U.S.-built oxygen 
generation system (OGS) has been integrated in the U.S. laboratory 
Destiny, and successfully demonstrated its ability to produce oxygen on 
July 13. The water recovery system has completed development and is 
awaiting launch in late 2008, thus completing the regenerative 
environmental control and life support system.
    In addition to the Space Shuttle assembly missions, we must not 
forget about the critical work being done on ISS every day. Since the 
last Space Shuttle mission, 1.8 million lines of software have been 
updated. This major update occurred with little fanfare but was 
critical to future assembly. In addition, NASA preparations for STS-118 
include a spacewalk by Expedition 15 astronauts Fyodor Yurchikhin and 
Clay Anderson to replace a failed remote power converter and clearing 
the P6 for movement on STS-120 by jettisoning the early ammonia 
servicer. Building, servicing, and utilizing the ISS is a twenty-four 
hour a day, seven day a week job for the ground controllers and crews--
exactly the type of training that is needed to prepare our teams and 
our systems for long-duration missions to the lunar surface, to Mars, 
and beyond.
    The Congressionally-mandated ISS Independent Safety Task Force 
(IISTF) completed its work in February and found the program to be 
``robust and sound. . .with respect to safety and crew health.'' The 
Task Force made seven principal recommendations that would further 
strengthen the ISS program by increasing the likelihood of mission 
success and mitigating risks to crew safety. NASA has taken action on 
those principal recommendations that are within our ability to effect, 
such as installation of Russian-built debris panels on their service 
module to reduce the risk of micrometeoroid and orbital debris impacts. 
We continue to monitor the performance of the debris protection system 
through regular inspections with the ISS robotic arm, through Space 
Shuttle ``fly arounds,'' and during extra-vehicular activities (EVAs) 
performed by the astronauts. All debris impacts seen so far are within 
the design capability of the ISS and are being recorded to improve our 
analytical debris models.
    With respect to the remaining IISTF recommendations, NASA has 
implemented a workforce strategy to ensure the Agency retains critical 
skills necessary to sustain the ISS. The Agency also remains on track 
to support completion of the current Space Shuttle flight plan for ISS 
assembly. The Agency may fly up to two additional ISS logistics flights 
if they are deemed necessary and can be flown before the end of 2010. 
The IISTF recommendation to comprehensively review the European ATV 
logistics flight has been closed based on the review completed January 
8, 2007.
    We have also completed development and installed the first of two 
Space Station-to-Shuttle power transfer systems (SSPTS) on the orbiter 
Endeavour for testing and verification on ISS-13A.1. SSPTS allows power 
generated by the ISS solar arrays to be transferred to, and used by, 
the Space Shuttle while docked to the ISS. This capability will allow 
the orbiters to remain docked at the ISS an additional three to four 
days, thereby extending our ability to conduct planned and unplanned 
EVA activities during the very complex assembly operations that lie 
ahead.
    We continue to employ the Station's unique attributes for the 
advancement of science and technology. During Expedition 14, there were 
thirty-two U.S. experiments conducted, and in Expedition 15 another 
twenty-one are underway. These range across the life and physical 
sciences, and highlight growing interest in use of the microgravity 
environment to advance knowledge in the fields of microbiology, 
genetics, bacteriology, and the metabolic nature of chronic human 
diseases. The upcoming ISS-13A.1 assembly mission will include research 
designed by Amgen, Inc., a leading Fortune 500 human therapeutics 
company in the biotechnology industry.
    A primary focus for U.S. research on ISS is to find ways of 
mitigating risks associated with long-duration human exploration of the 
Moon and Mars. These risks include a broad range of physiological and 
psychological issues, including those associated with extended 
operations in reduced and microgravity environments (such as 
accelerated bone loss, adaptation to changing gravity loads, muscle 
loss, changes to cardiovascular functions, altered immune system 
responses, and drug effectiveness), guaranteeing proper nutrition and 
medical support while operating far from Earth, improving ergonomics 
and human-machine interfaces, and ensuring effective crew performance 
and cohesiveness. The ISS is critically important to the success of 
future long-duration missions specifically because it is the only 
facility that combines the ambient environment and research 
capabilities needed to understand the extent of these risks with the 
ability to develop and test appropriate countermeasures.
    Research underway during the assembly phase is a prelude to future 
operation of the U.S. portion of the ISS as a National Laboratory as 
directed by Section 507 of the NASA Authorization Act of 2005 (P.L. 
109-155). On May 30, 2007, NASA submitted to the Subcommittee a report 
required by Section 507(c) which outlined the Agency's plans for 
operating the ISS as a National Laboratory, including progress in 
implementing a broad ISS applications development initiative and the 
prospects for productive utilization of the ISS in the post-assembly 
timeframe. This initiative is just beginning in anticipation of 
completing ISS assembly in 2010, and holds the promise for highly 
productive public and private partnerships in research and 
development--provided that needed space transportation services are 
available in the future.
    With respect to the logistical requirements for ISS operations and 
utilization after the retirement of the Shuttle, on March 1, 2006, as 
required by Section 505 (c)(2) of the NASA Authorization Act of 2005 
(P.L. 109-155), NASA submitted to the Subcommittee a report outlining 
contingency plans for logistics and on-orbit capabilities for the ISS. 
These plans include using the Space Shuttle to preposition key spares, 
working with industry to demonstrate and then utilize commercial 
services for transporting crew and cargo to the ISS, using the Crew 
Exploration Vehicle to supply the ISS if commercial services are 
unavailable, and working with International Partners to develop 
additional capacities in the event they become necessary. As of today, 
our plans remain the same as outlined in this report,

Space Shuttle

    As we reflect upon the four successful Space Shuttle missions (STS-
121, -115, -116, and -117) conducted in the last 11 months and get back 
into the rhythm of launching every couple of months, it is important to 
keep in mind that flying these vehicles is neither easy nor routine.
    The Space Shuttle is an extraordinarily capable transportation 
system, and it takes an equally extraordinary team to operate that 
system safely, time after time, mission after mission. When you are 
working on a construction site that is 200 nautical miles above the 
Earth's surface and that is dominated by hard vacuum and extreme 
temperature fluctuations, preparedness is essential for mission 
success. At Kennedy Space Center alone, hundreds of thousands of work-
hours are needed to prepare the hardware for flight. For every hour a 
crew member spends outside on an EVA during a mission, seven hours are 
spent in the training pool at the Neutral Buoyancy Laboratory at the 
Johnson Space Center in Texas practicing skills and choreographing each 
maneuver. The contributions of thousands of highly trained people from 
across our Nation and around the world need to be seamlessly brought 
together to develop integrated mission operations plans with our 
international partners, to properly equip and train ground and flight 
crews, and to coordinate launch and mission support activities across 
six continents.
    Our two biggest challenges over the next few years are maintaining 
the hard-won critical skills we need to safely fly out the Shuttle 
manifest and helping our workforce make a smooth transition to the 
post-Shuttle era. To address this concern, we have benchmarked other 
enterprises that have shut down major operations to implement best 
practices to retain our critical people. Although financial incentives 
can play a key role in employee retention, our best tool to retain 
employees is to provide meaningful and challenging work. We are doing 
this now through the challenging and exciting ISS assembly missions. 
Looking towards the future through retraining, job rotations, and other 
mechanisms, we are working hard to give people an opportunity to 
transition the skills learned flying the Shuttle to the design and 
operation of the next generation of vehicles.
    When we fly systems as capable and as complex as the Space Shuttle 
and the ISS in such a dynamic environment, we have to always be 
prepared for the unexpected and agile enough to react quickly and 
effectively. For example, weather considerations often play an 
important role in our mission planning, and severe weather conditions 
can have a significant impact on our operations. Such was the case on 
February 26, when an intense hailstorm struck the STS-117 vehicle as it 
was sitting on the launch pad and caused extensive damage to the foam 
on the external tank.
    That damage forced a roll-back to the Vehicle Assembly Building, 
where crews could build work platforms for controlled access to the 
vehicle. Within three months, NASA engineers and technicians analyzed 
over 6,000 discreet areas of foam damage, developed special tools and 
techniques and made repairs where necessary. Though the damage to the 
tank was extensive, our experience with various external tank foam 
repair techniques--combined with the powerful analytical tools 
developed during Return to Flight activities--enabled us to do the 
analysis and repairs swiftly and with a high degree of engineering 
confidence.
    Over the coming years, NASA will need to remain agile and focused 
on technical excellence if the Agency is to complete the important work 
that is in front of us. NASA has 13 missions on the manifest over the 
next 38 months, including 12 assembly flights to the ISS and a 
servicing flight to the Hubble Space Telescope. NASA could potentially 
also fly up to two contingency logistics flights to the ISS to 
preposition spares for the post-Shuttle era if these flights are deemed 
necessary and can be flown before the end of 2010. Even if NASA flies 
both contingency flights, the pace (which equates to four or five 
flights a year between 2008 and 2010) would still be consistent with 
the Agency's recent experience in flying three Space Shuttle missions 
(STS-121, -115, and -116) during the last six months of 2006.
    Barring further significant disruptions, NASA should be able to 
recover from the STS-117 launch delay and be back to plan by mid-2008. 
The rule that we will always follow is that, ``We will fly only when we 
are ready to fly. As always, the safety of our crew members is our 
paramount consideration.''
    The next mission, STS-118 (ISS-13A.1), to deliver and install the 
S5 truss segment, is in the final stages of preparation at Launch 
Complex-39A at KSC. Although STS-118 is targeted to be launched on 
August 7, we are mindful that the Phoenix Mars Lander Mission, 
scheduled to be launched from Cape Canaveral on a Delta II on August 3, 
has a 20-day planetary launch window that, once it expires, does not 
return for two years. STS-118 is the first flight of Endeavour since 
the fall of 2002, and the vehicle has received sufficient structural 
inspections and modifications to enable it to fly through 2010 without 
additional major modifications. During this flight, Endeavour will, for 
the first time, use the Global Positioning System for navigation 
purposes and power generated by the ISS solar arrays while docked to 
the ISS.
    Two more missions are scheduled for flight this year. During STS-
120 (ISS-10A) in October, Discovery will carry Node 2 to the ISS. 
Installing Node 2 will be extremely challenging both during the Shuttle 
mission and afterwards, with two EVAs scheduled to reposition the node 
after the Shuttle departs ISS. While the next mission still may need to 
be moved slightly, the December launch of STS-122 (ISS-1E) will see 
Atlantis transporting the European Space Agency's Columbus module.
    As we continue our preparations for these upcoming flights, we are 
also continuously improving the overall safety of the Space Shuttle 
system. Substantial progress has been made in preparing two important 
upgrades for deployment into the fleet--the Advanced Health Monitoring 
System (AHMS), and redesigns to the thermal protection system on the 
external tank. The first, AHMS, is an upgrade to the Space Shuttle main 
engines, one of the most complex elements of the Space Shuttle system 
and one of our highest areas of interest from an overall probabilistic 
risk perspective. Specifically, AHMS improves our ability to monitor 
the performance of the Space Shuttle main engines during flight and, 
under certain circumstances, can initiate a controlled shutdown of a 
suspect main engine during ascent. An AHMS controller was flown for the 
first time in a passive, monitoring mode on one engine for STS-116 in 
December, 2006, then in an active (control) mode on one engine for STS-
117 in June. AHMS controllers will be installed and in active mode on 
all three engines starting with STS-118.
    A second improvement effort has focused on continuing to reduce the 
debris risk posed by foam being released from the external tank during 
ascent. In addition to our continuous foam application process 
improvement efforts, we recently completed a critical design review for 
changes to the liquid hydrogen ice-frost ramps and liquid oxygen 
feedline bracket. The new ice-frost ramp design will be implemented on 
External Tank 120, currently scheduled to support mission STS-120 later 
this year. The ice-frost ramp and the feedline bracket redesigns will 
be flown together on External Tank 128, which will be flown before the 
Hubble Space Telescope servicing mission currently scheduled for 
September 2008.

Summary

    I believe that we are living in one of the most exciting eras so 
far in the history of space exploration. There are challenges in front 
of us, to be sure, and we will have to be ready to respond to the 
unexpected. But no one is more prepared to confront and overcome these 
challenges than the international team of engineers and technicians 
that are flying the ISS and the Space Shuttle today. And as we look 
towards future flights to the Moon, Mars, and beyond (where self-
sufficiency, independency and, above all, adaptability will mark the 
difference between success and failure), I can think of no better 
preparation than the work we're doing right now to complete the ISS and 
take best advantage of this unique research facility.
    I would be pleased to respond to any question you or the other 
Members of the Subcommittee may have.

                 Biography for William H. Gerstenmaier
    William H. Gerstenmaier is the Associate Administrator for Space 
Operations. In this position, Gerstenmaier directs NASA's human 
exploration of space. He also has programmatic oversight for the 
International Space Station, Space Shuttle, space communications and 
space launch vehicles.
    Formerly Gerstenmaier was the program manager of the International 
Space Station Office at NASA's Johnson Space Center in Houston, and was 
responsible for the overall management, development, integration, and 
operation of the International Space Station.
    In 1977, Gerstenmaier began his NASA career at the Glenn Research 
Center in Cleveland, Ohio, performing aeronautical research. He was 
involved with the wind tunnel tests that were used to develop the 
calibration curves for the air data probes used during entry on the 
Space Shuttle.
    Beginning in 1988, Gerstenmaier headed the Orbital Maneuvering 
Vehicle (OMV) Operations Office, Systems Division at Johnson Space 
Center, where he was responsible for all aspects of OMV operations. 
Subsequently, he headed Space Shuttle/Space Station Freedom Assembly 
Operations Office, Operations Division and was Chief, Projects and 
Facilities Branch, Flight Design and Dynamics Division.
    Gerstenmaier also served as Shuttle/Mir Program Operations Manager 
from 1995 to 1997. During this time he was the primary liaison to the 
Russian Space Agency for operational issues and negotiated all 
protocols used in support of operations during the Shuttle/Mir 
missions. In addition, he supported NASA 2 operations from Russia, 
January-September 1996.
    In 1998, Gerstenmaier became manager of Space Shuttle Program 
Integration, where he was responsible for the overall management, 
integration, and operations. In December 2000, he was named deputy 
manager of the International Space Station Program.
    Gerstenmaier received a Bachelor of Science in aeronautical 
engineering from Purdue University in 1977 and a Master of Science 
degree in mechanical engineering from the University of Toledo in 1981. 
In 1992 and 1993, he completed course work for a doctorate in dynamics 
and control with emphasis in propulsion at Purdue University.
    Gerstenmaier is the recipient of numerous awards, including three 
NASA Certificates of Commendation, two NASA Exceptional Service Medals, 
a Senior NASA Outstanding Leadership Medal, and the Presidential Rank 
Award for Meritorious Executives. He also was honored with an 
Outstanding Aerospace Engineer Award from Purdue University, and 
additionally, twice by Aviation Week and Space for Outstanding 
Achievement in the Field of Space.
    He is married to the former Marsha Ann Johnson. They have two 
children.

    Chairman Udall. Thank you, Mr. Gerstenmaier.
    Mr. Holloway, the floor is yours. If you would turn on your 
mike, Mr. Holloway.
    Mr. Holloway. Thank you.
    Chairman Udall. That is better. Thank you.

 STATEMENT OF MR. TOMMY W. HOLLOWAY, CHAIRMAN, ISS INDEPENDENT 
                       SAFETY TASK FORCE

    Mr. Holloway. Chairman Udall and Ranking Member Mr. Feeney, 
thank you for the opportunity to appear before you today. I 
will report on the observations and recommendations of the 
International Space Station Independent Safety Task Force. I 
will call it the task force.
    As required by the National Aeronautics and Space 
Administration's Authorization Act of 2005, the task force was 
formed to assess the vulnerabilities of the International Space 
Station that could lead to is destruction, compromise the 
health of the crew, or necessitate its premature abandonment.
    The task force offered its recommendations in the form of a 
final report which was submitted to NASA and the United States 
Congress in February of 2007. These recommendations, if 
followed, should strengthen the ISS Program by increasing the 
likelihood of mission success and mitigating risks to crew 
safety or health.
    I also should stress that if these, for the recommendations 
to be effective for the ISS to remain a robust and health 
program, sufficient support from the Administration and the 
Congress is required to ensure that the resources are provided 
and the safety-critical aspects of the ISS assembly and 
operations are enabled and maintained.
    ISS is an extremely large and complex vehicle, and at the 
time of the task force report had a current living volume of 
15,000 cubic feet and a weight of 455,000 pounds. Planned 
assembly will expand that to 33,125 cubic feet and 855,000 
pounds. Hardware and software are developed and tested all over 
the world, launched in Florida and at Baikonur, and assembled 
on-orbit at an altitude of approximately 215 nautical miles.
    Major systems including electrical power, cooling, data 
handling, and navigational control are distributed throughout 
the Station and are expanded and integrated as assembly 
progresses. Station assembly to date has gone exceptionally 
well and is a tribute to the ISS and Shuttle teams. Anomalies 
occur but are dealt with quickly and with outstanding results 
as demonstrated in December, 2006, by the solar wing retraction 
problem where the space walking astronauts assisted in the 
retraction of the jammed solar wing.
    These factors plus result in a complex and a distributed 
program with a highly technical and distributed management 
system that must be staffed by highly-skilled engineers and 
skilled and experienced managers. Maintaining critical 
technical and management skills in the ISS Program as the ISS 
matures and NASA's exploration program staff up will be a 
challenge requiring proactive and continuing attention by NASA 
management.
    The ISS on-orbit vehicle is a robust and to the extent 
practicable, meets a two failure-tolerance requirement to 
minimize the likelihood of a catastrophic event. The Russians 
and the U.S. systems provide robust redundancy from dissimilar 
hardware and designs in critical systems such as guidance, 
navigation, and control, environmental control and lift 
support, and crew/cargo transportation. For most safety-related 
issues, time is available to mitigate vulnerabilities by 
switching to redundant systems, performing maintenance repairs 
by the crew, or relying on consumable reserves until a future 
logistics flight can be launched to the Station.
    Time-critical exceptions to these failure tolerances are 
uncontrolled fire, collision with micrometeoroid or orbital 
debris, toxic spills, or collision with a visiting vehicle. 
However, the task force found that the system's design, 
testing, and adherence to operational procedures provide 
adequate controls or that adequate mitigations are being 
developed by NASA for these conditions.
    I will now summarize the principal observations and 
recommendations of the task force. First of all, the 
observations.
    The International Space Station is currently a robust and 
sound program with respect to safety and crew health. Safety 
and crew health issues are well documented and acceptable and 
are either adequately controlled or mitigations are being 
developed to maintain acceptable risks.
    The ISS program has strong and proactive crosscutting 
functions that, if continued, should provide adequate 
indications and warnings that will avoid events that might lead 
to destructions of the Station.
    The International Space Station currently has an 
experienced and knowledgeable and proactive team, both 
internally and in institutional technical checks and balances, 
that provides the defense for process and management failures 
that might lead to a safety or health issue. This posture must 
be maintained to continue the Station's successful operations.
    Micrometeoroid and orbital debris penetrating the living 
quarters or damaging critical equipment is highly, a high 
safety risk to the crew and the Station.
    There are significant programmatic risks associated with 
completing the ISS Shuttle manifest and providing robust post-
Shuttle logistics capability that threaten the ability to 
support a viable station.
    Design, development, and certification of the new COTS 
System capability for ISS re-supply are just beginning. If 
similar to other new programs, it most likely will take much 
longer and cost much more.
    Current International Traffic in Arms Regulation 
restrictions on NASA are a threat to the safe and successful 
integration and operation of International Space Station.
    Principle recommendation of the task force are the 
International Space Station Program should place the highest 
priority on options to decrease the risk of micrometeoroid and 
orbital debris.
    NASA should develop and implement plans to maintain Station 
critical skills and experienced managers.
    The Administration, Congress, and NASA should support the 
completion of the current Shuttle manifest to the International 
Space Station, including ULF-4 and ULF-5 to assemble a viable 
station and provide spares for the long-term operations.
    The Administration, Congress, and NASA should support a 
proactive and phased post-Shuttle logistics transportation 
program, including adequate funding to insure that adequate 
logistics and spares are available to maintain a viable 
Station.
    Department of State should grant immediate relief from the 
International Traffic in Arms Regulation restrictions in the 
form of an exception to allow NASA contractors to direct 
interaction with the International Space Station's 
International Partners and their contractor.
    Other details of the principle recommendations as well as 
additional recommendations can be found in the body of the 
report, ``Final Report of the IISTF Task Force.''
    And finally, it should be noted that NASA's support and 
responsiveness to the task force was excellent through the 
process of developing the data and material required to 
accomplish the charter of the task force. The program manager 
and his team supported the technical review meetings and 
provide invaluable insight and technical data on the issues 
associated with the task force charter.
    Thank you very much.
    [The prepared statement of Mr. Holloway follows:]
                Prepared Statement of Tommy W. Holloway
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear before you today. I will report to you on the 
observations and recommendations of the International Space Station 
Independent Safety Task Force.
    As required by the National Aeronautics and Space Administration 
(NASA) Authorization Act of 2005 (Public Law 109-155), the 
International Space Station Independent Safety Task Force (IISTF) was 
formed to assess vulnerabilities of the International Space Station 
(ISS) that could lead to its destruction, compromise the health of its 
crew, or necessitate its premature abandonment. The Task Force offered 
its recommendations in the form of its final report which was submitted 
to NASA and the United States Congress in February of 2007. The Task 
Force recommendations, if followed, should strengthen the ISS Program 
by increasing the likelihood of mission success and mitigating risks to 
crew safety or health. It is important to stress that, for these 
recommendations to be effective and for the ISS to remain a robust and 
healthy Program, sufficient support from the Administration and 
Congress is required to ensure that resources are provided and the 
safety-critical aspects of ISS assembly and operations are enabled and 
maintained.
    The ISS Program is an international partnership comprised of the 
United States, Russia, Canada, the members of the European Space 
Agency, and Japan. Some 16 countries are in the partnership or involved 
via bilateral agreements with a Partner in building, operating, and 
using the ISS. This partnership will continue throughout the 
operational (post-assembly) phase of the Program, where NASA will 
continue to be responsible for the sustaining engineering, operation of 
NASA's elements, and integration of the Station.
    The ISS is an extremely large and complex vehicle and at the time 
of the IISTF report had a current living volume of 15,000 cubic feet 
and a weight of 455,000 pounds. Planned assembly will expand it to 
33,125 cubic feet and 855,000 pounds. Hardware and software are 
developed and tested all over the world and are assembled and operated 
on orbit at an altitude of approximately 215 nautical miles. Major 
systems including electrical power, cooling, data handling, and 
navigational control are distributed throughout the Station and are 
expanded as assembly progresses. Station assembly to date has gone 
exceptionally well and is a tribute to the ISS and Shuttle teams. 
Anomalies occur but are dealt with quickly and with outstanding results 
as demonstrated in December 2006 by the solar wing retraction problem 
on ISS flight 12A.1/STS-116, where the spacewalking astronauts assisted 
in the retraction of the jammed solar array wing.
    These factors result in a complex and distributed program with a 
highly technical and distributed management system that must be staffed 
by highly skilled engineers and skilled, experienced managers. 
Maintaining critical technical and management skills in the ISS Program 
as the ISS matures and NASA's exploration program staffs up will be a 
challenge requiring proactive and continuing attention by NASA 
management.
    NASA depends heavily on U.S. contractors for technical support of 
Station integration and for vehicle operations. These contractors are 
the source of data and expertise that are critical in ensuring mission 
safety and success, and their timely participation is essential to 
meeting mission schedules. Due to the international nature of the ISS 
Program, this support requires mandatory interfaces with NASA's 
International Partners (IPs).
    Currently the International Traffic in Arms Regulation (ITAR) 
restrictions and IP objections to signing what the IPs believe are 
redundant Technical Assistance Agreements are a threat to the safe and 
successful integration and operation of the Station. For example, a 
contractor workforce comprises a majority of the operations workforce 
and must be able to have a direct interface with the IP operations team 
to assure safe and successful operations. Their interactions and their 
ability to exchange and discuss technical data relevant to vehicle 
operations are severely hampered by the current ITAR restrictions. This 
is an issue across the ISS Program, but must be resolved soon to allow 
operations training for the first flight of the European Space Agency's 
Automated Transfer Vehicle (ATV) in the first part of 2008.
    The ISS on-orbit vehicle is robust and, to the extent practicable, 
meets a two failure-tolerance requirement to minimize the likelihood of 
catastrophic events. The Russian and U.S. systems provide robust 
redundancy from dissimilar hardware and designs in critical systems 
such as guidance, navigation, and control; environmental control and 
life support; and crew/cargo transportation. For most safety-related 
issues, time is available to mitigate vulnerabilities by switching to 
redundant systems, performing maintenance/repairs by the crew, or 
relying on consumables reserves until a future logistics flight can be 
launched to the Station.
    Time-critical exceptions to the failure tolerance requirements are 
uncontrolled fire, collision with micrometeoroid and orbital debris 
(MMOD) leading to a major loss of cabin pressure, toxic spills, or a 
collision with a visiting vehicle. However, the Task Force found that 
systems design, testing, and adherence to operational procedures either 
provide adequate controls or that adequate mitigations are being 
developed for these conditions. For example, the risk of MMOD 
penetrating the ISS in its Assembly Complete configuration is 55 
percent with a nine percent risk of a catastrophic result over a 10-
year period. This risk can be reduced to 29 percent and five percent 
respectively by implementation of changes that are available or being 
considered for development. It must be recognized that regardless of 
the efforts put forth, operating in space is, and will be for the 
foreseeable future, inherently risky and requires continuing discipline 
and diligence to maintain safe operations.
    The transition from the space Shuttle to post-Shuttle system(s) for 
logistical support to the ISS will require careful planning and phasing 
of new capabilities to ensure adequate logistics and spares are 
provided to maintain a viable Station. Approximately 160,000 pounds of 
logistics and spares must be transported to the Station between 2010 
and 2015 by the Russian Progress or emerging transportation systems. 
The Program's IP's have committed to launch 40,000 pounds of this 
required 160,000-pound requirement. Premature commitment to emerging 
logistics delivery capability--if it does not materialize--could result 
in the loss of logistics support to the ISS for some time. Inadequate 
logistics will result in a serious decrease in the utility of the 
Station and could result in its abandonment.
    The ISS Program has excellent processes and mechanisms in place on 
multiple fronts to ensure proper Program execution. A major component 
of avoiding catastrophic problems is continued diligence in monitoring 
the ISS system including hardware design, software development, flight 
preparation, and flight operations to detect and avoid unknown problems 
or inadequately defined operational environments. The ISS Program must 
maintain its current level of diligence throughout the life of the 
Station, never letting previous successes lead to a compromise in the 
required level of support or attention to detail. NASA manages the 
health of ISS flight crews with intensive pre-flight medical screening, 
certification as ``fit to fly,'' regular in-flight health monitoring, 
and a limited capability to diagnose and treat illness and injuries on 
board. In a worst-case scenario, a spontaneous health event may 
necessitate returning the crew to Earth for specialized medical 
attention, which would result in temporary abandonment of the ISS. 
Analogue environment data (i.e., Antarctica and submarine populations) 
and astronaut health events on the ground indicate that, with an ISS 
crew of six, the Program might expect a spontaneous medical event 
requiring medical evacuation once every four to six years.

Principal Observations

        1.  The International Space Station Program is currently a 
        robust and sound program with respect to safety and crew 
        health. Safety and crew health issues are well documented and 
        acceptable, and are either currently adequately controlled or 
        mitigations are being developed to maintain acceptable risk 
        levels.

        2.  The International Space Station Program has strong and 
        proactive crosscutting functions that--if continued--should 
        provide advance indications and warnings that will avoid events 
        that might lead to destruction of the Station, loss of the 
        Station crew, abandonment of the Station, or development of 
        untoward crew health issues. The International Space Station 
        Program's operating procedures and processes are thorough and 
        sound.

        3.  The International Space Station currently has an 
        experienced, knowledgeable, and proactive team, both internally 
        and in its institutional technical checks and balances, that 
        provides the defense for process and management failures that 
        might lead to an ISS safety or major crew health issue. This 
        posture must be maintained to continue the Station's successful 
        operation.

        4.  Micrometeoroid and orbital debris penetrating the living 
        quarters or damaging critical equipment is a high safety risk 
        to the crew and the Station.

        5.  Spontaneous crew illness is a significant crew risk and may 
        necessitate returning the crew to Earth for specialized medical 
        attention, which would result in temporary abandonment of the 
        Station. International Space Station medical and Program 
        management officials are taking all reasonable precautions to 
        minimize this risk.

        6.  There are significant programmatic risks associated with 
        completing the ISS Shuttle manifest and providing robust post-
        Shuttle logistics capabilities that threaten the ability to 
        support a viable Station.

        7.  Workforce composition is a growing concern throughout NASA 
        because of the technical and specialized nature of most of the 
        agency's work and the large-scale program transition now under 
        way. The International Space Station Program is vulnerable to 
        critical management losses, making strategic workforce planning 
        as important as ever.

        8.  Design, development, and certification of the new 
        Commercial Orbital Transportation System capability for ISS re-
        supply are just beginning. If similar to other new program 
        development activities, it most likely will take much longer 
        than expected and will cost more than anticipated.

        9.  The current International Traffic in Arms Regulation 
        restrictions on NASA are a threat to the safe and successful 
        integration and operations of the International Space Station.

Principal Recommendations

        <bullet>  The International Space Station Program should place 
        the highest priority on options to decrease the risk of 
        micrometeoroid and orbital debris.

        <bullet>  NASA should develop and implement plans to maintain 
        Station critical skills and experienced managers.

        <bullet>  The Administration, Congress, and NASA should support 
        the completion of the current Shuttle manifest to the 
        International Space Station, including flights ULF-4 and ULF-5, 
        to assemble a viable Station and provide spares for its long-
        term operation.

        <bullet>  The Administration, Congress, and NASA should support 
        a proactive and phased post-Shuttle logistical transportation 
        program, including adequate funding of approximately one 
        billion dollars per year above current allocations to ensure 
        that adequate logistics and spares are available to maintain a 
        viable Station.

        <bullet>  NASA senior management should conduct a comprehensive 
        review of the Automated Transfer Vehicle to ensure agreement on 
        the policies, approach, and technical implementation of the 
        safety strategy for the Automated Transfer Vehicle's 
        demonstration.

        <bullet>  The Department of State should grant immediate relief 
        from the International Traffic in Arms Regulation restrictions 
        in the form of an exemption to allow NASA contractors direct 
        interaction with the International Space Station's 
        International Partners and their contractors. This must be 
        affected no later than summer 2007 to support Automated 
        Transfer Vehicle operations.

        <bullet>  The ISS Program should carefully consider 
        implementing all IISTF recommendations to improve the overall 
        safeguards and controls against vulnerabilities.

    Further details on the principal recommendations as well as 
additional recommendations can be found in the body of the report 
``Final Report of the International Space Station Independent Safety 
Task Force.''
    It should be noted that NASA's support and responsiveness to the 
Task Force was excellent through the process of developing the data and 
material required to accomplish the charter of the IISTF. The Program 
Manager and his team supported the technical review meetings and 
provided invaluable insight and technical data on the issues associated 
with the IISTF's charter.
    With respect to the specific questions in the letter inviting me to 
testify at the House Committee on Science and Technology's Subcommittee 
on Space and Aeronautics the following is provided. My recommendations 
reflect the recommendations documented in the Task Force's report.

1.  What are the most significant findings and recommendations of the 
International Space Station Independent Safety Task Force?

    The principal observations and recommendations discussed above are 
the most significant findings and recommendations.

2.  What was NASA's response to the Task Force's findings, and are 
there particular areas that you think require additional attention or 
action by NASA?

    Per the NASA Authorization Act of 2005 (Public Law 109-155), the 
task force's charter expired in February, 2007. No further exchange 
between the NASA and the Task Force has occurred since that time. Since 
I am currently a private citizen, I do not have any personal insight 
into the status of NASA's response to these recommendations. For these 
reasons, I cannot comment on NASA's response to the task force 
recommendations.

3.  The Task Forces' report indicates that the risk of a ``catastrophic 
result'' from collision with micrometeoroid and orbital debris could be 
reduced to five percent over a 10-year period ``by implementation of 
changes that are available or being considered for developed.'' Is NASA 
in fact implementing all the changes you reference, and if not, would 
the resulting level of risk be acceptable to the Task Force? In any 
event, did the Task Force consider the five percent to be an acceptable 
level of risk?

    Per the NASA Authorization Act of 2005 (Public Law 109-155), the 
task force's charter expired in February, 2007. No further exchange 
between the NASA and the Task Force has occurred since that time. Since 
I am currently a private citizen, I do not have any personal insight 
into the status of NASA's response to these recommendations. For these 
reasons, I cannot comment on NASA's response to the task force 
recommendations.
    The ISS Program's requirement of ``five percent probability of no 
catastrophic penetration'' was considered by the Task Force to be 
reasonable given the state-of-the-art in shielding design, the mass-to-
orbit limitations and the state of the development and deployment of 
the ISS elements.

4.  The Task Force report discusses the risk associated with post 
Shuttle logistics capabilities to support the ISS. What would you 
recommend?

    I would develop and implement a fully integrated logistics support 
plan with off and on-ramps of available and planned capability for the 
logistics support for the Assembly Complete/six crew member/post-
Shuttle era. The plan would include projected budget requirements for 
logistics support. I would recommend the Administration and the 
Congress support this plan.
    I would not commit the ISS to an unproven logistics support system 
such as COTS. If a proven logistics support system is not available, I 
would commit to the future capability that is determined by engineering 
analysis to have the highest chance of success until emerging 
capabilities are proven.
    To ensure not being forced into dependency on an unproven 
capability I would procure additional spare proven capability to assure 
a smooth transition to unproven capabilities later and to minimize 
transition through down periods on logistics delivery systems.
    I would develop an option that ensures that the two remaining 
Shuttle exterior logistics flights are given the highest priority for 
flight, in front of Node 3, if necessary, to avoid exacerbating a 
problem should all planned Shuttle flights not be completed.

5.  Why does the Task force consider the current International Traffic 
in Arms Regulations restrictions to be ``a threat to safe and 
successful integration and operations of the International Space 
Station,'' and what would you recommend be done?

    NASA depends heavily on U.S. contractors for technical support for 
Station integration and for operations. These contractors are the 
source of data and expertise that is critical in meeting schedules and 
performing mandatory work with the IPs. For example, the mission 
operations contractors comprise a majority of the operations workforce 
and must be able to have a direct interface with the IP operations 
teams to assure safe and successful operations. Currently the ITAR 
restrictions and the IPs' objections to signing technical assistance 
agreements are a threat to the safe and successful integration and 
operations of the Station.
    Each U.S. contractor working with the European, Japanese, and 
Russian space agencies is required to apply for a Technical Assistance 
Agreement (TAA) from the State Department that governs their 
interactions with foreign entities for each specific relationship. U.S. 
aerospace and defense companies are accustomed to dealing with these 
TAA requirements in what has become a normal part of international 
business. However, when the Department of State approvals are too 
narrowly defined and come with many caveats, limitations, and provisos, 
they severely restrict Program management flexibility. The constraints 
imposed by the current processes result in lost time and opportunity to 
share critical data to enable a robust joint Program.
    I would grant immediate relief in the form of an exemption to allow 
NASA contractors direct interaction with the IPs and their contractors 
to facilitate and accommodate all engineering and safety reviews, data 
exchanges pertaining to specific ATV/HTV hardware and software, Program 
management interactions, and flight operations including anomaly 
resolution.

                    Biography for Tommy W. Holloway
    Mr. Holloway retired in 2002 as Manager of the International Space 
Station Program for NASA's Johnson Space Center. Mr. Holloway was named 
Space Station manager in April 1999 after serving as Manager of the 
Space Shuttle Program (SSP) for nearly four years. He began his career 
with NASA in 1963, planning activities for Gemini and Apollo flights. 
He was a Flight Director in Mission Control for early Space Shuttle 
flights and became Chief of that office in 1985. In 1989, he was named 
Assistant Director for the SSP for the Mission Operations Directorate. 
He served as Deputy Manager for Program Integration with the SSP and 
Director of the Phase 1 program of Shuttle-Mir dockings before being 
named SSP Manager in August 1995. He served on the National Research 
Counsel Committee on Assessment of Options for Extending the Life of 
the Hubble Space Telescope (2004-2005). He received his B.S. in 
Mechanical Engineering from the University of Arkansas and has earned 
numerous honors and awards including Presidential Meritorious and 
Distinguished Ranks, the Robert R. Gilruth Award, and the Rotary 
National Space Trophy.

    Chairman Udall. Thank you, Mr. Holloway.
    Dr. Neitzel, the floor is yours.

STATEMENT OF DR. G. PAUL NEITZEL, PROFESSOR OF FLUID MECHANICS, 
                GEORGIA INSTITUTE OF TECHNOLOGY

    Dr. Neitzel. Mr. Chairman and Ranking Member Feeney and 
members of the Subcommittee, thank you for inviting me to 
testify before you today on these important matters relating to 
the Space Shuttle and the International Space Station.
    My name is Paul Neitzel. I am a Professor of fluid 
mechanics and mechanical engineering at Georgia Tech. I am here 
today as a representative of NASA's external research community 
and shall do my best to communicate to you some of these, its 
concerns.
    The International Space Station or ISS has always been 
justified in large part as providing an experimental platform 
operating in a unique environment of weightlessness or 
microgravity to permit research relevant to future human space 
exploration as well as fundamental and applied research that 
can increase our understanding of certain phenomena, 
potentially leading to enhanced terrestrial applications.
    NASA through the 1990's had developed an impressive 
external research community in the life and physical sciences 
to investigate such questions. This growth was a conscious 
decision on the part of the agency, made both to access new 
ideas and to expand the ground-based research program to insure 
that the very best projects requiring access to microgravity 
could be identified and subsequently flown. This community 
included the best researchers in the United States in their 
respective fields. In the 2003 Office of Biological and 
Physical Research Task Book, more than 1,700 co-investigators 
and nearly 3,000 students were identified as working on roughly 
1,000 tasks.
    In the aftermath of the tragic loss of the Columbia and her 
crew in February, 2003, and the mission shift resulting from 
President Bush's 2004 Vision for Space Exploration, NASA made a 
decision to terminate all external, non-exploration research 
and to significantly cut back on the number of external 
exploration projects, effectively wiping out the community of 
researchers that had been assembled.
    Some of NASA's rationale for doing this is understandable, 
given the loss of a vehicle with which to continue the assembly 
of the ISS and the minimum budget plus-up of $1 billion over 
five years devoted to the implementation of the vision. NASA is 
an agency that is always being asked to accomplish too much 
with too little. However, it is my belief that NASA's decision 
to proceed in this fashion is shortsighted and inconsistent 
with developing the types of systems that will best allow us to 
return to the Moon between 2015, and 2020, and prepare for more 
ambitious missions.
    The vast majority of fundamental and applied scientific 
research in this country is conducted at colleges and 
universities, where faculty work in conjunction with students 
from undergraduates to post-doctoral research fellows, to make 
the breakthroughs that help drive our economy. By shutting out 
input from this community NASA not only denies itself access to 
potentially groundbreaking results of relevance to its mission, 
it also effectively guarantees the future workers it will 
require will be neither motivated to work on NASA-related 
problems, nor even be knowledgeable of them.
    In addition, the hundreds of researchers who have had their 
NASA research programs terminated are moving onto other 
pursuits and are likely to be unable, if even willing, to 
return to problems NASA will need to have solved in the future.
    The restriction to a small number of exploration-related 
projects is also likely to cause NASA to lock into choices at 
an earlier time than it should for systems currently under 
development. Consistent with the President's Vision, NASA 
should be exploring the development of systems that will permit 
future missions that may be of much longer duration than a trip 
from here to the Moon. Such missions will require the 
development of new, mass-efficient, dual-use systems that will 
accomplish their functions both on a reduced-gravity, heavenly 
body as well as during the extensive period of zero gravity 
required to get here. ISS is the only research platform capable 
of investigating the latter regime.
    Finally, the elimination of fundamental ground-based and 
microgravity research denies the agency and the country the 
possibility of results from curiosity-driven research that has 
been the hallmark of academic research throughout history. Such 
work may or may not have immediate application. Fundamental 
work done by Lord Rayleigh on the breakup of liquid jets 
roughly 100 year ago forms the basis of technology used in both 
the inkjet-printing and rapid-prototyping devices of today.
    NASA's plans for the utilization of the ISS by researchers 
funded by other federal agencies are, in my opinion, 
unrealistic at this point in time given the long lead times 
required to develop flight hardware and the finite lifetime of 
the ISS. The ISS National Laboratory concept, while one I 
support, is but a hollow shell without dedicated funding to 
enable both the research to be done on ISS and the expensive 
costs of transporting experiments to and from it. This funding, 
furthermore, must be fenced off from the standard NASA budget 
to prevent it from being redirected by the agency to other 
needs.
    Without a vigorous program of ground- and space-based 
research designed to exploit the unique environment of the ISS, 
we are squandering this valuable resource. We are potentially 
relinquishing our leadership in space-based research to other 
nations, and we are dimming the spark of discovery that 
motivated many of the current generation of such researchers, 
including yours truly.
    Thank you again, Mr. Chairman, for the opportunity to 
appear here today. I am happy to try to answer any questions 
the Subcommittee may have.
    [The prepared statement of Dr. Neitzel follows:]
                 Prepared Statement of G. Paul Neitzel
    Mr. Chairman, Ranking Member Feeney and Members of the 
Subcommittee: thank you for giving me the opportunity to testify on the 
subject of ``NASA's Space Shuttle and International Space Station 
Programs: Status and Issues.'' My name is Paul Neitzel and I am a 
professor of fluid mechanics in the George W. Woodruff School of 
Mechanical Engineering at the Georgia Institute of Technology. I appear 
today as a member of the NASA external research community. My 
experience as a principal investigator (PI) on NASA-sponsored research 
goes back more than twenty years and I have had the occasion to serve 
the agency in several advisory capacities over that period of time. Of 
particular relevance to the subject of today's hearing is my prior 
service on the Space Station Utilization Advisory Subcommittee (1995-
99) and on two groups (in 1999 and 2000) tasked to examine the 
management of research aboard the International Space Station (ISS). In 
my written testimony below, I shall address some of the issues I feel 
are important to ensure that the full promise of the ISS as a research 
laboratory is realized.
    The International Space Station is the culmination of America's 
desire for a ``permanent'' research facility in low-Earth orbit that 
began with the launch of Skylab in 1973 and continued with the Shuttle-
Mir program. The final incarnation of the ISS will be a facility built 
with the cooperation of sixteen partner nations. The ISS has always 
been described, among other things, as a laboratory for performing 
research under the weightless conditions of free-fall, both to enable 
further human and robotic exploration of space and to answer 
fundamental questions that could lead to enhanced understanding of 
terrestrial phenomena, such as the influence and interactions of forces 
that are often obscured on Earth by the presence of gravity.
    NASA's research program in the life and physical sciences began 
modestly. The physical sciences program grew out of a program called 
Materials Processing in Space that sought to explore microgravity to 
produce materials of improved quality; at the end of the 1980's only 
about 70 physical science PIs were receiving funding. In this period, 
there was pressure on the PI community to develop flight experiments to 
ensure that payload spaces on the Space Shuttle were full. This 
pressure led to the development and flight of several (often very 
expensive) experiments that were either poorly conceived, did not 
require the weightless environment to answer the research questions, or 
both, leading to criticism from parts of the scientific community of 
the quality of NASA-sponsored science.
    Beginning about 1989 and continuing through the 1990's the former 
Office of Life and Microgravity Science and Applications (OLMSA) made a 
conscious decision to greatly expand its ground-based research program. 
The basis for this expansion was to broaden the participating research 
community to access new ideas and to increase the number of 
investigations to allow the best, most deserving candidates for flight 
experiments to percolate up through the pool. This decision served to 
attract a much broader cross-section of the life- and physical-science 
research communities to NASA-related research, leading to the 
development of flight experiments truly worthy of the unique resources 
provided by the Shuttle and the ISS. At its zenith the budget of the 
then Office of Biological and Physical Research (OBPR is what OLMSA 
morphed into) had grown to approximately $1B and the FY03 OBPR Task 
Book (http://peer1.nasaprs.com/search2003/metrics2003.cfm) shows a 
broad research program containing roughly 1,000 tasks, supporting over 
1,700 PIs and co-investigators and nearly 3,000 students, ranging from 
undergraduates to postdoctoral fellows. A summary from this document of 
the numbers of tasks, investigators and students supported is included 
as Table 1. In my own discipline of fluid physics, which is concerned 
with the behaviors of liquids and gases, I can state without hesitation 
that the program supported the very best researchers in the United 
States and had far surpassed other federal agencies as the principal 
supporter of fundamental and applied research in the field.
    On Saturday, February 1, 2003, the Nation watched, horrified, as 
the Space Shuttle Columbia broke apart upon reentry following a 
successful research utilization flight to the ISS. Needless to say, the 
tragic loss of the crew and their vehicle, along with the time lag 
prior to return-to-flight caused serious slippages in both the ISS 
assembly sequence and the conduct of research aboard both the Shuttle 
and the ISS. The progress of research was further exacerbated by the 
decision to limit the crew size aboard the ISS to two persons, down 
from three and far short of the full complement of six, further 
negatively impacting research during the assembly phase.
    In January, 2004, President Bush put forth his Vision for Space 
Exploration (VSE, or ``the Vision,'' for short), calling for the 
completion of the ISS by 2010, retirement of the Shuttle at that time 
and the development of a new Crew Exploration Vehicle (CEV), to be used 
both for sorties to the ISS and exploration of the lunar surface, 
returning humans to the Moon between 2015 and 2020. Lunar exploration 
was further mentioned as permitting astronauts to develop new 
technologies as necessary a stepping stone to more challenging 
environments, including Mars. The funding for the Vision amounted to 
$12B over five years, $11B of which was to come from reallocation of 
funds within NASA's existing budget, with a $1B plus-up.
    Although the life- and physical-science research program had begun 
to suffer from decreased funding in the aftermath of the Columbia 
accident, the transition to the implementation of VSE was its death 
knell. In December, 2005, NASA sent letters to hundreds of 
investigators in the program, informing them of significant cuts in 
their funding for FY06 and the termination of their grants effective 
September 30, 2006. In line with the Vision, NASA decided that future 
agency-supported research would be restricted to exploration needs, 
namely the study of ``exploration requirements in human health and 
countermeasures as well as applied physical sciences for fire 
prevention, detection, and suppression; multi-phase flow for fluids 
such as propellant; life support; and thermal control applications,'' 
as stated in The National Aeronautics and Space Administration (NASA) 
Research and Utilization Plan for the International Space Station (ISS) 
published last year. The small number of projects being investigated, 
although relevant to exploration, is inconsistent with the conduct of a 
robust, safe exploration program that will send astronauts to the Moon 
no sooner than 2015.
    During a period with limited flight opportunities and a major shift 
in mission focus, precisely the opposite should be occurring within 
NASA's research programs. I shall focus on the physical sciences for 
the moment. Long-duration exploration such as a 500 day mission to Mars 
requires new solutions to long-standing problems. A principal 
limitation associated with such a mission is the up-mass that can be 
accommodated with a given launch vehicle. For a 16-day Shuttle mission, 
a stay aboard the ISS with regular resupply, or even a lunar outpost 
permitting periodic re-supply, existing solutions to environmental and 
vehicle needs may suffice. For a Mars mission, however, every kilogram 
devoted to an environmental- or fire-control system, for example, is 
one kilogram less that may be used for food and water. New systems for 
Mars missions will also need to be ``dual-use,'' in that they will need 
to be able to function for an extended period of microgravity during 
flight as well as in the 3/8 g Martian gravity. Hence, new, more mass-
efficient solutions need to be sought for such problems and a robust 
program of both fundamental and applied ground-based research should be 
able to identify good candidates for subsequent flight testing and 
development as the ISS facilities become available. The current 
exploration research plan appears to be focused on the investigation of 
very limited possibilities for such solutions, and is likely to yield 
less-than-optimal ones. The decision to rush to development at this 
stage is hard to understand; in this era of incredibly fast-paced 
technological development, NASA owes it to itself to keep as many 
options open until it is absolutely necessary to start ``cutting 
metal.''
    Under the 2005 NASA Authorization Act, NASA has been directed to 
devote 15 percent of its ISS research funds to non-exploration 
research. The figure for FY07 includes $3.1M for ISS physical science, 
$1.7M for ISS life science, $3.9M for research aboard free-flyer 
vehicles, and $3.3M for ground-based grants, for a total of $12M. This 
number is particularly small, in part, due to the fact that the 15 
percent is mandated to come from the ``ISS research'' funds, which are 
at a depressed level due to the inability to conduct meaningful amounts 
of research on the vehicle during the compressed assembly sequence. As 
a comparison point, the $3.3M devoted to ground-based research would 
support, at minimal funding levels, roughly 30 PIs, a figure that can 
be compared with the numbers from the 2003 OBPR Task Book that were 
mentioned above and included in Table 1, namely, roughly 1,000 tasks 
supporting more than 1,700 PIs and co-investigators and nearly 3,000 
students. Furthermore, the non-exploration fundamental and applied 
research that could be conducted aboard the ISS under a robust research 
program aligns perfectly with the goals of the American Competitiveness 
Initiative.
    The recent decimation of the external research community has other 
consequences. First, NASA seems to regard research as a spigot that can 
be turned off and on at will. I would agree that it is easy to turn off 
the research spigot at any time, but in doing this, NASA is also 
shutting down the water-treatment plant that supplies the spigot. The 
reestablishment of an external research community will take years, if 
it can be accomplished at all. My colleagues in the life and physical 
sciences have a variety of research interests for which funding is 
available through other federal agencies as well as from private 
industry. The very best members of the research community are moving on 
to other pursuits and are not likely to be able, if even willing, to 
reengage in microgravity-related in the future.
    Second, NASA is fond of speaking of the current crop of researchers 
who were motivated to pursue careers in space-related research by their 
fascination with the Mercury, Gemini and Apollo programs that 
culminated in landing astronauts on the Moon. With the absence of NASA-
oriented research programs in our universities, where will the next 
generation of these researchers come from? Those of us in the higher-
education community are sensitive to the fact that it has become harder 
to attract, and most importantly, to retain American students to study 
mathematics, engineering and the sciences. With the loss of motivators 
such as the possibility of a career in a vibrant, active, space-
research program, one more incentive for future students disappears. As 
mentioned already, the former OBPR research program provided 
opportunities for nearly 3,000 U.S. students to engage in meaningful 
NASA-related life- and physical-science research. Other nations, 
notably China, are increasing their emphasis on space research; Asian 
cultures, in general, embrace the study of science and engineering. As 
we stand by and watch jobs and technology being transferred overseas, 
are we as a nation prepared to relinquish our superiority in space 
research and in the associated discoveries that can drive new 
businesses and jobs?
    Finally, abandonment by NASA of the ISS as a platform for 
fundamental and applied external research with both exploration and 
non-exploration applications sends an unfavorable message to the 
international partners who have contributed their time and money to 
make the ISS a reality. How can the United States, in good conscience, 
turn its back on these partners, not to mention the American taxpayers 
who have borne the bulk of these expenses? An incredible investment of 
both time and money has been made, both in the ISS vehicle and in 
discipline-specific research facilities that are to be flown aboard it. 
These facilities exist, have already been paid for, and are merely 
awaiting integration aboard the ISS to be used. We need to ensure that 
the ISS is fully utilized to the full term of its lifetime, currently 
projected for 2015. This is only five years past assembly-complete, a 
period we should certainly be willing to sustain.
    Last year, a group of us in the life and physical sciences were 
asked to come up with a ``keep-alive'' dollar figure for the life- and 
physical-sciences research program. The figure we estimated that would 
be required for PI support was roughly $70M/year. (This is exclusive of 
transportation costs and NASA Center personnel salaries for flight-
experiment support, but these would be minimal during the remainder of 
the assembly sequence.) This funding level would support a research 
effort roughly half the size of the research program that was in place 
immediately prior to the recent cutbacks. This $70M/year amounts to 
less than $.25/year from each American citizen and less than 0.4 
percent of NASA's roughly $18B annual budget. This small cost of 
maintaining an active research community is one that must be borne. The 
cost of losing the possible accomplishments of an entire community that 
can likely never be reestablished is far greater.
    Mr. Chairman, you have posed several questions in your invitation 
that you would like me to address in my testimony. I shall respond to 
each, in turn, although some of these responses will reiterate material 
covered in these opening remarks.

1.  What actions does NASA need to undertake to ensure that the 
International Space Station (ISS) can be productively utilized for 
exploration-related and non-exploration-related research once it is 
assembled? When does NASA need to undertake the recommended actions? 
Which of the actions would you consider to be the most important to the 
effective utilization of the ISS?

    The principal need to ensure productive utilization of the ISS is 
the existence of a broad-based research community with projects in the 
pipeline. In addition to candidate flight experiments, this requires a 
substantial commitment to a ground-based program so that the previous 
mistakes made by the agency described in the introduction above are not 
repeated. Because the process for taking a research idea from 
conception to flight typically requires several years, NASA is already 
behind in terms of a time schedule that includes a 2010 assembly-
complete date for the ISS. However, given that several projects 
relating to both exploration and fundamental/applied research were 
recently active, it may be possible to resurrect some of them in an 
effort to jump-start the reformation of a broader research community. 
To re-establish such a community, NASA must commit to the long-term 
research utilization of ISS; those who were left at the altar by NASA 
this past time will be uneasy about returning in the absence of such a 
commitment. Many who have moved on to other pursuits will not be able 
to return to NASA research due to their new commitments.

2. Does NASA have well defined objectives for utilizing the ISS, and 
are NASA's facilities, plans, resource allocations, and research 
criteria and prioritization for utilization aligned with those 
objectives?

    NASA's utilization plan calls for a research focus for the ISS that 
is restricted to exploration goals in support of the VSE. The small 
number of investigations outlined in NASA's aforementioned ISS Research 
and Utilization Plan is inconsistent with an effective, safe 
exploration program. In the fire-safety arena alone, NASA should be 
exploring fundamental and applied research in a broad range of the 
field of combustion to guarantee that the very best techniques for fire 
prevention, detection and suppression are developed. As pointed out in 
the recent NRC report entitled, Review of NASA Plans for the 
International Space Station, the risk of a fire incident on a long-term 
mission such as one to Mars is high. Not only must spacecraft have the 
best technologies on-board for prevention, detection and suppression of 
fires, they must be prepared to rid the spacecraft environment of 
potentially harmful soot and other products of combustion in the event 
a fire does occur. Studies of relevance to this also have applications 
to microgravity dust management and its effect on both humans and 
equipment functionality. Earthbound applications include clean-room 
technology, handling of nanoparticles, the detection of nanoparticle 
health hazards and improved fire-detection equipment.
    Mass efficiency of other types of exploration-related hardware is a 
general concern. For example, NASA knows how to move liquids from one 
location to another within the spacecraft environment, but are the most 
mass-efficient means for accomplishing these tasks being developed? The 
VSE is not limited to the exploration of the Moon, but speaks of 
missions beyond the Moon, beginning with Mars, for which the up-mass 
limitations are critical. Even if such post-lunar expeditions are far 
in the future, NASA should be preparing now by exploring the best-
available technologies, and these can only be identified through a 
robust program of both fundamental and applied research. Lunar 
expeditions are to explore the possibilities of living on the lunar 
surface, implying the conduct of research to investigate issues such as 
in situ resource utilization. Just as mass-efficient spacecraft systems 
for Martian missions increase the amount of water and food that can be 
carried on-board, so would mass-efficient systems developed for lunar 
missions increase the amount of research instrumentation able to be 
transported, per flight, to the lunar surface.
    NASA has available a total of 20 International Standard Payload 
Racks (ISPRs) for research purposes; 10 in the U.S. lab and five each 
in the JEM and Columbus facilities. Its intention is to utilize half of 
these ISPRs for exploration-related research and development, but it is 
difficult to envision that the limited number of investigations 
described will be sufficient to fully utilize these resources. As 
mentioned in my introductory remarks, the fact that we are several 
years away from the required selection of some enabling technologies 
suggests that a vigorous research program be sustained in order to seek 
optimal solutions.

3.  Does NASA have appropriate plans, programs and resource allocations 
to ensure that there will be a research community in place and 
adequately prepared to effectively utilize the ISS once the ISS is 
assembled?

    No. NASA has made the decision to get out of the non-exploration 
research business and to dramatically restrict investigations related 
to exploration. The external research community that existed just a few 
years ago is no longer in place and there are no pending NASA Research 
Announcements, so the prospects for at least the near future look dim. 
As also mentioned, this research community has moved on to other 
pursuits and is engaged in and committed to research that cannot be 
dropped to return to NASA-related work, even if the community were 
tempted to do so.
    NASA is encouraging the use of the ISS by other federal agencies 
with interests in microgravity experimentation, however, those agencies 
are expected to cover the full cost of taking their ideas to flight, 
including the very expensive transportation portion. I understand that 
there has been some recent interest on the part of the NIH in 
partnering in this fashion, but find it difficult to believe that, 
given budget constraints, a significant amount of research from NIH or 
other federal agencies will materialize in the near future to enable 
the full utilization of the 10 ISPRs that will be available for non-
exploration use aboard the ISS.

4.  What microgravity research in the physical and life sciences is 
needed to enable future human lunar and Mars exploration missions? Are 
there any advantages to or requirements for conducting such research on 
the ISS as opposed to a lunar outpost, on lunar sorties, or on free-
flying platforms?

    As described above, long-duration manned space flight will require 
the development of mass-efficient, dual-use hardware to accomplish 
tasks that are now performed in, perhaps, less-than-optimal ways. The 
ISS is the only platform that provides access to long-term 
weightlessness. The challenges in designing for the 3/8 g environment 
of Mars or the 1/6 g environment of the Moon are routine; for zero-g, 
however, the absence of buoyancy (the force that causes hot fluids to 
rise on Earth) provides an environment in which other forces, typically 
``masked'' on Earth by buoyancy, are dominant and exploitable. Lunar 
outposts will be suitable test beds for some, but not all, technologies 
designed to work on the Martian surface. For example, the Moon has no 
atmosphere while Mars does. Therefore, heat-rejection needs in non-
habitat situations on the lunar surface must rely on the heat-transfer 
mechanisms of radiation and conduction, while convection that 
transports heat due to fluid motion can play a role on the Martian 
surface. Lunar sorties, although of reasonably short duration, will 
provide some microgravity periods for experimentation, if crew time 
permits, but not to the extent that can be performed with a dedicated 
crew aboard the ISS.
    In the life sciences, long-duration space flight poses well-known 
problems for astronauts, bone loss being a major one for which no 
existing countermeasures have been effective. Another major hazard, 
particularly for human exploration of Mars, is the exposure to 
radiation; the recent NRC report rules out radiation shielding as being 
up-mass prohibitive and cautions that the exposure experienced during a 
three-year Mars outpost mission, ``has the potential to produce 
significant long-term effects that may not be limited to cancer 
induction.'' The NRC panel recommends searching for pharmacological 
interventions to deal with these effects. Studies on the effects of 
microgravity and space environments on the entire range of scales 
within the human organism, from whole-body to cellular levels, seem 
warranted. The psychological problems of coping with the isolation 
experienced during a 500 day Mars mission are also of concern. Finally, 
long-duration space flight also means that astronauts will likely be 
growing some of their own food, meaning further study of plant 
cultivation in microgravity is likely necessary for exploration 
purposes.
    The use of free-flyers is definitely a way to get some research 
requiring a quiescent microgravity environment conducted. Such 
experiments need to have excellent telescience support in order to both 
control and retrieve data from the experiment. Those experiments that 
need human intervention, for example, to change samples, are not 
candidates for free-flyers. In addition, in the event of an unforeseen 
occurrence requiring repairs, the free-flyer experiment is typically 
over. Although careful thought and preparation goes into the design of 
every flight experiment, things often happen that cannot be 
anticipated.

5.  What are your perspectives on the intended and potential use of the 
ISS as a national laboratory? What is necessary to enable ISS to be an 
effective laboratory?

    As a member of two task groups that studied the management of 
research utilization aboard the ISS, I am generally supportive of the 
concept of operating the U.S. research facilities on board the ISS as a 
national laboratory. A principal benefit is the buy-in that is likely 
to come from the external research community to a laboratory managed by 
a consortium of their peers. This has certainly been the case with the 
Space Telescope Science Institute, although it is recognized that the 
degree of complexity of research management aboard the ISS is much 
larger.
    What is disconcerting about NASA's plans for the national 
laboratory concept, however, is that there is virtually no funding 
associated with it, either to support in-house or external research or 
to provide for transportation of experiments to and from the ISS. 
Operationally, the national laboratory would serve a role not unlike 
that of existing NASA Centers, from the standpoint of integrating 
research experiments into the ISS, but very unlike a NASA Center, in 
that national-laboratory personnel would not have any discretionary 
funding to pursue research aboard the ISS without competing for funds 
from other agencies willing to perform research there. The types of 
individuals the research community would like to have assisting them 
with the development of their flight experiments are other researchers 
who are knowledgeable about the logistical and scientific issues 
associated with their work. Attracting such individuals to a national 
laboratory with no provision for even small-scale investigations of 
their own will be a difficult task. In addition to the national-
laboratory funding needed for direct PI support and a modest amount of 
in-house research, there is a substantial amount required for the 
development, qualification and integration of experiment-specific 
hardware for the ISS. These functions are currently supported, to a 
large degree, by the NASA Centers (which, by the way, typically have 
discretionary funding to support in-house research). A mechanism for 
seamless collaboration between the Centers and the national lab or for 
the transfer of responsibilities (and funding to support them) to the 
national lab must be worked out.
    NASA is supporting the development of Commercial Orbital 
Transportation Services (COTS) that it hopes will provide transport of 
experimental equipment to the ISS following assembly-complete. To be 
sure, transportation to and from the ISS is the ``rate-limiting'' 
factor controlling its efficient utilization. There are a variety of 
payload types used for research purposes, the broad classifications for 
transportation purposes being pressurized and non-pressurized, with the 
former obviously a requirement for living systems such as plant and 
animal models. Certain types of research payloads, e.g., living 
systems, also require timely transport of payloads both to and from the 
ISS for the proper conduct of the experiments and analysis of results. 
It is a leap of faith to assume that a sufficient number of such 
systems will be ready to perform all the necessary functions with the 
required frequency at assembly-complete. The failure of COTS solutions 
would leave the CEV as the NASA backup, requiring the additional 
purchase of transportation services from Russia, and perhaps from other 
nations that are talking of developing such systems.
    In summary, it is my belief that NASA is ill-prepared to fully 
utilize the research facilities of the ISS upon assembly-complete in 
2010. Faced with the loss of launch capability and a new exploration 
mission to be funded within its existing budget, NASA has chosen to 
virtually eliminate its dynamic extramural research program in the life 
and physical sciences. This move is short-sighted and has caused the 
loss of a research community devoted to NASA-related issues that will 
be difficult to reconstitute. Without the existence of this community, 
there is little to support the utilization of the ISS. The successful 
implementation of the Vision for Space Exploration will require the 
presence of an active, diverse research program performing 
investigations at the cutting edge to define the technologies necessary 
for successful exploration while, in addition, gaining deeper 
understanding of fundamental scientific issues that can serve to 
benefit life on Earth. NASA has always been regarded as a research 
agency. In this rapidly changing technological world, the need for it 
to remain a research agency is more compelling than ever.
    Thank you again, Mr. Chairman, for inviting me to speak with the 
Subcommittee. I am happy to answer any questions about these issues 
that you may have of me.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     Biography for G. Paul Neitzel
    G. PAUL NEITZEL is a Professor of Fluid Mechanics in the George W. 
Woodruff School of Mechanical Engineering at the Georgia Institute of 
Technology, where he has been on the faculty since 1990. Prior to that 
he spent eleven years on the faculty of Arizona State University and 
ten years at the U.S. Army Ballistic Research Laboratory (now Army 
Research Laboratory) at Aberdeen Proving Ground, MD, during which time 
he received his Ph.D. in fluid mechanics from The Johns Hopkins 
University. Dr. Neitzel's current research in the field of fluid 
mechanics encompasses permanent non-coalescence and non-wetting of 
droplets, optical droplet levitation and migration, multi-phase flow 
simulation, and the fluid dynamics of bioreactors used for mammalian 
cell culture. Dr. Neitzel has been a member of the NASA Space Station 
Utilization Advisory Subcommittee, the On-Orbit Evaluation Board, the 
Physical Sciences Advisory Subcommittee of the former NASA Office of 
Biological and Physical Research (OBPR), and chaired, for six years, 
the Fluid Physics Discipline Working Group in OBPR. He served on the 
1999 NRC Task Group on Institutional Arrangements for Space Station 
Research and on the 2000 International Space Station Operations 
Architecture Study. Dr. Neitzel is a Fellow of the American Physical 
Society and the American Society of Mechanical Engineers, an Associate 
Fellow of the American Institute of Aeronautics and Astronautics and a 
recipient of an Alexander von Humboldt Research Fellowship.

    Chairman Udall. Thank you, Doctor. Ms. Chaplain, you now 
have five minutes to present your point of view.

 STATEMENT OF MS. CRISTINA T. CHAPLAIN, DIRECTOR, ACQUISITION 
   AND SOURCING MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Chaplain. Thank you, Mr. Chairman and Ranking Minority 
Member Feeney. Thank you for inviting me to discuss challenges 
faced by NASA in completing and sustaining the International 
Space Station and retiring the Space Shuttle.
    As you know, these endeavors are part of the broader Vision 
for Space Exploration which require careful management of 
investments, facilities, workforce, international partners, and 
suppliers. Clearly, any delays or problems in completing and 
sustaining the Space Station itself may well have reverberating 
affects on NASA's ability to ramp up exploration efforts or to 
support other important missions.
    Today I would like to present preliminary results of our 
work related to the Station and the Shuttle. While they are 
preliminary, many have been echoed in other studies and 
identified by NASA itself.
    First, there are significant challenges related to NASA's 
ability to execute its plans to use the Shuttle to complete the 
Station. The January, 2007, Shuttle manifest projects that NASA 
will launch 16 flights before retirement of the Shuttle fleet 
in September, 2010. One of these has already been launched. Of 
the 15 remaining missions one is reserved for the Hubble 
telescope, and two are designated as contingency missions that 
are slated to bring materials critical to Station sustainment.
    On average when counting the contingency flights, NASA will 
need to launch one Shuttle every 2.7 months, an aggressive 
schedule when compared to recent launch timeframes. Due to 
vehicle traffic constraints, the minimum time required between 
Shuttle launches to the Station is 35 calendar days. So while 
the manifest is aggressive, it is achievable.
    There is, however, little room for unexpected delays caused 
by weather damage or launch debris, which have proven to impact 
the Shuttle launch schedule significantly.
    In addition, there are potential tradeoffs NASA can make in 
order to position what is needed to sustain the Station after 
the Shuttle's retirement, and some of these tradeoffs have 
already been made. However, the potential deletion of such 
items as Node 3 and the Cupola would have a substantial impact 
on the quality of life on the Station, the ability to conduct 
research, and in the case of the Cupola, the ability to use a 
robotic arm to assist in docking newer transportation vehicles.
    Second, we have previously reported that there is 
significant challenges in insuring NASA can retain critical 
skills to manage the Shuttle program through its completion. 
NASA has made progress in implementing previous GAO 
recommendations on this issue. For example, it has developed an 
agency-wide strategic human capital plan, developed workforce 
analysis tools, and is mapping available skills of the Shuttle 
workforce with the skills it will need in the future. It is 
important that these actions be sustained throughout the 
transition and that NASA also measures its progress, identify 
gaps or obstacles that need to be addressed, and sustain a high 
degree of coordination with its centers.
    There are considerable challenges with filling the gap 
between the Shuttle and the new NASA-developed vehicles to 
service the Station. For example, NASA expects that the 
commercial sector can develop transport vehicles that can take 
equipment and ultimately crew to and from the Station during 
the gap. However, our work has generally found that space 
development efforts often encounter schedule delays and 
technical problems, particularly when they are seeking to 
obtain significant advances in technologies, move forward amid 
unknowns, or manage without adequate oversight and insight.
    Risks may be high in these partnerships given that the 
suppliers do not have longstanding relationships with NASA and 
the development of the vehicles represents totally new 
endeavors for them. Therefore, it is critical that NASA 
establish clear and consistent guidance, limit requirements 
changes, and insure it has visibility into the progress being 
made by the commercial suppliers.
    NASA's options in addition to the commercial vehicles which 
include both the European and the Japanese vehicles, which are 
new, and the Legacy Russian vehicles, however, NASA's reliance 
on these vehicles to augment re-supply activities after 2010, 
assumes no further delay in development. Moreover, there are 
limits to what the payloads these vehicles can carry.
    The Independent Safety Task Force also reported challenges 
involved with working through laws and regulations governing 
the transfer of technical knowledge, though the Station program 
office reported to us that immediate hurdles had been overcome 
with respect to the European vehicle.
    In addition, continued use of the Russian vehicles will 
require the U.S. to renegotiate exemptions to the Iran, North 
Korea, and Syria Nonproliferation Act. Our review will further 
examine risk mitigation efforts related to the gap between the 
Shuttle and NASA-developed vehicles as well as the Shuttle 
manifest and workforce issues.
    We look forward to continuing to share the results of that 
work with this subcommittee.
    Thank you. This concludes my statement, and I am happy to 
answer any questions you have.
    [The prepared statement of Ms. Chaplain follows:]
               Prepared Statement of Cristina T. Chaplain
Mr. Chairman and Members of the Subcommittee:

    I am pleased to be here today to discuss the challenges faced by 
the National Aeronautics and Space Administration (NASA) on the 
International Space Station (ISS) and the Space Shuttle. NASA is in the 
midst of one of the most challenging periods in its history. As part of 
its Vision for Space Exploration, NASA is simultaneously developing a 
range of new technologies and highly complex systems to support future 
exploration efforts, completing assembly of the Space Station, and 
retiring the Space Shuttle. This is NASA's biggest transition effort 
since landing humans on the Moon more than three decades ago and then 
initiating the Space Shuttle Program a few years later. Taken together, 
these efforts create significant challenges in terms of managing 
investments, launch and other facilities, workforce, international 
partners, and suppliers. Clearly, any delays or problems in completing 
and sustaining the Space Station itself, may well have reverberating 
effects on NASA's ability to ramp up efforts to develop technologies 
needed for future exploration or to support other important missions.
    GAO has undertaken a body of work related to NASA's transition 
efforts that include NASA's industrial supplier base, its workforce 
challenges, development of new crew and cargo spacecraft, and NASA's 
assembly and sustainment activities related to the ISS. My statement 
today focuses on the preliminary results of on-going efforts, as well 
as other GAO work completed to date. Specifically, I will address the 
following challenges: (1) executing plans to use the Shuttle to 
complete the ISS; (2) maintenance of the Shuttle workforce through 
retirement of the Shuttle; and (3) filling the gap between the Shuttle 
and new NASA-developed vehicles to service the ISS. NASA's ability to 
overcome these challenges will be critical to ensuring the availability 
of the International Space Station as a viable research entity into the 
future. While these results and findings are preliminary, many have 
been echoed in other studies and identified by NASA itself. Our work is 
being conducted in accordance with generally accepted government 
auditing standards.

Background

    NASA plans to finish assembling the ISS in 2010 and operate the 
Station until 2016. The Station is scheduled to support six-person crew 
capability as early as 2009. The Shuttle was to be the primary means 
for ISS re-supply and crew rotation. NASA's international partners were 
planning to augment the Shuttle's capabilities with their cargo and 
crew spacecraft. Following the Columbia disaster in 2003, the President 
set a new ``vision'' for NASA that called for the Shuttle's retirement 
in 2010 upon completing ISS assembly. As part of the Vision, NASA is 
developing new crew and cargo vehicles, currently scheduled to be 
available in the 2015 timeframe. One of the vehicles--the Crew 
Exploration Vehicle--will carry and support only crews traveling to 
low-Earth orbit and beyond and will also be capable of ferrying 
astronauts to and from the ISS. However, since these systems are not 
scheduled to become operational until 2015, NASA plans to rely on 
international partners and commercial providers to make up the five-
year gap in ISS logistics and crew rotation resulting from the Shuttle 
retirement.

Aggressive Launch Schedule for Space Shuttle

    As we have begun our review of ISS assembly, several issues related 
to NASA's Space Shuttle manifest have come to our attention. First, the 
Shuttle manifest dated January 2007 projects that NASA will launch 16 
missions before retirement of the Shuttle in 2010--one of those has 
already been launched. Of the 15 remaining missions, one will service 
the Hubble Telescope and two are designated as contingency missions. 
Assuming the contingency flights are included, on average, NASA will 
need to launch one Shuttle every 2.7 months--an aggressive schedule 
when compared to recent launch timeframes. In the past, with three 
Shuttles, NASA launched a Shuttle every 3.7 months on average after the 
Challenger accident in 1986. Since the Columbia accident in 2003, NASA 
has averaged 10.8 months between launches.\1\ For the remainder of 
calendar year 2007, NASA has three launches planned, which will total 
four missions for the year. Due to vehicle traffic constraints, the 
minimum required time between Shuttle launches to ISS is 35 calendar 
days, so while the manifest is aggressive, it is achievable.
---------------------------------------------------------------------------
    \1\ These values represent the time between the launch date of the 
flight that resulted in loss of the Shuttle and the launch date of the 
next subsequent flight.
---------------------------------------------------------------------------
    Additionally, the current Shuttle manifest leaves little room for 
unexpected delays caused by weather damage or launch debris, which have 
proven to impact the Shuttle launch schedule significantly. For 
example, in 2007, hail damage to the external fuel tank caused an 
unexpected two month delay in a Shuttle launch. While there are limits 
to the planning NASA can do for such events, the tight schedule 
constraints leave little room for significant delays as a result of 
such occurrences.
    As evidence of the increasing pressure NASA is experiencing with 
regard to the Shuttle manifest, the ISS program office is planning for 
certain cargo elements to be launched on the two final Shuttle flights 
even thought NASA, as an agency, still considers these flights 
contingency missions. NASA is also being forced to consider the 
possibility of canceling delivery of some portions of the ISS. 
Specifically, NASA determined that if the schedule slips, the Cupola 
observatory and the Node 3 connector built for hardware, oxygen and 
waste storage may be slipped to contingency flights. If that occurs and 
those flights do not launch, those elements may not be assembled on ISS 
as originally planned.
    Finally, NASA officials explained that since only the Shuttle is 
large enough to deliver certain large Orbital Replacement Units (ORUs) 
to the ISS, they must be launched prior to retirement of the Shuttle. 
These ORUs are replacement segments for those segments operating on the 
ISS that fail or reach the end of their life. The officials noted that 
NASA originally planned to use the Shuttle to launch and retrieve 
certain large ORUs that are critical for ISS operations. After being 
brought back to Earth, the plan was to repair and refurbish the ORUs 
and return them to service on the ISS. However, with the Shuttle no 
longer available to transport those ORUs after 2010, NASA changed its 
strategy for providing them to ISS from a refurbishment approach to a 
``launch and burn'' approach. They suggested that under the new 
strategy, NASA would build enough ORUs to cover the ISS planned mission 
life and use them up over time. Large ORUs that originally were to be 
launched and returned on the Shuttle would have to be pre-positioned on 
the ISS before the Shuttle retires.
    There is still much to be worked out with NASA's change in strategy 
for positioning ORUs to cover the Space Station's planned mission life. 
For example, the program office is still assessing the implications of 
restarting production lines to produce additional spares. This involves 
examining whether the right equipment, materials, expertise, and data 
is still available--an endeavor that the ISS program office 
acknowledged would be challenging. We will continue to monitor changes 
to the Shuttle manifest as they occur.

Shuttle Workforce Challenges

    The Space Shuttle workforce currently consists of approximately 
2,000 civil service and 15,000 contractor personnel. NASA must maintain 
a workforce with necessary critical skills to manage the Shuttle 
program through its completion. In response to GAO recommendations, 
NASA has undertaken several initiatives to attempt to address its 
potential workforce drain.
    In 2005, we reported that NASA had made limited progress toward 
developing a detailed strategy for sustaining a critically skilled 
Shuttle workforce to support Space Shuttle operations. We reported that 
significant delays in implementing a strategy to sustain the Shuttle 
workforce would likely lead to larger problems, such as funding and 
failure to meet NASA program schedules. Accordingly, we concluded that 
timely action to address workforce issues is critical given their 
potential impact on NASA-wide goals such as closing the gap in human 
space flight. At the time we performed our work several factors 
hampered the ability of the Space Shuttle Program to develop a detailed 
long-term strategy for sustaining the critically skilled workforce 
necessary to support safe Space Shuttle operations through retirement. 
For example, the program's focus was on returning the Shuttle to 
flight, and other efforts such as determining workforce requirements 
were delayed. In our report, we recommended that NASA begin identifying 
the Space Shuttle Program's future workforce needs based upon various 
future scenarios. Scenario planning could better enable NASA to develop 
strategies for meeting future needs. NASA concurred with our 
recommendation. The agency acknowledged that Shuttle workforce 
management and critical skills retention will be a major challenge as 
it progresses toward retirement of the Space Shuttle and as such has 
acted to respond to our recommendation.
    For example, since we made our recommendation, NASA developed an 
agency wide strategic human capital plan and developed workforce 
analysis tools to assist it in identifying critical skills needs. NASA 
also developed a human capital plan specifically for sustaining the 
Shuttle workforce through the retirement and, then transitioning the 
workforce. According to agency officials, currently NASA is mapping the 
available skills of the Space Shuttle workforce with the skills it will 
need for future work so that it can better plan and implement workforce 
reassignments. NASA's senior leaders recognize the need for an 
effective workforce strategy in order to successfully complete ISS 
before retirement of the Shuttle. Clear, strong executive leadership 
will be needed to ensure that the risks associated with the transition 
of the Shuttle workforce are minimized.

Filling the Gap Between the Shuttle and New NASA-Developed Vehicles to 
                    Service the International Space Station

    NASA has several options for filling the gap between the Shuttle, 
which will retire in 2010 and new NASA-developed vehicles that are not 
expected to come on-line until 2015. The first relies on new vehicles 
developed within the U.S. commercial space sector. The second relies on 
vehicles developed by international partners--both new and legacy 
systems. There are considerable challenges with all options NASA is 
examining.

NASA Dependence on Commercial Development

    NASA is working with the commercial space sector to develop and 
produce transport vehicles that can take equipment and ultimately crew 
to and from the Space Station during the gap between the Space Shuttle 
and the crew launch vehicle. Rather than buy these vehicles outright, 
NASA plans to help fund their development and purchase transportation 
services or perhaps even the vehicles themselves when they are needed. 
This program is known as Commercial Orbital Transportation Services 
(COTS). Currently, NASA has seven COTS agreements--all are in the 
initial phases of raising private funds for the development. NASA 
funding has been provided to two companies, Rocketplane Kistler (RpK) 
and Space Exploration Technologies (SpaceX). NASA has signed five more 
Space Act Agreements which facilitates sharing technological 
information, but these agreements are unfunded.
    There are two phases to the program, the first phase entails COTS 
technical development and demonstration and the second phase will be 
the competitive procurement of orbital transportation services for ISS 
logistical support. NASA officials noted that both RpK and SpaceX met 
their first milestone to demonstrate financial progress by obtaining 
private funding. However, RpK missed its second milestone in May 31, 
2007 and had to renegotiate its Space Act Agreement milestone with 
NASA.
    The International Space Station Independent Safety Task Force 
(IISTF)\2\ reported in February 2007 that the design, development, and 
certification of the new Commercial Orbital Transportation System 
(COTS) capability for ISS re-supply was just beginning. IISTF stated 
that, ``if similar to other new program development activities, it most 
likely will take much longer than expected and will cost more than 
anticipated.'' Our work has generally found space and other complex 
system development efforts--including NASA-sponsored efforts--often 
encounter schedule delays and technical problems when they are seeking 
to obtain significant advances in technologies, move forward amid 
changing requirements or with other unknowns, and/or are managed 
without adequate oversight, In our opinion, risks may be high in these 
partnerships, given that the suppliers do not have long-standing 
relationships with NASA or other government agencies and the 
development of the COTS vehicles represent totally new endeavors for 
most of these companies. As such, it will be exceedingly important for 
NASA to establish sound program management and oversight controls over 
these endeavors, establish clear and consistent guidance, limit 
requirements changes, and ensure it has adequate visibility into the 
progress being made by the COTS suppliers. Our review will examine the 
extent to which these measures are being taken. As you know, GAO has 
identified contract management as a high risk area for NASA. Actions 
designed to enhance program management and oversight are being 
implemented, but it may take years to complete them. This may make it 
even more difficult for NASA to successfully manage and oversee its 
relationship with the COTS suppliers. If NASA relies on these 
development efforts without adequate oversight, the programs could fall 
short of cost and schedule estimates, result in downgraded performance, 
and ultimately impact overall sustainment of the ISS.
---------------------------------------------------------------------------
    \2\ As required by the National Aeronautics and Space 
Administration (NASA) Authorization Act of 2005, Pub. L. No., 109-155 
801, the International Space Station Independent Safety Task Force was 
charged with assessing the vulnerabilities of the International Space 
Station.
---------------------------------------------------------------------------

NASA Dependence on International Partners

    NASA has suggested that some supply activities during the gap can 
be conducted by vehicles under development or currently in operation by 
international partners--specifically, Europe, Japan and Russia--but 
these vehicles have constraints. Our ongoing review will assess these 
constraints in greater detail.
    To begin with, new vehicles being developed by the European and 
Japanese space agencies are very complex. Currently, the first test 
flight for the European vehicle is likely to happen in January 2008. 
The Japanese vehicle will not have its first operational flight until 
2009. According to NASA officials, both the European and Japanese 
vehicle developments experienced technical hurdles and budgetary 
constraints, but both partners are committed to fulfilling their roles 
as partners in the ISS program. They do have confidence that the 
European vehicle will be available for ISS operations before retirement 
of the Shuttle, but they are not as confident about the Japanese 
vehicle being ready by that time. NASA reliance on these vehicles to 
augment re-supply activities after 2010 assumes that further delays in 
their development will not occur. NASA's expectation is that these 
vehicles will be developed in parallel with commercial developments. 
The agency's preference is to use commercially developed vehicles, 
rather than rely on the vehicles developed by the international 
partners to cover the capability gap after retirement of the Shuttle 
fleet.
    NASA also plans to continue working with Russia to provide crew and 
cargo support to the ISS, but this has been facilitated through an 
exemption to the Iran, North Korea and Syria Nonproliferation Act. 
Russian vehicles that were already operational were used to rotate crew 
and supply ISS during the period after the Columbia accident and a 
Russian Soyuz vehicle remains docked to the ISS continuously. The Iran, 
North Korea and Syria Nonproliferation Act exemption expires at the end 
of 2011, at which time any exchanges will be subject to the 
restrictions of the Act. However, if commercial development does not 
produce a usable vehicle by that date, the only vehicle that can 
support crew transportation is the Russian Soyuz spacecraft. According 
to NASA officials, the agency is planning to request a waiver to gain 
further exemption beyond 2011 if this situation occurs.
    Additionally, there are challenges related to sharing knowledge 
with international partners due to restrictions by the International 
Traffic in Arms Regulation (ITAR). This was highlighted by the 
International Space Station Independent Safety Task Force, and NASA has 
been working to address the concerns laid out in that study. Over the 
years, GAO has identified weaknesses in the efficiency and 
effectiveness of government programs designed to protect critical 
technologies while advancing U.S. interests. While each program has its 
own set of challenges, we found that these weaknesses are largely 
attributable to poor coordination within complex interagency processes, 
inefficiencies in program operations, and a lack of systematic 
evaluations for assessing program effectiveness and identifying 
corrective actions. However, in reviewing in the Joint Strike Fighter, 
another complex international system development effort, we also 
identified actions that could be taken early in programs to prevent 
delays and other problems related to ITAR. Our review going forward 
will assess the degree to which challenges in this area remain.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions that you or the other Members may have at this 
time.

                               Discussion

    Chairman Udall. Thank you, Mr. Chaplain. Thanks again to 
the entire panel. This is very, very helpful, and we will now 
begin the first round of questions, and the Chair will 
recognize himself for five minutes.

                  Logistical Support for ISS and COTS

    And I want to focus in on the issue of logistical support, 
and Mr. Holloway, from your testimony you feel like this is the 
most serious issue facing the program, that is this logistical 
support for the Station after the Shuttle is retired. You say, 
for example, that inadequate logistics will result in a serious 
decrease in the utility of the Station and could result in its 
abandonment. And then you go on to recommend that the 
Administration, Congress, and NASA should support a productive, 
I am sorry, proactive emphasized post-Shuttle logistical 
transportation program, including adequate funding of 
approximately $1 billion per year above current allocations to 
insure that adequate logistics and spares are available to 
maintain a viable station.
    You recommend as well that NASA not commit the ISS to an 
unproven logistic support system such as COTS. However, at 
present NASA appears to be counting on COTS as its main post-
Shuttle logistics system, and the Administration's given little 
indication that it is considering this billion-dollar increase 
per your suggestions.
    How much risk is being added to the ISS Program by these 
actions in your opinion? And Mr. Gerstenmaier, I will give you 
a chance to respond as well.
    Mr. Holloway. Mr. Chairman, first of all, that is a very 
difficult question to answer, but at the time of the conclusion 
of the report there was 120,000-pound shortfall in logistics 
capability that was dependent upon some future transportation 
system, either the COTS or the emerging partner capability or 
the Russian progress vehicle. That is a tremendous amount of 
logistics, and as you well know, you need food, water, oxygen, 
and maintenance spares to be able to operate the Station. 
Without that you eventually will have to abandon the Station.
    The COTS Program I am sure that we all are very anxious for 
it to be successful, and we are looking forward to the day when 
commercial activities can routinely launch cargo and people 
into low-Earth orbit. That will be a great day for the space 
program.
    But the building of a rocket, of course, is a difficult 
endeavor, but with the proper reliability and safety aspects 
but also building a vehicle that can approach and be attached 
to the Space Station is a daunting, technical challenge driven 
by the appropriate I must say safety requirements to, that are 
levied on that vehicle.
    The European Space Agency has been working on that for the 
ATV for approximately 10 years and have worked very diligently, 
and I must add at least for the last six or eight years have 
had a very good technical team. And they are just now emerging 
with the opportunity to launch the first one next year.
    So in the long haul, I would think it would be unlikely 
that the COTS will be able to provide a substantial part of the 
logistics program in the most critical period following the 
retirement of the Shuttle program. I hope I am wrong, but I 
expect that it will be several years after that before routine 
commercial activities are viable.
    So I think depending totally upon COTS would be a 
significant risk to the long-term viability of the Station.
    Chairman Udall. Mr. Gerstenmaier, would you care to 
respond, and you have 45 seconds to respond.
    Actually, we will come back to you for your time.
    Mr. Gerstenmaier. Okay.
    Chairman Udall. The Ranking Member has offered to provide 
you the additional time to respond in the length that you need 
to respond, please.
    Mr. Gerstenmaier. Well, first of all, we agree that one of 
the long-term challenges of the Space Station is logistical 
support. This is clearly something we need to go work on. Since 
the task force reviewed the program, we added in some minimal 
progress support to provide some logistics capability to Space 
Station, and what we did there is we added just the absolute 
minimum essentially to keep Space Station viable. We didn't add 
any additional spares or any additional cargo in that contract 
addition, and we left room for the commercial orbital 
transportation systems to come on line. We also have got 
agreements now for the Automated Transfer Vehicle, the European 
vehicle, and also the Japanese vehicle to provide cargo to 
station.
    So we have an understanding of the basic transportation 
plan that we need in the future. We have an approach that kind 
of goes day by day in a sense and allows us to monitor these 
activities such that we can anticipate a problem that is coming 
and still have a chance to react to it before it becomes a 
major problem to us.
    So the first step is we are using the Shuttle and the two 
logistics flights to essentially outfit Space Station with all 
the spares that we can before the Shuttle departs. So we 
anticipate with our basic failure rates we see on our 
components we will have two to three years of margin after the 
Shuttle retires that the Station will be viable with the spares 
that we have pre-positioned. So in other words, we put items 
that we anticipate may fail on-board Station ahead of time so 
they are there in their pre-position. So that buys us some 
time.
    We will also know next year how well the COTS Program is 
progressing. We will get a chance to see, they have a 
demonstration flight towards the end of the year and two other 
flights at the first part of the year. That will give us 
critical information and will tell us whether COTS is viable or 
it looks like it is going to be delayed a little bit. That will 
be very important data for us.
    We will also get to see the Automated Transfer Vehicle fly 
in January. That will provide critical data to us. So I think 
we have a logical and step-wise plan that we can protect for 
this logistic period, this logistic support period when the 
Shuttle retires. We have time to detect a problem that is 
coming to us before we have to, before we are in a situation 
where we cannot react, and then we have some controls to react 
depending on what we see.
    The other big unknown is we don't know what the failure 
rate is going to be on these components. We have only recently 
activated the truss components. That is the hardware that sits 
out on the truss. Some components are on the inside of the 
Space Station and perform significantly better than our 
analysis had shown, so we may be better from a logistics re-
supply plan or a failure rate standpoint. Again, we will know 
next year.
    So I think next year we will be in a much better posture to 
see what the future looks like, to see where we are, and we 
still have time to react with the plan. We are working this, 
and we are aggressively looking forward to solve this problem.
    Chairman Udall. Mr. Gerstenmaier, thank you, and I look 
forward to returning to this topic in the next round.
    And at this time it is my pleasure to recognize the Ranking 
Member, Mr. Feeney, for five minutes.

         Micrometeoroids and Orbital Debris Protection for ISS3

    Mr. Feeney. Well, thank you, Mr. Chairman. Yeah, I want to 
get back to COTS at some point, too, but first I want to 
address another issue that the task force brought up, Mr. 
Holloway, and that is referred to as the micrometeoroid and 
orbital debris problem, and I want to make sure I understand 
your presentation right.
    On page 2 you say that over a 10-year period the ISS has a 
55 percent chance of being struck by either debris or a 
micrometeoroid. Is that right? With a nine percent risk of a 
catastrophic result?
    Mr. Holloway. That is correct.
    Mr. Feeney. With implementation of changes that are 
available that you have recommended, that that risk can be 
roughly cut in half?
    Mr. Holloway. That is also correct.
    Mr. Feeney. This is a reminder that despite the great 
successes we have had, and by the way, the most recent one was 
the brilliant work that the people at NASA, the United Space 
Alliance, and many other contractors did working in a seamless 
team to get us through the hail storm issue from February and 
get us back in a very timely manner. So it is remarkable, but 
this is a reminder as you testified that space exploration is 
inherently risky. Does anybody on the panel have an opinion 
about the--well, let me ask the question first this way.
    Mr. Gerstenmaier, has the Space Station had to be 
maneuvered at all to avoid any of the debris from the Chinese 
ASAT Test, where they basically blew up their own----
    Mr. Gerstenmaier. No, we did not maneuver the Station for 
that. The problem with some of that debris is it is so small it 
can't be tracked very effectively.
    Mr. Feeney. Right.
    Mr. Gerstenmaier. So then you don't know how to maneuver. 
The good thing about the Space Station was it was at a low 
enough altitude that the debris cloud from that satellite 
destruction transited the Station orbit very quickly. So it was 
a fairly short-term threat to Space Station. Space station has 
debris panels on the outside to protect us from this small 
debris that was called out in the report. Since the report we 
have added debris panels on the Russian service module. Those 
were done in an EVA this summer or early this spring by the 
Russians, so that activity is complete. We have also got some 
debris wings which will shield the service module. We have had 
discussions with the Russians, and we are currently planning to 
put those on a Shuttle flight in the future to go ahead and 
carry those up to Space Station.
    So we have implemented one near-term protection. We have 
plans for another one that is moving forward, and we are still 
looking at the recommendation of putting additional protection 
on the Soyuz and progress vehicles, and we are still working 
with our Russian partners on that.
    Mr. Feeney. Well, Chairman Udall's home state they do a 
remarkable job at the space wing tracking some eight or 10,000 
pieces of so-called space junk or space debris. But if this is 
as big a concern as the task force recommends, Mr. Holloway, 
one of the things we need to do is to convince the 
international space-faring nations, starting with the Chinese, 
that turning one obsolete satellite into 800 or 8,000 pieces of 
space junk is a risk we don't want, as nations want to put 
human beings into space. So this should be, and there are lots 
of other reasons why the Chinese should not have done what they 
did, but at a minimum the fact that if the Chinese and other 
space-faring nations want to have peaceful human exploration of 
space, they have to respect the fact that they just can't put 
missiles out there to--and so if anybody cares to comment on 
that, that is fine. Otherwise, just be taken as a speech.

                  Logistical Support for ISS and COTS

    Mr. Gerstenmaier, going back to COTS for a second, NASA 
right now acknowledges a $300 million shortfall in the ISS 
crew/cargo services budget based on current estimates as I 
understand it, with an additional $600 million shortfall held 
as a lien against the exploration systems mission directorate 
budget.
    We are all anxious and hopeful that COTS is going to be 
successful. You talk about a number of tests the next 12 months 
or so. When will we have to address the issue that the task 
force has raised about a potential billion dollar shortfall in 
servicing the Station post-Shuttle if COTS and our other 
international partners can't achieve what they plan--when will 
this decision be timely?
    Mr. Gerstenmaier. Again, as I described in my earlier 
remarks, it is really a process. We will gain some information 
on what our failure rates are of the components throughout this 
next year. We will also get a chance to see the provider's 
viability and see how well this space craft will perform, which 
will be important to us. We will also get an idea of what the 
cost of that cargo and carrying capability is. Through this 
next budget process we are working on now for the next budget 
cycle, we are refining some of those estimates, taking into 
account this data, so probably for next year's budget activity 
we will be prepared to discuss with a little more certainty 
about where we are in terms of budget threats and things.
    But, again, there is many variables here, and we are 
actively analyzing those and gaining data to see if we can 
understand better what the real threats are and the options.
    Mr. Lampson. [Presiding] Thank you, Mr. Feeney.
    Mr. Udall had to step out of the room and asked me to take 
the Chair for a few minutes, and seeing as how I was the next 
one up for questioning, I will yield myself the next five 
minutes.

                             Status of AMS

    Mr. Gerstenmaier, let me start with you. I have had a 
number of meetings in the last several months with people who 
have been working on the Alpha Magnetic Spectrometer, AMS, and 
I know that this is something that has been taken off of the 
manifest from what I understand, and I am at some point in time 
wanting to seek ways that we will be able to hopefully get it 
put back on.
    But what was NASA's original agreement regarding the AMS? 
Was it--and once the, well, what was the original agreement? 
Let us start with that. I have a whole series of questions on 
this if you don't mind.
    Mr. Gerstenmaier. I believe the original agreement was to 
fly a precursor mission, which we did on STS-91, and that was 
to look at the basic technology and the basic device. We also 
agreed to provide some integration activity to essentially help 
build up the cargo and interface it with the Shuttle for launch 
vehicle. We are still continuing to do that, and we are still 
continuing to look at it.
    And originally we had agreed to try to fly to Space Station 
in a long-duration manner. But after the Columbia tragedy 
occurred, we immediately informed the DOE that we could no 
longer live up to that second commitment, and the reason there 
is just the discussion we have had here is that we had this 
critical logistic sparing needs for Space Station and then we 
have a limited number of Shuttle flights. So we really have no 
option other than we cannot fly the device without taking some 
critical spares off that could jeopardize the overall health of 
Space Station.
    So as soon as we knew that, the Administrator informed the 
DOE and our partners we could not meet that second commitment.
    Mr. Lampson. What is the response of the international 
partners to NASA for canceling the plans?
    Mr. Gerstenmaier. Our interface is primarily with the 
Department of Energy, and I have, we have not heard anything, I 
don't think, directly from the Department of Energy.
    Mr. Lampson. Might NASA be required to pay any penalties?
    Mr. Gerstenmaier. Again, I think it was, the way the 
agreement was written was it was written as a best effort, and 
we lived up to the intent of what the best effort was.
    Mr. Lampson. Do you think that it might jeopardize future 
collaborations between or among potential partner nations on 
other projects?
    Mr. Gerstenmaier. Again, I think our partners recognize the 
complexity of what we are trying to do when we had the Columbia 
tragedy. You know, we are still launching their primary 
laboratory modules, we are still meeting our international 
commitments to them to do, to provide research facilities. 
Still providing substantial support to all our international 
partners in that respect, and I think they recognize the 
difficult situation that we were placed in, and they recognize 
the rationale for the decision that we had no choice to make.
    Mr. Lampson. Just for the record, I have met with some of 
the representatives of those international partners, I think 
five of them, and from what I understand this project was one 
that was to cost around $1.2 billion, and the international 
partners were going to pay 95 percent of the cost of the 
project. They have essentially completed the work that they 
were doing on it, and the largest part of what we were going to 
do, I think, was to put it on the International Space Station.
    Those folks with whom I have spoken are not the happiest 
campers in the world right now. So there is some potential 
downside for this not happening.
    A recent Department of Energy sponsored external review of 
AMS supports the scientific validity of the AMS experiment. 
NASA's response is that, ``The review does not evaluate AMS in 
the context of NASA's broader program of astrophysics research. 
NASA's Science Mission Directorate relies on broad reviews of 
science disciplines conducted by the National Research Council 
of the National Academies of Science to establish priorities 
among potential missions.'' Because the DOE review took place 
outside of this framework, it is of limited useful to NASA.
    Mr. Gerstenmaier, was the review conducted with the 
awareness of its limited usefulness to NASA, and if so, what 
was its purpose?
    Mr. Gerstenmaier. I am really not in the right position to 
answer that. I think that would be a better question directed 
at the Science Mission Director.
    Mr. Lampson. Okay.
    Mr. Gerstenmaier. I am more on the facilities side and not 
on the scientific research.
    Mr. Lampson. Fair enough. Thank you.
    Would any of the other witnesses care to comment on any of 
the--Dr. Neitzel, please.
    Dr. Neitzel. I would be happy to comment, because I think 
that this occurrence speaks directly to what NASA says it wants 
to do with respect to the implementation of the National 
Research Laboratory aboard the ISS. NASA claims it wants to go 
out and find other federal agencies willing to perform research 
aboard the ISS and to utilize this unique facility. And here is 
a perfect example of the Department of Energy stepping up to 
the plate and doing exactly that with the participation of all 
these international partners, and now NASA says it is going to 
remove this experiment from the Shuttle manifest.
    So that doesn't provide a lot of confidence that this model 
of having other federal agencies do research aboard the ISS is 
perhaps a viable one.
    Mr. Lampson. Thank you very much.
    Mr. Gerstenmaier. And my only comment to that is in the 
National Lab proposal we recognize transportation up front as 
one of the key critical resources that need to be addressed up 
front. So in the case of AMS, we were forced into this because 
we lost our transportation system when Columbia disaster 
occurred. In the case of the National Lab we recognize this as 
a weakness that needs to be addressed, and we are going to work 
it up front with our partners and not mislead them and assume 
that transportation is available. That is something that we 
have to work, and we are trying to provide a better expectation 
for what can be done with the Space Station.
    Mr. Lampson. It is something obviously that I have a 
significant amount of interest in, and I hope over time we will 
look for some innovative ways that we might be able to find the 
opportunity to make this piece of equipment be able to be 
deployed on the International Space Station.
    My time has expired, and I would recognize the gentleman 
from California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much.

                            Research on ISS

    Dr. Neitzel, is there anything that you can point to that 
we have achieved--of great value from scientific research--
Shuttle? Excuse me. On the Station?
    Dr. Neitzel. On the Station? The number of investigations 
that have been done so far have been somewhat limited due to 
the compression of the assembly sequence post-Columbia. I can't 
say I am personally aware of any experiments that I would say 
have led to groundbreaking research, but there are some 
experiments that have gotten some results that could be----
    Mr. Rohrabacher. Results but nothing near the value that we 
were led to believe would evolve from the Space Station.
    Dr. Neitzel. Perhaps not yet, but that is partly due to the 
fact that the resources are limited, and the transportation 
resources to carry these payloads are limited. So we have many 
pieces of facility class hardware that are yet to be flown to 
the Station and utilized.
    Mr. Rohrabacher. The, we are talking now about--is there 
something that we might be able to do in terms of--has NASA 
offered this asset properly to the private sector and to a 
university system or should we being doing something else that 
would permit us to open up that opportunity?
    Dr. Neitzel. I can't speak too much to the private sector. 
That would be something Mr. Gerstenmaier would be better 
qualified to address. However, from the standpoint of the 
academic community, NASA has been sending the wrong message 
with the decimation of that research community effectively 
December of 2005. There were several hundred investigators who 
were essentially removed from----
    Mr. Rohrabacher. Well, given budget restraints, okay, given 
budget restraints and people, believe me, you just say to 
them--pay. We are going to subsidize what you want to 
accomplish. Given budget restraints, is there something that we 
can, some way we can attract more investment from the 
universities or from the private sector in a way that would 
be--necessary bottom line for us actually to get it done?
    Dr. Neitzel. Well, there needs to be a baseline research 
community in place to effectively utilize the International 
Space Station upon assembly complete, and that community no 
longer exists. Now, last year several of us were asked to 
provide some estimates for the amount of funds it might cost to 
keep alive a research community in this era where we have 
limited opportunities for flight but could still have extensive 
ground-based work that could be developing flight experiments, 
you know, therefore, enabling their conduct aboard the ISS at 
assembly complete. That community came up with a figure of on 
the order of $70 million, which, in my budget is enormous but 
in the scheme of things it is not a particularly large number. 
And it seems to me that that kind of figure ought to be able to 
be found easily within the existing NASA budget or through an 
additional appropriation.
    Mr. Rohrabacher. I will have to say that I don't think $70 
million is easily found in anybody's budget these days--and I 
give Administrator Griffin credit. He is trying his very best, 
and every time you turn around when people suggest that finding 
things like $70 million is easy, that just isn't the case 
anymore. And I think we need some very creative approaches, and 
I am very, you know, I am happy that NASA is trying to bring 
the private sector into bringing down some of the costs.
    Of course, there is a risk factor in that perhaps the 
private sector launch capacity that we would hope was being 
developed, that might not work. Do we have, is not the, are not 
the Russians a back up if this does not work? If this is not 
successful and our own private sector is not capable of 
achieving the goals that they have set for themselves?
    Mr. Gerstenmaier. I think our international partners, the 
Russians, also the automated transfer vehicle, and then the 
Japanese HTV transit vehicle are also, are all viable back ups 
for us.
    We still have the Iran and Syria Nonproliferation Act that 
we need to deal with beyond 2012, and we will do that at the 
right time.

                          Enhanced Use Leasing

    Mr. Rohrabacher. And in terms of actually utilizing the 
Station, what we are talking about is utilizing it more for, 
let the private sector go in and let them try and find some 
creative uses for us. That leads me to Mr. Gerstenmaier--
expanding enhanced use leasing, and in 2003, NASA was granted 
enhanced use leasing authority to permit the agency to lease 
underutilized property and other consideration as a 
demonstration program at the Kennedy Space Center and at Ames 
Research Center. Now, we have expanded that or we permitted 
that to, sort of as an example to see what can be done. Have we 
learned something? Can that now, are there other facilities, 
other NASA facilities that can be brought into play that are 
now underutilized?
    Mr. Gerstenmaier. We would like to open that up to all NASA 
centers. We think especially as the Shuttle systems are retired 
we will have some facilities available to us that would be 
attractive potentially to the commercial sector to utilize and 
to lease from us, and then we would like to take the funds from 
that, the excess capacity, and use those for other things, 
promote the more-NASA direct adventures and activities. So we 
think that the model worked well with the two centers. We would 
like to expand that to all ten centers.
    Mr. Rohrabacher. Is there any estimate as to how much money 
might be, revenue might be generated from this?
    Mr. Gerstenmaier. I don't have an estimate with me today, 
but we could take that for the record and see----
    [The information follows:]
 NASA Estimate for Annual Revenue from Enhanced Use Leasing Agreements
    NASA is able to extrapolate reasonable estimates of the total value 
of the annual revenue to be received from existing leases based on the 
prior year's total annual revenue received. As outlined in the NASA 
2006 Enhanced Use Leasing (EUL) Annual Report submitted to the Congress 
on April 24, 2007, the Agency reported $1.3 million in annual revenue 
received. Some of this was received for common services (such as 
security and fire protection) provided to all entities on the Center 
including the tenants; other portions were for rent of the actual land 
or facility. However, NASA is not able to estimate the amount of 
revenue that will be received from EUL leases that have not yet been 
entered into. As part of the FY 2008 Omnibus Appropriations Act (P.L. 
110-161), Congress provided NASA with expanded EUL authority for all 
NASA Centers, effective December 31, 2008. Consequently, beginning in 
2009, NASA expects an increase in the number of EUL leases that the 
Agency will enter into, and therefore an increase in the annual revenue 
that NASA receives. Nevertheless, even though many of the NASA Centers 
that currently do not have EUL authority have ideas for potential EUL 
leases, there is no way to develop an estimate for revenue from those 
potential leases until the parties to the leases have entered into 
discussions for the actual amount of land, or facility, or portion of a 
facility that will be out-leased.

    Mr. Rohrabacher. Would it be possible with this approach 
that we might be able to come up with $70 million that might be 
used someplace else, for example?
    Mr. Gerstenmaier. I think based on the limited results we 
have seen from the two centers, I think that is a little bit on 
the high side of what is available, but it sure helps, and as 
you described in today's tough budget environment, any funds 
that we can get and use is definitely advantageous to us. And 
then we think there will be some facilities that can definitely 
be a win-win for the government and also for the private sector 
to get use of a unique facility in a unique location.
    Mr. Rohrabacher. This isn't the old days where people can 
just find $70 million, so we have to make sure we use every 
creative idea we have, and we do have an asset in the Space 
Station, and we ought to see if there is some creative uses, 
that could possibly go on there where we could generate some 
more resources as well. So not just savings in terms of how we 
utilize the Station. Actually the generating of resources.
    Thank you very much.
    Mr. Lampson. The gentleman makes some very strong points in 
comparison to the cost. We paid, I think paid so far some $30 
billion in its construction, $70 million does not seem like a 
huge amount in comparison, and I think we will spend $100 
billion over the lifetime of its operation. So let us hope we 
get it.

         Status of U.S.A. Strike and Its Affect on the Shuttle

    Switch to something that I am not, I don't want this 
Committee to be taking sides on, but I would like to know, Mr. 
Gerstenmaier, the status of contract negotiations between the 
striking International Association of Machinist Workers who are 
involved in the processing of the Space Shuttle and the United 
Space Alliance. Can you give me an indication of what is 
happening?
    Mr. Gerstenmaier. I don't have direct insight into that. 
Our contractors are involved in those discussions and 
negotiations. At this time the strike is still ongoing, and we 
are able to essentially continue to process with limited 
support from our non-union workers down in Florida, and things 
are--I don't have the status of the latest negotiations.
    Mr. Lampson. Okay. Has NASA evaluated the safety concerns 
voiced by the striking International Association of Machinists?
    Mr. Gerstenmaier. Yes, we have. We have been very careful 
to make sure that we are not progressing in any unsafe manner, 
that we have the proper skills, training for all our workforce, 
that we haven't cut back on any of our certifications of any of 
our workers for any jobs or any tasks in light of this. So we 
have made sure that we are processing the vehicles in a safe 
manner, and so far we have done that. If we see anything that 
is out of bounds, we would stop the activity and not proceed.
    Mr. Lampson. Can you give us some of the steps that NASA 
has taken to insure that the Shuttle processing activities 
associated with the next Shuttle launch are being conducted 
safely during the strike?
    Mr. Gerstenmaier. Yes. We provided some additional insight 
and oversight during some critical activities that, to make 
sure that we had all the right personnel supporting the 
activities, especially some of the vertical assembly building 
processing. We brought some extra NASA safety inspectors in, 
some extra quality folks in to actually watch that activity to 
make sure that it was occurring correctly, and we also reviewed 
the certification and training records to make sure that the 
employees doing the work were adequately trained and prepared 
to do the jobs to which they were assigned.
    Mr. Lampson. And then what are the implications, if any, of 
the strike for the Shuttle launch schedule?
    Mr. Gerstenmaier. Again, near-term we don't see an impact 
to the near-term launch schedule. If the strike continues, we 
will have to continue to evaluate and to review, and again, as 
I stated, if we see anything that doesn't look right, we will 
stop the operation and no longer proceed. But we are continuing 
to evaluate and so far we have been affected but not overly 
affected.

                        Shuttle Launch Schedule

    Mr. Lampson. Thank you. Your testimony notes that, ``When 
we fly systems as capable and as complex as the Space Shuttle 
and the ISS in such a dynamic environment, we always have to 
prepare, be prepared for the unexpected and be agile enough to 
react quickly and effectively.''
    What contingency plans does NASA have in the event that 
weather or some other unforeseen event delays the Shuttle 
launch schedule to the point that assembly of the ISS cannot be 
completed by 2010, the date that the Shuttle is supposed to be 
retired and no more flown?
    Mr. Gerstenmaier. We have put together a manifest that has 
some robustness in it. You can see that our last Shuttle flight 
ends in July of 2010, and we have until September 30 of 2010. 
There is some margin there. We also have the ability to 
optimize that manifest a little bit and move some things around 
to actually gain some more margin if we need to, if we have 
another weather event, then we can move things around.
    We also have the sequence and the flights ordered in a 
sequence that if we have to drop a flight at the end, it is our 
lowest priority flight, and we would make that evaluation when 
the time comes to drop the appropriate flight that needs to be 
dropped if it falls beyond that timeframe.
    And, again, so I think we have prepared as much as we can. 
We have robust manifests. We look at this from an overall 
standpoint, from, it is not a single system that can cause us 
to delay. It is the entire system. We are looking at it 
continuously. We are prepared. We have some margin to take some 
other weather delays. And in fact, this year we have planned 
three flights. We plan a flight in August, a flight in October, 
and a flight in December. Quite possibly that December flight 
may not occur just because of vertical assembly, building 
scheduling, and single high bay that is available. That flight 
may move into January. We have already evaluated that. That can 
occur without any impact to the downstream flights, and we will 
still be okay to accomplish the missions.

              Possibility for an Additional Shuttle Flight

    Mr. Lampson. If somehow or other Congress did miraculously 
find the extra money for another flight, is it possible that we 
have the capability of building the fuel tanks and whatever 
else, support to it? Or is that gone?
    Mr. Gerstenmaier. We are in the process right now of 
terminating a lot of contracts and subcontracts. So at this 
point we probably still could reasonably add another, we have 
enough ability to buy enough spares to potentially put together 
another flight. Later this year and into next year we will 
eventually lose that ability because we will have turned off 
spares and suppliers. So we are kind of in a transition period. 
There is not a single point in time, but it is becoming more 
and more difficult to actually add an additional flight.
    Mr. Lampson. Mr. Holloway and Ms. Chaplain both, would you 
all care to comment on any of those, please?
    Ms. Chaplain. I would just add that if another flight was 
added, it would further compress schedule. So you are just 
adding a little bit more risk to that schedule that needs to be 
negotiated.
    The other thing I understand with some of these spares is 
that NASA is still learning their failure rate time periods, 
and that learning will occur for several years forward, and it 
won't be known until late in the schedule, you know, do shifts 
need to be made, what should be on that last flight, you know. 
All those, there is a lot of questions that are going to be out 
there for the next couple of years just of the need to learn 
the lifespan of some of these materials that are, need to be on 
board.
    Mr. Lampson. Well, what is magic about that schedule? Why 
couldn't a flight be added at the end or of what is presently 
the existing schedule?
    Ms. Chaplain. As I mentioned in my testimony, there is 
about two, you know, they need 35 days between flights, and we 
have estimated 2.7 months between flights right now. So it is 
just adding another flight further compresses that time period 
to turn the launches around and get ready for the next one. It 
is still probably achievable. It just adds more schedule risk.
    Mr. Lampson. But no possibility of extending that schedule?
    Ms. Chaplain. Past 2010?
    Mr. Lampson. Uh-huh.
    Ms. Chaplain. You would have to ask NASA.
    Mr. Lampson. Okay. Well, I am trying to get your feeling of 
that.
    Mr. Holloway.
    Mr. Holloway. I believe the Space Shuttle team has a great 
deal of flexibility to deal with a near-term and a short-
duration schedule upset such as Mr. Gerstenmaier mentioned. I 
think in, over the course of the next three years I think they 
will be able to deal with those short-term weather delays of a 
week or two and so on and so forth. And in the near-term they 
can go much faster than they go for the long haul, if you 
understand what I mean by that, and can make up for lost 
ground.
    However, I would suspect that it would be most difficult to 
recover from a long-term delay such as the damage to the tank 
that occurred.
    Mr. Lampson. Thank you very much.
    I recognize Mr. Feeney for five minutes.
    Mr. Feeney. Thank you, Mr. Chairman.

                             Orbital Debris

    I have one more question on the micrometeoroid debris. Mr. 
Holloway, in your calculations where you say we can get that 
over a ten-year period to, you know, five percent risk of a 
catastrophic event. Have you taken into account the fact that 
we expect to double the size of the Space Station before 
completion?
    Mr. Holloway. Yes, sir. That was taken into consideration 
in the basic calculations that was provided to us by NASA.
    Mr. Feeney. Well, I don't want to be too alarmist. I live 
in Florida, and over the next ten years the chance my house 
gets hit by a catastrophic event, a hurricane or tornados, is 
probably at least a good five percent. So, that is something 
that we all ought to be aware of.

                             NASA and ITAR

    For Mr. Gerstenmaier, the task force has strongly 
recommended that the State Department should give relief from 
ITAR. They have done that in the short range here, but given 
the fact that we have, you know, reports in the last 24 hours, 
for example, have talked about the Chinese domestic spying for 
both economic and military reasons, and they seem to have 
enhanced capabilities and access, which is very troubling. What 
type of plans does NASA have as it seeks these necessary 
waivers so we can get cooperation with contractors that do 
international work and international partners. What type of 
plans do we have to insure that there is oversight that we do 
not allow critical technologies to get into the wrong hands?
    Mr. Gerstenmaier. In the case of the Space Station, you 
know, we are partners, are part of essentially a memorandum 
agreement and government agreements that are in place that 
insure that we don't transfer data back and forth amongst 
ourselves unnecessarily. So I think there is some protection 
already within the Space Station itself.
    In the case of the Automated Transfer Vehicle, we pursued 
through the State Department and with our contractors all the 
necessary agreements, the technical agreements to get in place 
to ensure that we would not transfer data inappropriately, and 
that has worked well. We still would like to have some more 
restrictions removed. The things that have become problematic, 
for example, is if a failure occurs on the Automatic Transfer 
Vehicles that is approaching the Space Station, we need to have 
the ability to talk with our international partners about what 
that failure was and how it occurred to avoid that spacecraft 
from hitting the Space Station or causing it damage. And so we 
need some relaxation in those kind of dealings in the real time 
environment.
    So we are speaking or seeking specific changes and specific 
limited areas that won't overall impact the transfer of 
critical information.
    Mr. Feeney. Mr. Gerstenmaier, which of the task force key 
recommendations do you agree with, which do you disagree with, 
and which are you sort of undecided about?
    Mr. Gerstenmaier. I think we agree with all the 
recommendations, and we are aggressively moving out on them. 
They are going to take a significant amount of time for us to 
implement. In some cases multiple years. Some of them are out 
of our direct control. Some of them rely on State Department. 
Some of them rely on some potential Congressional funding, but 
the ones that we have control of we are moving out as fast as 
we can, and we would, we anticipate we will be able to satisfy 
all the recommendations. In fact, they were a very good set of 
data for us to work on.

               Feasability of Additional Shuttle Flights

    Mr. Feeney. Would there have been discussions about a 
number, a completion of a number of missions, Mr. Rohrabacher 
talked about one, Congressman Lampson when he was in the Chair. 
Other than budgetary constraints and Congress's willingness to 
fund it, is there any technical reason that you are aware of, 
and Mr. Holloway, the same thing, that if the Shuttle had to 
fly an extra two or three missions, it took an extra six months 
or a year, is there any technical reasons we are aware of that 
that is a practical impossibility for technical reasons or 
capabilities?
    Mr. Gerstenmaier. There is not a technical reason that that 
can occur. The problem becomes budgetary, that if that money 
then comes from exploration, then that takes money away from 
the constellation vehicles, the Orion and Ares vehicles and 
delays that generation of the next vehicle, because the NASA 
budget is essentially capped at a certain level. So that is the 
constraint. Technically it is viable but then programmatically 
it just makes a longer delay in where we are.
    The other piece is that the Shuttle is really necessary for 
these assembly flights and that extra complexity and that extra 
care is warranted. We would like to migrate to a newer vehicle 
that is more dedicated to crew transport, that is a little 
simpler to operate, potentially a little bit easier to operate 
than the Shuttle. So we want to get to the new vehicle as soon 
as we can. So delaying the Shuttle because of the funding 
constraints delays that next vehicle, which keeps us from where 
we want to go in the future.
    Mr. Feeney. With permission of the Chair for a moment, the 
new vehicle does have a lot more flexibility and capability but 
not in terms of the size of the payload. And so to the extent 
that some of these are payload size issues, the bottom line is 
that if Congress and the Administration in the future decide 
that we need to have an extra mission or two, and it needs to 
last an extra six months or two, that is kind of in our hands. 
There is no technical reason you are aware of or Mr. Holloway 
is aware of that that is an impossibility?
    Mr. Gerstenmaier. No technical reason.
    Chairman Udall. Thank you, Mr. Feeney. Thank you, Mr. 
Gerstenmaier. That is actually a very good point to keep in 
mind that Ranking Member Feeney mentioned.

                   Status and Future of ISS Research

    Dr. Neitzel, if I could turn to you, there is testimony on 
both the status of and the outlook for the Station research. If 
I could, I would like to throw a few questions at you and then 
you can pick and choose the order in which you would answer 
those.
    The first one would be do you think the situation is 
irreversible and could it be fixed, and I would then move to a 
follow on, which is if it isn't irreversible, what would be 
your highest priority recommendations for fixing it. And that 
would be what could Congress do, and then as a follow on to 
that question about Congress, what would the role of NASA and 
the Administration be fixing a situation that, again, you 
pointed out is pretty sobering.
    Appreciate your thoughts on this.
    Dr. Neitzel. Well, the research community is down to next 
to nothing right now. There are a few non-exploration research 
projects sponsored in academic institutions. I am fortunate 
enough to have one of them, a small one. I don't think the 
situation is irreversible at this time, but I think if we wait 
too much longer, it may become irreversible. As I pointed out 
in my, in both my oral and written testimony, a large number of 
the people who were working on these NASA-related projects have 
now moved onto other pursuits. These people have lots of 
interests, and there are lots of other places to receive 
funding to support research and to support graduate students 
and undergraduate students.
    However, there are probably still some experiments that had 
been in the planning and development stages prior to the 
cancellation of these projects that may be able to be taken out 
of the closet, dusted off, and revitalized. So they could be 
flown perhaps as early as 2010.
    The problem is that a flight experiment used to take seven 
or eight years to get to to space. With the development and the 
very wise decision by the, by NASA in my opinion to develop 
these facility class payloads, that development time for 
experiments that could utilize those facility class hardware 
payloads was going to be brought down to about four years. That 
is the length of time that a faculty member gets interested in 
now because that is the length of time over which a Ph.D. 
student is typically trained.
    So I still think there would be interest in a large 
fraction of the community that had been involved in NASA-
related research to come back and continue with the research, 
if their other commitments allow it.
    Your second question was if it isn't possible, the highest 
priority for fixing it. I think I sort of wrapped both of those 
answers into that, and the role of NASA is that NASA has to, 
and the government as a whole has to commit to a long-term 
support of fundamental and applied research aboard the ISS in 
order to get this community back to the fold. No one is going 
to want to come back, revitalize a piece of research, start 
working again on a flight experiment, only to be told a year 
from now that the priorities have changed again and your work 
isn't needed.
    So I think there needs to be a long-term commitment to the 
science community to support research that will ultimately get 
done aboard the ISS.
    Chairman Udall. Would you expand a little bit more on that 
length of that commitment and any more specific thoughts you 
might have about what that commitment would involve? From, this 
is from NASA.
    Dr. Neitzel. Well, I believe you were out of the room when 
I responded to Mr. Rohrabacher that the community had come up 
with a keep-alive number of about $70 million per year that 
would be required to sustain an effort, roughly half of what it 
was before the December, 2005, Christmas letters that we 
received from NASA that canceled the research program. I think 
at the minimum that kind of a financial commitment needs to be 
made by NASA to insure that there is enough community left with 
experiments in the pipeline to be able to effectively utilize 
the facilities aboard the ISS out until its projected lifetime 
ends.
    If we think about that pipeline requiring three or four 
years to get something to space, then experiments that are 
going to be done in 2010 had already better be started, and the 
ones that would start now would then go into the years beyond 
2010, taking us out to 2015, or whenever the ISS ceases to be 
viable.
    Chairman Udall. Yes. I understand that Congressman 
Rohrabacher's open to further persuasion by the Ranking Member 
and even myself when it comes to making that additional 
investment.
    Dr. Neitzel. That is good to hear.
    Chairman Udall. Well, I thank you, Dr. Neitzel, for your 
input and your insight. I think this is a very important point 
you have raised. The Chair looks forward to working with you.
    Dr. Neitzel. Thank you very much.
    Chairman Udall. The Chair recognizes the gentleman from 
Texas for five minutes.

                      Shuttle Contingency Flights

    Mr. Lampson. Thank you, Mr. Chairman. Mr. Gerstenmaier, in 
Mr. Holloway's testimony he states that the ISS Independent 
Safety Task Force recommended that NASA commit to carrying out 
two so-called contingency Shuttle flights to insure that the 
ISS will have the needed spares in place prior to the 
retirement of the Shuttle. In fact, he states in his view that 
NASA should, ``Develop an option that insures that the two 
remaining Shuttle exterior flights are given the highest 
priority for flight in front of Node 3 if necessary to avoid 
exacerbating a problem should all planned Shuttle flights not 
be completed.''
    Those are pretty forceful and unambiguous statements. Do 
you agree that the two contingency flights should become part 
of the baseline?
    Mr. Gerstenmaier. Yes. Technically I think that is 
something we need to, we need to fly those flights for the 
reasons we have discussed.
    Mr. Lampson. And then what about his personal 
recommendation that they be given the highest priority for 
flight?
    Mr. Gerstenmaier. Again, I think I would soften that a 
little bit just to see what our failure rate is over the next 
year, and I recognize we won't have perfect data, but I sure 
will have a lot better data after seeing how well this hardware 
performs in one year, and then we could, then we will make a 
decision on whether they are the highest priority as you 
described.
    Mr. Lampson. And then when will the final status of the two 
contingency flights be nailed down, and who needs to make the 
decision on whether to include them in the Shuttle manifest?
    Mr. Gerstenmaier. They are currently in our budget right 
now, and we plan to seek to officially add them this summer.
    Mr. Lampson. Mr. Holloway and Ms. Chaplain, would you 
please comment on that line of questioning?
    Mr. Holloway. I don't have anything to add except I suspect 
when it plays out those two flights will be critical in 
maintaining the, particularly the external spares. As you know, 
today there is not a capability to, outside the Shuttle to 
launch external spares, and so NASA will be dependent upon the 
emerging Japanese capability or the COTS capability. And 
neither of those are a sure thing, at least in the short-term.
    So, again, I believe as the task force recommended that 
getting these two flights done is extremely important to 
maintain the viability of the Station.
    Mr. Lampson. Ms. Chaplain.
    Ms. Chaplain. I agree with Mr. Holloway, and would just 
add, though, that not having Node 3 go up does further hamper 
the ability to conduct research on the Station. So it is 
another tradeoff that makes research more difficult to do, but 
it is a tradeoff you have to make if you want to sustain the 
Station.
    Mr. Lampson. Thank you very much.
    Mr. Chairman and Ranking Member, I for one and probably 
people may start throwing things at me when I say this, but I 
think it would be very, very worth our while to see if we can't 
begin to lobby our own colleagues to find the money necessary 
to do more of the science. Sure it is going to cost us more 
money, but we chose to dream, and we chose to dream big, and 
now for us to back off on--doesn't make a lot of sense to me.
    I will put my neck on the line and go out and start asking 
for support for the increased resources necessary to do these 
things. Science is critically important. It should be more than 
$70 million in my opinion, and when we begin to skimp, it just 
seems like we shortchange ourselves. We have gotten huge 
returns from what we have learned in the past, financial 
returns. We created significant industries, we have made, 
created untold numbers of jobs and put exceptionally great 
amounts of money into the economy. When we choose to look and 
play small, we, I think, give away, we give away our future.
    At any rate, I am volunteering to work with you and any of 
the rest of us in Congress to try to make these things happen. 
Dream and tell us those dreams and we have the responsibility 
to try to make them come true.
    I will yield back my time.
    Chairman Udall. The gentleman from Texas is as always 
courageous and well spoken, and I look forward to working with 
him to make sure we make the maximum usage of this leadership 
in that regard.
    The gentleman from Florida is recognized for five minutes.
    Mr. Feeney. Well, thanks, and I appreciate Congressman 
Lampson's encouragement and agree with that. I should know, my 
understanding is our Appropriations Committee in the House has 
put in plans the capability to fund the two contingency 
missions, which for the long-term health and resiliency and 
longevity of the Shuttle apparently are very important 
according to the task force recommendation. I don't think Mr. 
Gerstenmaier disagrees, and so I also think that having 
reestablished a regular schedule with some successes will make 
it easier for Congressman Lampson and the Chairman and others 
to encourage our colleagues that an investment in future 
science programs, I mean, if you weren't going to get the 
Shuttle back up safely on a regular basis. I can understand a 
lot of reticence.
    So the successes that we have had, Mr. Gerstenmaier, will 
allow us to make credible arguments along the lines as 
Congressman Lampson suggested.

                          Workforce Transition

    I want to leave with one last thing that is obviously a 
passion of mine. We have got a huge workforce at NASA in the 
Kennedy Space Center area and with the many contractors that 
service that area. We learned lessons after Apollo about the 
loss of workforce within a transition after Apollo. We learned 
lessons after the Challenger disaster about the irreplacability 
of the special capabilities and skills. Dr. Neitzel is 
testifying today about the problems in life sciences because we 
have dramatically slowed down emphasis in those areas. What 
does each of you recommend briefly that you can do as you 
complete the International Space Station and retire the Shuttle 
that will make the transition for employees and workforce 
skills as seamless as possible?
    Mr. Gerstenmaier. From our perspective we are trying to 
show that the work we are doing today has a real benefit to the 
future programs. As I described in some of my opening remarks, 
a lot of the systems on-board the Space Station that were up 
and operating, the pumps and systems that operate are real 
systems that will be used in future exploration systems, and we 
have a natural tie between those two.
    So the folks that are working on the Space Station can see 
that their future and their work is tied, now today is tied to 
exploration in the future.
    The same with some of the workforce down at the Kennedy 
Space Center. We recently, we are getting ready to stack the 
solid rocket motors for the October flight, and typically we 
stack those solid rocket motors in parallel. We stack one side, 
then the other side, and the stacks that then will, the 
external tank will hang between. What we are doing this time is 
we are just stacking one of those boosters, and we are doing 
that because we are going to fly the Ares 1-X flight in 2009. 
That will be the first test flight of the Aries system with 
dummy upper stage with just a single booster off of one of our 
mobile launch platforms.
    So we are going to gain data on how much that launch 
platform deflects with just a single booster on it. We can 
provide that data to the exploration folks.
    So, again, we are showing a real world tangible example of 
the Shuttle workforce is actually preparing the way for the 
exploration workforce to get ready. So we are showing our 
workers there is a future. The jobs will be different. They may 
not be operational type of jobs. They may be more developmental 
operations kind or more, they will not be operational jobs. It 
will be more developmental in nature, but we are showing that 
there is a future. We are providing them training opportunities 
and allowing them to be part of that future system today while 
they are doing their existing job.
    Mr. Feeney. Go ahead, Ms. Chaplain, or anybody else who 
would like to--and then I am going to yield back the balance of 
my time when the panel is completed.
    Ms. Chaplain. I just would make a couple comments on 
workforce because we have been doing some work in this area.
    One of the things we would like to see NASA do is make sure 
it has good measures to track the progress of a lot of the 
actions they have been taking to sustain and keep the critical 
skills that they need. The activity of mapping skills that they 
have now to what they need in the future is good, but that 
needs to be tracked continually. And government-wide, you know, 
we have this issue of retaining systems engineers in-house in 
government agencies that all agencies are, you know, facing 
problems in that area and incentivizing people to stay. And at 
the same time knowing how to manage the contractors that you 
are relying on to conduct the activities and systems 
engineering.
    So it is just another area they need to pay special 
attention to to make sure they don't lose that critical 
expertise.
    Dr. Neitzel. Might I make a comment? I certainly would 
worry about the ability to retain center personnel at the 
various NASA research centers who work and support the research 
payloads that go up to the Station and have been flown on the 
Shuttle. There is a large body of expertise there that could 
conceivably be lost as you pointed out in the era between 
Apollo and the Shuttle program. A large number, a large amount 
of institutional memory went away.
    I also worry very much about our ability to motivate future 
generations of young Americans to consider careers in science, 
technology, engineering, and mathematics, the STEM disciplines.
    We have a hard time right now retaining young people at 
universities who come starting to study engineering and 
sciences. So we need motivators to keep those kids interested 
and to keep them wanting to pursue careers in science and 
engineering. And if we take away a large thing like the space 
program, which is one the things that motivated me when I was a 
teenager growing up in Florida, we risk losing the next 
generation to these kinds of activities. Not just, not the 
whole generation just because the ISS may go away, but we 
really need these kinds of things to help motivate our kids to 
pursue careers in technological fields.
    Chairman Udall. I thank the gentleman from Florida for some 
terrific questions.

                   Status of Hubble Servicing Mission

    I am going to direct a final set of questions to Mr. 
Gerstenmaier. This is actually one of my favorite assets in the 
portfolio of NASA, and that is the Hubble telescope. I would 
like to give you, Mr. Gerstenmaier, a chance to talk a little 
bit about the status of the preparations for the mission and 
what do you consider to be the greatest challenges, including 
that mission successfully, and is there any chance that the 
'08, launch date might slip because of its accommodate assembly 
mission to the state?
    Mr. Gerstenmaier. We are actively in the process of working 
on that mission with the Science Mission Directorate, and the 
Science Mission Directorate is finalizing the activities that 
are going to occur on that flight, what specific instruments 
are going to be repaired. We have been busily working with them 
to insure that we are prepared to go do this. Again, Space 
Station has prepared us in a lot of ways that we were not 
prepared with before for the Hubble serving mission. We have 
gained a lot of experience in extra-vehicular activities or 
space walks that will be, have direct application. So I think 
the teams are prepared. We are ready for that mission.
    Recently when we had the hail damage to the tank, the 
Shuttle manifest went through a slip, we actually held the 
Hubble mission in its position in the calendar dates, and we 
let some of the Station missions slide beyond the Hubble 
mission to hold it in the September timeframe. I think on paper 
we show it now maybe in the August timeframe. It will probably 
be in September when we actually fly the mission. So we have 
been able to hold the Hubble telescope even though we had some 
schedule threats and we let the Station flight slip around 
because, again, we don't often get to optimize for whatever 
situation we have. We have to balance between the two, so we 
balanced the risk of getting the Hubble serviced at the right 
time against the Station delays, and we made the appropriate 
decision, I believe, to hold the Hubble where it was. So, 
again, things look pretty good for the Hubble mission.
    One other thing I would add is the Hubble telescope team is 
looking at some innovative tools to actually be able to repair 
potentially some devices out on the outside. They have 
developed a device that will hold screws that allows to 
essentially pop a circuit breaker out of a device that is on 
the outside of the Hubble Space telescope, and replace a card 
within that computer device.
    I don't know if we will decide to do that particular task 
on the Hubble mission or not, but that has tremendous 
application to Space Station and other vehicles. We now maybe 
have the ability to go outside and repair a computer box 
without having to bring it inside, pop the card up, put a next 
card in. We may even be actually able to do that on the 
outside.
    So, again, we are able to learn from the science group and 
what they are repairing for their repair mission and apply that 
to Station and apply that to exploration. So as long as we stay 
open and we continue to work across programs, we can maximize 
the benefit as we move forward.
    So this mission fits well.
    Chairman Udall. Just out of curiosity since I have a little 
bit of time left, the procedure you just outlined, in the past 
has it been difficult or impossible to undertake because of 
zero gravity or because of the extreme conditions that are out, 
you find outside the body of the Space Station or the 
telescope?
    Mr. Gerstenmaier. The problem in this case is there is a 
bunch of screws, about--I think maybe ten or so screws that 
actually hold the circuit board in place. Those screws are not 
captive. So when you are in the space suit with the gloves and 
the tools, and you back that screw out, it typically floats 
away, and then you are in not such good shape.
    What they have developed is a simple plastic device that 
sits over the top of those screws and then as the screw backs 
out with the device, it goes in and it is held captive in this 
plastic device, and then you can change the card out, put the 
plastic device back on and reinsert the screws back into the 
circuit board.
    So it is a clever concept, a mechanical way to capture and 
hold these screws or a way to repair something that wasn't 
intended to be repaired that way. And I guarantee you we will 
take benefit of that on-board the Space Station, either on the 
inside or on the outside of the Space Station.
    Chairman Udall. And it also has a useful in a gravity 
environment as well.
    Mr. Gerstenmaier. It is not as critical in the gravity 
environment because gravity provides that force that holds the 
device or the screw where you want it to be, and in this case 
it is a----
    Mr. Feeney. Mr. Chairman, just out of interest, if I may, 
sorry to interrupt, but----
    Chairman Udall. Happy to yield.
    Mr. Feeney.--I am going to show my scientific ignorance 
here. That is why I was a dirt lawyer before I got to Congress. 
Wouldn't magnetic capabilities help?
    Mr. Gerstenmaier. That would be another option, too, but 
the beauty of this device is you place it on and then all ten 
screws are held by this device where some kind of magnetic 
capability, it may be a screw at a time, and then you have got 
the screw magnetically held to your screwdriver, and then how 
do you get it off with this big glove on? This way it is all 
held by the mechanical device, and it is a very elegant 
solution to a fairly simple problem but a problem that we face 
in zero gravity.
    Chairman Udall. With that I thank the gentleman from 
Florida for his question. At this point I want to bring the 
hearing to a close. I want to thank all of the witnesses for 
testifying before the Subcommittee today on these very 
important topics that deal with the future of the space 
program, our competitiveness agenda, and whether we are going 
to be the innovator of the world in this regard.
    If there is no objection, the record will remain open for 
additional statements from the members and for answers to any 
follow-up questions the Subcommittee may ask of the witnesses. 
Without objection, so ordered.
    The hearing is now adjourned.
    [Whereupon, at 11:40 a.m., the Subcommittee was adjourned.]







                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Mr. William H. Gerstenmaier, Associate Administrator, 
        Space Operations Mission Directorate, National Aeronautics and 
        Space Administration

Questions submitted by Chairman Mark Udall

Q1.  Given the European Automated Transfer Vehicle has taken 
approximately 10 years to develop, according to Mr. Holloway's 
testimony, what evidence, technical or otherwise, does NASA have to 
indicate that COTS systems will be available within the timeframe NASA 
needs them to support International Space Station (ISS) logistics?

A1. Modern commercial development practices employed by the Commercial 
Orbital Transportation Services (COTS) partners are expected to 
accelerate the development schedules for these systems. Also, the 
technology employed by vehicles to fly cargo or crew to the ISS is well 
within today's state-of-the-art. The ISS integration of the European 
Space Agency (ESA) Automated Transfer Vehicle (ATV) and the Japanese 
Aerospace Exploration Agency (JAXA) H-II Transfer Vehicle (HTV) has 
provided valuable pathfinders that make the subsequent integration of 
new visiting vehicles much easier. Although one COTS partner has 
encountered issues with financing, the other participant has 
successfully completed six milestones on schedule and their vehicle is 
still on track for a final demonstration flight to the ISS in late 
2009.

Q2.  Has NASA assessed the technical status of non-U.S. vehicles such 
as the Japanese HTV and European Automated Transfer Vehicle (ATV) that 
are intended to provide cargo services to the ISS once the Shuttle has 
been retired?

A2. NASA maintains an on-going integration and oversight role of the 
HTV and ATV. Major Design Reviews and Technical Interchange Meetings 
(TIM) are regularly conducted to confirm technical progress with the 
International Partner visiting vehicles. A representative set of key 
events for HTV include:

        <bullet>  Critical Design Review 2 in April 2006;

        <bullet>  Proximity Operations Preliminary Qualification Review 
        (PROX PQR) in July 2007; Launch Package TIM in June 2007; and,

        <bullet>  HTV Joint Operations Panel (HJOP) in June 2007.

    A representative set of key events for ATV include:

        <bullet>  ISS Independent Safety Task Force ATV Review in 
        October 2006;

        <bullet>  NASA Headquarters ATV Review in January 2007;

        <bullet>  PQR in June-Sept. 2007; and,

        <bullet>  Program Manager's Review in September 2007.

Q2a.  What back-up cargo transport has NASA established should COTS and 
the non-U.S. vehicles be unavailable to meet NASA's logistics schedule 
for ISS?

A2a. NASA has developed a plan for flying multiple cargo transportation 
vehicles with multiple development timelines to support the ISS. This 
is a strategy that does not depend solely on one vehicle's success to 
ensure ISS viability. NASA closely monitors development of the COTS 
vehicles and has strategies to react within the appropriate timeframes 
if the development does not proceed per schedule.
    The Shuttle manifest calls for 10 assembly flights to the ISS and 
one to service the Hubble Space Telescope. In addition, NASA may fly up 
to two additional ISS logistics flights if they are deemed necessary 
and can be safely flown before the end of 2010. As a part of ISS 
assembly, NASA will continue to use the Space Shuttle to preposition 
spares on orbit. This will provide some schedule margin for new 
visiting vehicles.

Q2b.  If NASA begins to use COTS systems and a COTS launch failure 
occurs, what back-ups would be available to support the ISS?

A2b. NASA hopes to have multiple U.S. providers available for services 
and will structure the ISS re-supply services contract in a way that 
will enable multiple provider support. However, if a U.S. provider 
fails and an alternate U.S. provider is not available, the ISS would 
utilize alternate transportation capabilities provided by the 
International Partners.

Q2c.  How far in advance must NASA procure additional Progress, ATV or 
HTV vehicles?

A2c. The lead time is about two years for Progress manufacturing. 
However, there is a concern as to whether the infrastructure can 
support the build, processing and launch of additional Progress 
vehicles above the current level planned for ISS. For ATV and HTV, the 
lead time is about three years.

Q3a.  Mr. Holloway's testimony refers to ``160,000 pounds of logistics 
and spares that must be transported to the Station between 2010 and 
2015.''

      Does that mass include logistics needed to support ISS research 
as well as ISS research experiments? If so, how much of the total is 
for each?

A3a. The mass does include logistics to support ISS research. 
Utilization demand comprises about 39,000 pounds of the 160,000 pounds 
of total ISS demand from 2010-2015.

Q3b.  How much of the 160,000 pound logistics requirement can be 
satisfied at present?

A3b. As stated in the ISS Safety Task Force Report, about 40,000 pounds 
will be delivered by International Partner vehicles to offset their 
CSOC obligations. The remaining 120,000 pounds (or 54.4 MT) will be 
delivered on COTS vehicles.

Q3c.  What are NASA's plans for securing transportation for the 
remaining logistics requirements?

A3c. As stated above, COTS vehicles will deliver the remaining 120,000 
pounds of cargo.

Q3d.  What logistics support (upmass and downmass) on COTS vehicles, 
Progress or Japanese HTV vehicles will be allocated to ISS utilization?

A3d. Given this set of launch vehicles (including ATV), 100 percent or 
39,000 pounds of the utilization demand will be delivered in the 2010-
2015 timeframe.

Q4.  With respect to ensuring U.S. access to the ISS,

Q4a.  What is the plan for getting U.S. astronauts to and from the ISS 
after the current exemption from the ISS-related payments provisions of 
the Iran and Syria Nonproliferation Act expires at the end of 2011?

A4a. Once the Space Shuttle retires and until COTS Capability D or 
Orion becomes available, the Russian Soyuz represents the only crew 
transfer vehicle that can support ISS crew exchanges and rescue 
services.

Q4b.  Does NASA plan to seek legislative relief to allow payments to 
Russia for continued ISS related crew transfer and crew rescue services 
after 2011? If so, when will that occur?

A4b. NASA is monitoring the progress of potential domestic commercial 
providers to develop cargo and crew transportation services to the 
International Space Station (ISS), and the Orion project is on track to 
reach its Initial Operational Capability in March 2015. Purchasing 
cargo and crew transportation services domestically is NASA's preferred 
method to meet the needs of the ISS. The Administration is considering 
options to maintain a U.S. crew presence aboard the ISS. This may 
include relief from the provisions of Iran, North Korea and Syria Non-
Proliferation Act (P.L. 106-178, as amended) (``INKSNA'') for 
additional Soyuz services to keep a U.S. crew presence on the ISS until 
either domestic commercial crew transportation services, or Orion, 
become available. We will keep the Congress fully informed of our 
plans.

Q4c.  What is the earliest credible date that a commercial crew 
transfer service might be available, and what is your estimate of the 
most likely date?

A4c. The currently funded Space Act Agreements (SAA) with our COTS 
partners include milestones for both a cargo and a crew transportation 
demonstration, with only the cargo demo milestones currently funded. If 
the crew transportation demonstration option is exercised and funded by 
NASA upon the successful conclusion of the cargo demonstrations, the 
proposed option's milestone schedule could support testing and 
demonstration of COTS crew transfer capabilities as early as 2011 or 
2012, after cargo is successfully flown on multiple flights and the 
reliability of the new system is established. One of the Agency's 
funded COTS partners has completed all six performance milestones on 
schedule to date, however significant technical challenges remain for 
completing the remaining milestones. NASA will have the ability to more 
accurately estimate the COTS Capability D availability window after 
additional partner milestones are attempted and met over the next year.

Q4d.  What will you do if neither commercial nor Russian options for 
crew transfer are available to NASA after 2011?

A4d. NASA anticipates that the Russian Soyuz vehicle will be the only 
option for crew transfer and emergency crew return capability for post-
2011 until Orion or COTS Capability D are available.

Q5.  Ms. Chaplain's testimony discussed the risks of the COTS program 
given the new relationships that NASA is developing with potential COTS 
providers and the fact that new vehicles are being developed. Her 
testimony also noted that ``it is critical that NASA establish clear 
and consistent guidance, limit requirements changes, and ensure that it 
has visibility into the progress being made by the commercial 
suppliers.'' What, in specific terms, is NASA doing to address these 
issues and risks?

A5. The COTS model is a different approach from standard government 
contracting, and the approach to the development of new vehicles is 
also different. The COTS partners are not developing a system to be 
operated by the government or its contractors, but are demonstrating a 
capability that NASA can later utilize as a commercial service. While 
these companies develop vehicles that they intend to use commercially, 
they will assume most of the financial and programmatic risk.
    The Agency's COTS strategy established high-level performance goals 
to encourage innovation. The Agency's commercial partners are 
responsible for developing their own detailed design requirements. Only 
in the area of ISS, visiting-vehicle integration and human rating were 
firm requirements imposed--and these were open to negotiation.
    NASA's COTS strategy has much less day-to-day oversight of the 
commercial partners than in standard government contracting; however, 
insight is maintained by a team of civil servants that work with the 
partners on a day-to-day basis providing assistance and monitoring 
progress. This approach was taken to encourage process innovation and 
to not externally impose existing processes on the partners.
    This risk of a partner not successfully demonstrating its 
capabilities is mitigated by working with multiple commercial partners 
to maximize the probability of one or more partners succeeding. NASA 
assists the commercial partner's efforts by providing a network of 
Agency technical experts across all discipline areas known as the COTS 
Advisory Team (CAT). Extensive NASA technical and facility resources 
are also available to the commercial partners through reimbursable 
SAAs.
    The Government's financial risk is limited by paying partners only 
upon the successful completion of a pre-negotiated set of performance 
milestones. If NASA determines that a partner has succeeded in a 
milestone based on objective success criteria, the partner is paid; if 
not, no payment is made. These milestones typically occur every three 
or four months for each commercial partner until the conclusion of the 
COTS Demonstrations project in 2010. These milestone certifications 
provide clear evidence of the progress being made by each of the 
partners.

Q6.  What is the status of NASA's discussions with the Department of 
State regarding International Traffic in Arms Regulations (ITAR) issues 
and NASA's ability to use contractors versus civil servants to support 
the European ATV launch to the ISS?

Q6a.  What are the issues under review?

Q6b.  The Space Station program has been in existence as an 
international partnership for about two decades. Why is ITAR now being 
raised as an issue for contractors that are integrating and operating 
the ISS?

A6a,b. NASA's discussions with the Department of State regarding ITAR 
impacts have addressed several topics, including: restrictive provisos 
(i.e., conditions) on Technical Assistance Agreements (TAAs) regarding 
anomaly resolution and dual-nationals/third-country nationals; and a 
possible limited ITAR exemption for NASA contractors implementing NASA 
international programs. The State Department has been working with 
NASA, the European Space Agency, and the Canadian Space Agency to 
address the subject of restrictive provisos, and the State Department 
has indicated that it will publish guidance on its website in the near 
future to facilitate progress on activities covered by TAAs in certain 
cases.
    For the longer-term, NASA has also been engaged with the State 
Department regarding the potential development of a tightly-
circumscribed ITAR exemption to allow NASA to authorize certain exports 
and technical assistance by contractors implementing NASA's 
international Government-to-Government agreements. From the NASA 
perspective, this proposal is based upon already-existing authority in 
the ITAR enjoyed by the Department of Defense (DOD) in effecting 
Foreign Military Sales and includes comprehensive review and reporting 
requirements, to ensure that NASA contractors' ITAR-controlled 
activities are consistent with NASA's international agreements, and 
that the State Department is apprised of those activities in a timely 
manner. The current NASA proposal is compatible with previous guidance 
provided by the State Department as part of prior efforts to work with 
NASA and DOD on the creation of additional, reasonable discretion under 
the ITAR in overseeing major NASA programs. The details and overall 
feasibility of this proposal remain under discussion between NASA and 
the State Department.
    The ITAR issues under discussion with the Department of State are 
not new. NASA has been engaged with the State Department for over seven 
years in efforts to explore solutions to various ITAR challenges 
confronting its contractors. Those activities have included closer 
coordination with the State Department on NASA contractors' license 
applications, efforts to revise unduly restrictive license conditions, 
and the proposed development of the limited ITAR exemption referenced 
above to facilitate NASA's international cooperative activities 
involving the Space Shuttle program, the International Space Station 
program, and major science missions.

Q7.  In its 2006 report, the Congressionally-established Aerospace 
Safety Advisory Panel [ASAP] ``observed that launch decisions are too 
regularly elevated to the Administrator level, and the Panel noted the 
lack of an analytical risk-assessment process that is standardized, 
comprehensive, and well understood throughout the agency.''

Q7a.  What is your response to ASAP's findings? Do you agree with them, 
and if so, what do you plan to do differently?

A7a. This question addresses two different but related issues: (1) 
flight risk issues elevated to the NASA Administrator level (2) 
analytical risk assessment capabilities at NASA. NASA's response to 
each aspect of the question is provided below:
Flight Risk Issues Elevated to the NASA Administrator Level
    The decision of the NASA Administrator to become technically 
involved in the Flight Readiness Review (FRR) process is based on his 
personal choice to do so. There are currently no NASA or Shuttle 
Program requirements or expectations for the Administrator to 
participate in this capacity.
    Under the revised Governance model, any safety of flight risk 
characterized as unacceptable by the Program Manager, Engineering 
Technical Authority, Safety and Mission Assurance (S&MA) Technical 
authority, or Health and Medical Technical Authority, must be elevated 
to the next higher level (typically the appropriate Mission Directorate 
Associate Administrator). Since the Shuttle Return to Flight, only one 
Shuttle flight risk issue that has been elevated to the Headquarters 
level for decision. This case involved the risk associated with debris 
liberation from the External Tank ice/frost ramp (IFR) and the 
potential for catastrophic Orbiter Thermal Protection System (TPS) 
damage. This is the only situation when the Administrator was formally 
requested by the Space Shuttle Program (SSP) to participate in the FRR 
decision process.
Analytical Risk Assessment Capabilities at NASA
    In relation to this issue, in its 2006 Third Quarterly Report of 
September 26, 2006, ASAP made a specific recommendation to NASA. This 
recommendation is identified as Recommendation #4 (2006-03-02) on Page 
57 of ASAP Annual Report for 2006. It reads:

         ``The ASAP recommends that a comprehensive risk assessment, 
        communication and acceptance process be implemented to ensure 
        that overall launch risk is considered in an integrated and 
        consistent manner. The process should be sound, mature, 
        consistently implemented to yield high confidence and 
        consistent results that are generally accepted by the majority 
        of the community.''

    NASA accepted this recommendation and is in the process of 
implementing it. NASA's implementation approach is documented on pages 
58 and 59 of ASAP Annual Report for 2006.

Q8.  In an April 16, 2007 Wall Street Journal article on preparations 
for extending ISS operations past 2016, NASA Administrator Griffin is 
quoted as saying ``We're discussing all of that right now.'' And the 
article states that Administrator Griffin added that he would be ``very 
surprised if the U.S. decides to end its participation'' in the Station 
by 2016.

Q8a.  What is the status of those discussions on extending ISS 
operations past 2016?

A8a. No funding for the ISS is in the budget after 2016. Work to reduce 
Space Station operations and transportation costs is underway. 
(Transportation costs are expected to be roughly 40 percent of the ISS 
long-term costs.) Affordability and utility would need to be weighed 
within the larger context of the Nation's space program in any decision 
on whether the ISS's life should be extended beyond 2016. A decision to 
extend the life of the ISS beyond 2016 could be made as late as 2010 
without significant cost impacts.

Q8b.  Have any of the ISS International Partners expressed views on the 
matter?

A8b. All of the International Partners are considering the prospects of 
operating the ISS beyond 2016. Once the European and Japanese 
Laboratories are installed and operational aboard ISS, all partners 
will be in a better position to fully evaluate future returns on their 
national investments to solidify their position regarding how long to 
maintain their ISS operations.

Q8c.  When do you expect a decision to be made, and what will be the 
criteria for deciding?

A8c. A decision to extend U.S. participation in the ISS beyond 2016 
would depend on whether the benefits to the Nation of continued 
operations are justifiable, and a determination on where the ISS fits 
into the larger perspective of the Nation's space program after 2016.

Q9.  Has NASA prepared a Space Station Utilization Plan that includes a 
schedule, specific milestones, a list of prioritized experiments and 
resources (crew, logistics, funding) required to implement the plan? If 
not, why not? If so, please provide it for the record.

A9. NASA manages NASA Exploration and non-Exploration science on the 
International Space Station (ISS) through the ISS Exploration and Non-
Exploration Research Project Plan and the Human Research Program 
Utilization Plan for the International Space Station. Plans for the 
multi-agency utilization of the U.S. segment of ISS as a National 
Laboratory are being aggressively pursued to maximize U.S. investments 
and reflect U.S. priorities. NASA and the ISS International Partners 
are developing an updated Consolidated Operations and Utilization Plan 
(COUP) for the ISS. The COUP includes a schedule, specific milestones, 
a list of prioritized experiments and resources (crew, logistics, 
funding) required implementing the plan.
    All three documents--the COUP, the ISS Exploration and Non-
Exploration Research Project Plan, and the Human Research Program 
Utilization Plan for the International Space Station--will be available 
in December 2007, and NASA will provide a copy of these documents to 
the Subcommittee at that time. In June 2006, pursuant to section 506 of 
the NASA Authorization Act of 2005 (P.L. 109-155), NASA submitted a 
report to the Space and Aeronautics Subcommittee outlining a research 
plan for the NASA utilization of the ISS. At that juncture in time, the 
Shuttle manifest and all the upmass requirements were still being 
formulated after the return to flight activity following the Columbia 
accident.
Consolidated Operations and Utilization Plan
    Inputs from all International Partners are consolidated annually 
into a Consolidated Operations and Utilization Plan (COUP) that is 
specified in the ISS Memoranda of Understanding between NASA and each 
of its International Partners. The COUP includes all available on-orbit 
resources and all proposed uses for each International Partner's 
allocation of Space Station user accommodations and utilization 
resources. The COUP is developed multilaterally and approved by a 
multilateral coordination board which is comprised of one 
representative from each International Partner. Once released, the COUP 
is used to plan supporting launch transportation services, return 
transportation services, on-orbit resource allocations, and payload 
accommodation sites on the ISS. Once complete, a final utilization 
schedule is developed and executed. Other strategic plans that inform 
the COUP update are the ISS Exploration and Non-Exploration Research 
Project Plan, and the Human Research Program Utilization Plan for the 
International Space Station.
ISS Exploration and Non-Exploration Research Project Plan
    This project plan describes ISS experiments to be conducted on the 
CIR, FIR, MSRR, MSG and EXPRESS racks that directly support both NASA's 
Exploration and Non-Exploration research activities. This research 
focuses on reduced gravity investigations in applied technology and 
physical science fields such as combustion science, fluid physics and 
materials science. Descriptions of the experiment content and budgets 
for proposed experiments are included. The existing ISS utilization 
traffic models for the subject facilities forecast the currently 
planned usage from the present to the 2011 time frame. Some of the 
currently baselined experiments are described in this document to 
present a complete picture of the facility utilization, but the 
proposed new experiments described herein would be conducted after 
2010.
Human Research Program Utilization Plan for the International Space 
        Station
    This plan entails the assumption and approach used by the Human 
Research Program, to utilize the ISS to retire 17 of the 33 health 
risks to astronauts baselined by the program and most appropriately 
studied on ISS. This plan also takes into account factors such as 
available crew time, number of available subjects, upmass and downmass 
capabilities and potential follow-on research that would be required to 
retire a risk and validate appropriate countermeasures.

Q9a.  A 2006 National Academies report recommends that NASA schedule 
periodic reviews of the ISS utilization plan. Have any such reviews 
taken place? If so, when?

A9a. Consolidated Operations and Utilization Plan

    NASA recognizes the importance of having a consolidated plan for 
the operation and utilization of the International Space Station at 
assembly complete. To this end, the Agency, in cooperation with the ISS 
partners, has been developing an updated Consolidated Operations and 
Utilization Plan (COUP), which is projected to be available in December 
2007. This plan is updated annually by the ISS partnership. The U.S. 
portion of this plan will also be reviewed annually as part of the NASA 
annual budget formulation process.
ISS Exploration and Non-Exploration Research Project Plan and the Human 
        Research Program Utilization Plan for the International Space 
        Station
    The plans cited above are elements of the Exploration Technology 
Development Program and the Human Research Program of the Exploration 
Systems Mission Directorate (ESMD). Both programs are subject to 
internal and external reviews for research and development proposals 
prior to implementation and for implemented proposals, annual reviews 
are held until completion. The external component of these reviews may 
involve external advisory groups such as the National Research Council 
(NRC). Additional annual reviews are completed as part of NASA's budget 
formulation and review cycle and technical reviews are held in 
accordance with 7120.8. Currently, ESMD's Exploration Technology 
Development Program and its ISS Exploration and Non-Exploration 
Research project are being reviewed by an NRC panel, per Congressional 
directive and Agency policy. In June of 2008, the Human Research 
Program intends to hold a Program Implementation Review (PIR). This bi-
yearly review will cover the HRP management processes, and alignment of 
the HRP technical content, schedule and budget.

Q10.  NASA's ISS National Laboratory report notes that one of the 
criteria for evaluating how long NASA will operate the ISS is whether 
the ``benefits to the Nation are justifiable.'' How will NASA determine 
whether the benefits are justifiable?

A10. NASA will measure the overall benefits and costs in economic and 
strategic terms. Once ISS assembly is complete, that evaluation will be 
an ongoing effort conducted in an environment open to, and in 
collaboration with, all domestic and international stakeholders.

Q11.  Could you please describe the status of any discussions between 
NASA and the National Institutes of Health (NIH) on NIH's potential use 
of the ISS National Laboratory?

A11. As stated in the NASA/NIH Memorandum of Understanding (MOU) signed 
on September 12, 2007:

    The designation as a National Laboratory underscores the 
significance and importance that the U.S. places on the scientific 
potential of the ISS for research in areas including, but not limited 
to:

        <bullet>  Basic biological and behavioral mechanisms in the 
        absence of gravity.

        <bullet>  Human physiology and metabolism.

        <bullet>  Spatial orientation and cognition.

        <bullet>  Cell repair processes and tissue regeneration.

        <bullet>  Pathogen infectivity and host immunity.

        <bullet>  Medical countermeasures.

        <bullet>  Health care delivery and health monitoring 
        technologies.

Q11a.  What is the commitment of the NIH and does NIH have a budget to 
support future research to be conducted on the ISS?

A11a. To date, the NIH has not shared their specific implementation 
strategies with NASA.

Q12.  NASA's report on the ISS National Laboratory states that ``In the 
case of the ISS, affordable space transportation services remains the 
single greatest barrier to fielding a productive public sector program 
in research.'' At what point would the cost of space transportation be 
considered ``affordable'' enough to encourage expanded use of the ISS?

A12. The affordability of space transportation can only be determined 
in the context of the economic value of the benefits as perceived by 
specific users, i.e., it will be a case-by-case determination. NASA is 
working to ensure a better future economic balance in those areas by 
engaging a large percentage of public and private entities to reach 
potential users with innovative ideas, while, at the same time, 
actively working to lower the overall costs through the creation of 
new, low-cost commercial space launch capabilities.

Q12a.  How does NASA plan to handle negotiations on transportation with 
potential non-NASA users?

A12a. NASA is still exploring workable solutions to secure commercial 
services for non-NASA users for the delivery of cargo to the ISS. NASA 
is committed to finding approaches that will maximize the accessibility 
of the ISS to external users while ensuring maximum value to the 
government.

Q12b.  Will NASA provide any technical support on launch services and 
ISS utilization to potential users?

A12b. Yes, NASA is committed to ensure the successful execution of all 
joint ventures. NASA has already established an approach to assist the 
efforts of commercial partners by providing a network of Agency 
technical experts across all discipline areas. For COTS, NASA has 
established the COTS Advisory Team (CAT). Additionally, extensive NASA 
technical and facility resources can be made available to the 
commercial partners through reimbursable Space Act Agreements.

Questions submitted by Representative Tom Feeney

Q1.  The ISS Independent Safety Task Force recommends that the State 
Department should grant immediate relief from the ITAR restrictions no 
later than summer of this year to support European Automated Transfer 
Vehicle operations. Would you please explain the consequences to NASA 
and our European partners if such an exception is not granted? Has NASA 
sought an exemption from the State Department and if so what is the 
status? If not, why not?

A1. As the overall integrator for the International Space Station 
(ISS), NASA has the responsibility to ensure that the European Space 
Agency's (ESA's) Automated Transfer Vehicle (ATV) is technically and 
operationally compatible with the ISS and poses no safety risk. In 
order to complete this responsibility, NASA and its contractors are 
required to conduct technical interchanges to review the ATV design, 
development, and testing in order to verify that the ATV meets program 
requirements and will work as expected. However, the efforts of our 
contractors have been impeded by requirements pertaining to certain 
export licenses, known as Technical Assistance Agreements (TAAs). The 
International Traffic in Arms Regulations (ITAR) requires that TAAs be 
signed by ESA (and other International Partners) before NASA's 
contractors can provide necessary technical assistance and services. 
Due to specific concerns about restrictions in the TAAs, and more 
general objections to signing TAAs with U.S. contractors in the first 
place, ESA and other partners have been reluctant to sign the TAAs 
necessary for the completion of the tasks that are required to ensure 
the safe and successful completion and operation of the ISS. NASA, ESA, 
and the State Department have been working to resolve the TAA issue. In 
addition, due to certain ITAR authorities exclusive to U.S. Government 
agencies, NASA can perform tasks that would otherwise be done by its 
contractors, if the TAA problem persists. It is not an efficient work-
around, but it can be employed, as necessary.
    For several years, NASA has engaged with the State Department 
regarding the potential development of a tightly-circumscribed ITAR 
exemption to allow NASA to authorize certain exports and technical 
assistance by contractors implementing NASA's international Government-
to-Government agreements. From the NASA perspective, this proposal is 
based upon already-existing authority in the ITAR afforded to the 
Department of Defense (DOD) in effecting Foreign Military Sales, and 
includes comprehensive review and reporting requirements to ensure that 
NASA contractors' ITAR-controlled activities are consistent with NASA's 
international agreements, and that the State Department is apprised of 
those activities in a timely manner. The current NASA proposal is 
compatible with previous guidance provided by the State Department as 
part of prior efforts to work with NASA and DOD on the creation of 
additional, reasonable discretion under the ITAR in overseeing major 
NASA programs. The details and overall feasibility of this proposal 
remain under discussion between NASA and the State Department.
    Although no State Department exemption has been granted, ESA did 
sign a TAA with NASA's contractor, permitting technical exchanges to 
proceed. ESA did so reluctantly in view of the points noted above, but 
this allowed both sides to proceed in the near-term to ready ATV for 
its upcoming initial flight. While this resolved the immediate issue, 
it does not resolve the broader issues for future cooperation.

Q2.  The ISS Independent Safety Task Force recommends that the 
Administration, Congress and NASA should support the completion of the 
current Shuttle manifest including the two contingency flights (STS-131 
and STS-133). NASA has told us the flights are in the budget but they 
have not been cleared through OMB. What factors determine whether the 
two contingency logistics flights will be accomplished? Does NASA 
require anything from Congress to allow the flights to take place? What 
is NASA planning to do with these flights in the event of a major delay 
in completing the ISS assembly missions?

A2. The primary rationale for the two contingency flights is the need 
to preposition unpressurized components that are required to ensure the 
viability of a safe and operational ISS in the post-Shuttle 
environment. Other factors include International Partner commitments to 
launch modules and large unpressurized elements, and the Shuttle's 
unique capability to launch large unpressurized elements that are not 
able to be accommodated on any other current or planned vehicle.
    All the necessary Space Shuttle Program and ISS funding and 
resources are in place to execute the contingency flights. However, the 
contingency flights will only be flown if they can be done safely 
before the end of 2010.
    In the event of a major delay in the assembly of the ISS, NASA 
would discuss with its International Partners the implications to the 
ISS configuration and viability based on retirement of the Shuttle in 
2010. NASA would also work with its stakeholders to develop a strategy 
that will meet the interest and policy objectives of the U.S.

Q3.  How serious is the risk that a lack of critical spare parts could 
lead to losses of a critical station function for an extended period, 
which could ultimately force NASA to abandon the station?

A3. NASA has developed a plan that uses multiple cargo transportation 
vehicles to support the ISS. A key element of the plan is to 
preposition critical spares prior to Shuttle retirement to ensure 
continued ISS system functionality. This provides an on-orbit inventory 
of spares to reduce the risk resulting from launch delays for visiting 
vehicles, which ensures that ISS viability is not dependent on the 
success of any one vehicle.

Q3a.  What is NASA's contingency planning in the event the COTS is 
delayed?

A3a. NASA is closely monitoring development of the COTS vehicles and 
has strategies to react within the appropriate timeframes if 
development does not proceed according to schedule.
    The Shuttle flight manifest calls for 10 assembly flights to the 
ISS and one to service the Hubble Space Telescope. NASA also hopes to 
fly up to two additional ISS logistics flights if they are deemed 
necessary and can be safely flown before the end of 2010. In addition 
to prepositioning of spares on orbit with the Space Shuttle, NASA is 
closely monitoring development of the COTS vehicles and is developing 
strategies to react within the appropriate timeframes if development 
does not proceed according to schedule.

Q4.  Would you please give some specific examples of actions NASA has 
taken to help workers gain skills that can be transitioned to 
Exploration Systems?

A4. Expanded workforce skills can occur in a variety of ways under 
Space Shuttle contracts. In some cases, Constellation tasks are added 
to Shuttle contracts and Shuttle workers are able to broaden their 
skills applicability to Constellation work by performing actual 
contract tasks.
    NASA is providing the tools, training and time for workers to gain 
experience and skills on new processes we know we will implement for 
Orion/Ares. NASA is applying these new processes required for 
Constellation into Shuttle processing now, to provide skill and 
experience that the workforce will need to do the future job on 
Constellation. This will be real, hands-on experience and familiarity, 
which will qualify workers for future work. Examples include:

        <bullet>  The United Space Alliance (USA) Space Programs 
        Operation Contract (SPOC) workforce is being used by 
        Constellation to process the Ares I-X vehicle for the first 
        Constellation test flight scheduled for April 2009. The first 
        Constellation flight of Ares will be conducted by the Space 
        Shuttle workforce.

        <bullet>  On STS-118, a single Solid Rocket Booster (SRB) was 
        stacked at a time to gather engineering information on the 
        Mobile Launch Platform for Ares I-X. The existing Space Shuttle 
        workforce performed this work for the Constellation Program.

        <bullet>  On STS-118, Endeavour was powered up using a new 
        ``paperless'' process as a test of future procedures for the 
        Orion spacecraft. The Shuttle workers gained both a new tool 
        for the remaining Space Shuttle missions, and were able to 
        preview and critique a new procedure which is planned to be 
        used for Constellation.

    In cases where additional training is useful, the contract cost 
principles in the Federal Acquisition Regulation allow, with certain 
exceptions, charging contracts for the costs of training and education 
that are related to the field in which an employee is working or may 
reasonably be expected to work. Depending on the specific kind of 
training, the employee's job, and company accounting practices, 
training costs might be direct contract costs or overhead expenses. It 
is up to the company to determine the training needs for their 
workforce to ensure successful contract performance. As with any other 
contract expense, training costs need to be managed as part of total 
contract cost to avoid contract cost overruns.
    Specific examples of retraining and crossover job assignments to 
gain experience for Constellation include:

        <bullet>  NASA Civil Servants: For Fuel Cell engineers at KSC, 
        after analyzing the skill sets and positions descriptions, KSC 
        identified several likely positions for these individuals to 
        transition to within Constellation in support of Cryogenic 
        Systems or Environment and Crew Life Support Systems (ECLSS). 
        Currently, the KSC training and development office is in the 
        process of creating training plans that will identify the 
        precise pathway for these individuals to transition to one of 
        these other positions.

        <bullet>  Pratt & Whitney-Rocketdyne (PWR) Personnel: Space 
        Shuttle Main Engine employees across all sites spend 
        approximately 20 percent of their time on other programs. Some 
        examples of areas where this is occurring are combustion 
        devices engineering, manufacturing engineering, electrical 
        engineering, software engineering and business operations.

        <bullet>  United Space Alliance (USA) Personnel: USA is 
        beginning to retrain employees and share staff between the 
        Space Shuttle and Constellation Programs. Examples include:

                <bullet>  Technicians and engineers supporting Shuttle 
                Flight Software are providing matrix support to 
                Constellation.

                <bullet>  Technicians and engineers supporting Shuttle 
                Ground Operations are providing matrix support to 
                Constellation for shipping and receiving logistics, 
                hardware storage, tooling, and maintenance of ground 
                support equipment.

                <bullet>  Technicians and engineers that install 
                Orbital Maneuvering System (OMS) and Main Engine 
                tubing, tanks, valves, thrusters and engines on the 
                Orbiter can be trained to install the same types of 
                components in the Orion Crew Module and Service Module 
                Propulsion Systems.

                <bullet>  Technicians that currently bend and weld 
                tubing, manufacture and apply thermal protection, 
                solder electrical components, and fabricate cables for 
                the Orbiter and Solid Rocket Booster can be trained to 
                perform these functions in the assembly of the Orion 
                Crew Module and Service Module.

                <bullet>  Technicians and engineers that install 
                electrical harnesses, avionics boxes, cable trays, 
                batteries and instrumentation in the Orbiter and Solid 
                Rocket Booster can be trained to install these 
                components on the Orion Crew Module and Service Module.

                <bullet>  Technicians and engineers that refurbish and 
                install the Orbiter Landing Drag Parachute and the 
                Solid Rocket Booster Recovery Parachutes can be trained 
                to install the Crew Module Recovery System.

                <bullet>  Technicians and engineers that install 
                pyrotechnics on the Orbiter and Solid Rocket Booster 
                can be trained to install these components on the Orion 
                Crew Module and Service Module.

                <bullet>  Technicians and engineers that fabricate and 
                install closeout panels on the Orbiter and Solid Rocket 
                Booster can be trained to install the Backshell, 
                Heatshield and access panels on the Crew Module and 
                Service Module.

                <bullet>  Technicians and engineers that conduct 
                component and system testing for the Orbiter, Solid 
                Rocket Booster and assembled Shuttle Vehicle can be 
                trained to perform component, subsystem, major assembly 
                and integrated vehicle testing on the Orion Crew Module 
                and Service Module.

                <bullet>  Technicians and engineers that install 
                Environmental Control and Life Support System 
                components on the Orbiter can be trained to install 
                similar hardware on the Orion Crew Module.

        <bullet>  In addition, USA Flight Operations received NASA 
        approval of a number of initiatives to apply their skilled work 
        force to performing trade studies and evaluations on various 
        aspects of the Constellation Program, using lessons learned and 
        expertise attained over the past 25 plus years. These teams 
        have performed, or are currently performing, tasks associated 
        with the following disciplines outlined below.

                <bullet>  Flight Design and Dynamics--Conducting trade 
                studies for Navigation Analysis and Design to assess 
                Constellation integrated performance management plans, 
                navigation tracking accuracy, navigation standards, 
                space vehicle environments, identifying existing models 
                applicable for future trajectory simulations.

                <bullet>  Spaceflight Operations--Assessing existing 
                NASA flight planning tools and techniques and 
                identifying recommended enhancements or modifications 
                to adapt existing resources for use on Constellation.

                <bullet>  Flight Management--Performing assessments of 
                NASA's existing production process reference networks 
                for reuse on the Constellation program for accurately 
                estimating component task durations and required 
                resource profiles.

Q5.  What agencies or other groups have expressed interest in using the 
ISS as a National Laboratory? What will NASA do with the unused 
capacity and capabilities of the ISS if other agencies decide not to 
make significant use of it?

A5. Seven federal agencies, listed below, have actively engaged in 
discussions regarding research opportunities on the ISS in its 
potential new role as a National Laboratory. Discussions on ISS 
National Laboratory opportunities have been held with representatives 
of the National Institutes of Health (NIH), National Science Foundation 
(NSF), Food and Drug Administration (FDA), National Institute of 
Standards and Technology (NIST), the U.S. Department of Agriculture 
(USDA), U.S. Department of Energy (DOE) and the Department of Defense 
(DOD). As a sign of progress resulting from these efforts, on September 
12, 2007, NASA and NIH signed a Memorandum of Understanding (MOU) that 
provides a framework for NIH to encourage use of the ISS as a National 
Laboratory for research in related space and terrestrial physiology 
such as bone, muscle and immunology.
    NASA is also engaging the private sector to solicit additional 
ideas and further opportunities for ISS utilization. This is taking 
place in the context of the August 14, 2007, NASA announcement of 
Opportunity for the Use of the ISS by Non-Government Entities for 
Research and Development and Industrial Processing Purposes. Responses 
to this announcement were due September 28, 2007. In the past, private 
firms have demonstrated interest and participated in space research 
across topics as diverse as molecular biology, tissue culturing, bone 
demineralization, antibiotics production, plant genetics, combustion 
synthesis, and ultra-high vacuum and microgravity processing of 
materials. NASA also continues to encounter the potential for 
agreements with private sector firms that involve use of ISS 
accommodations and resources as testbeds for engineering research. 
Identification of new ventures resulting from these efforts will 
maximize ISS utilization once assembly is complete.

Q6.  NASA has requested that Congress expand the Enhanced Use Leasing 
authority to include all NASA centers. Why is it important to expand 
NASA's existing Enhanced Use Leasing authority, and specifically how 
will it benefit Shuttle transition? Can you give us some specific 
examples of how expanded EUL authority might ease the workforce 
transition at each of the Human Space Flight Centers, including Stennis 
Space Center and Michoud Assembly Facility?

A6. Expanded Enhanced Use Leasing (EUL) authority is needed now for all 
NASA Centers and is critically important as NASA moves forward to 
retire the Space Shuttle and transition to the new human space flight 
systems. NASA's proposed expanded and modified EUL authority was 
included in S. 1745, the FY 2008 Commerce, Justice, Science, and 
Related Agencies appropriations bill, as reported, and the Agency is 
seeking Congressional support for inclusion of this provision in the 
Conference agreement on the FY 2008 appropriations bill.
    With the retirement of the Space Shuttle, NASA will have even more 
under-utilized facilities as part of the Agency's institutional 
management responsibilities. Space Shuttle facilities alone have been 
valued at approximately $5.7 billion. The proposed expanded and 
modified EUL authority will allow NASA to recover asset values, reduce 
operating costs, improve facility conditions, and improve mission 
effectiveness. Other federal agencies, such as the Department of 
Defense, have even broader authority than the legislative authority 
proposed by NASA.
    NASA has conducted a successful five-year demonstration of EUL at 
the Ames Research Center (ARC) and Kennedy Space Center (KSC) pursuant 
to authority included in the FY 2003 Consolidated Appropriations Act 
(P.L. 108-7). Using this authority, ARC and KSC have leased under-
utilized property, consistent with the Agency mission, to companies and 
universities, retaining proceeds to cover the full costs to NASA in 
connection with the leases and using the balance of funds for 
maintenance, capital revitalization, and improvements to real property 
assets.
    The expanded and modified EUL authority will enable Centers with 
facilities and infrastructure associated with the Space Shuttle program 
and mission to potentially out-lease those facilities to others. 
Through a tenant base, the added Centers will be better able to control 
their operations and maintenance burden for under-utilized facilities 
that have no current program or use. Expansion of NASA's EUL authority 
has the potential to further NASA mission in science as the leased 
facilities can provide a platform for development of private sector 
research and development activities which can further NASA's mission in 
space related research. Having tenants on-site can alleviate some of 
the impact of completion of the Space Shuttle program on the 
communities and the personnel associated with that program.
    Expanded EUL authority could benefit all NASA Centers, however the 
facilities outlined below could benefit substantially from the ability 
to enter into EUL agreements.
    Kennedy Space Center (KSC): KSC is planning for a substantial 
facility and workforce realignment in the transition era from Space 
Shuttle to Constellation, and is investigating a number of new 
potential EUL partnerships. KSC can use EUL to grow the private 
sector's role in the Nation's civil space activities and expand KSC's 
institutional user base to more fully utilize existing spaceport 
assets. Future Potential Enhanced Use Lease Options under Consideration 
by KSC include an ``Exploration Park'' the 320-acre site outside the 
spaceport's controlled access area; Public and Commercial Space Access 
at the Shuttle Landing Facility (SLF); a Public Outreach Venue for 
tourism growth and demand for hotel/conference facilities in region; 
and an Academic and Commercial Test Facility by providing the site for 
a test facility to support clean energy development (currently there is 
no such U.S.-based facility).
    Marshall Space Flight Center--Michoud Assembly Facility (MAF): MAF 
will manufacture the Boeing Ares I Upper Stage, Ares V Boost Stage, and 
Ares Earth Departure Stage, so there could be a significant incentive 
for private entities to locate on the site when EUL authority is 
available. Commercial use of the space, by tier 2, 3, or 4 Space 
program suppliers is expected. The proximity of suppliers can increase 
the suppliers' understanding of NASA program requirements and ease 
product delivery, expanding the skill base and workforce pool needed to 
execute NASA's next generation of vehicles. EUL authority would allow 
MAF to reduce its facilities overhead burden and to develop revenue 
streams for sustaining its facilities and infrastructure. MAF currently 
hosts the U.S. Coast Guard and the U.S. Department of Agriculture as 
tenants on the site. MAF was one of the few sites in that part of 
Louisiana that was not inundated by the Hurricane Katrina storm surge 
and flooding. EUL authority would allow MAF to expand the existing 
tenant base on the green space within the 836 acres to accelerate 
hurricane recovery in Louisiana. NASA MAF has already met with other 
Federal entities, such as the Department of Energy Oak Ridge National 
Laboratory to discuss their business model for developing their science 
and technology park. MAF has specific unusual capabilities which can be 
utilized or expanded by EUL partners. These capabilities include 
extensive infrastructure for design, manufacturing, and testing of 
extremely large aerospace structures; their transportation and handling 
including a deepwater port; and the specialized environmental permits, 
wastewater treatment capability, and compliance management for large 
launch vehicle manufacturing. MAF already hosts the National Center for 
Advanced Manufacturing (NCAM), a federal, State, and university 
sponsored partnership. The NCAM currently includes the friction stir 
weld (FSW) universal weld system, environmentally enclosed state-of-
the-art advanced fiber placement machines, and advanced Non-Destructive 
Evaluation and high speed machining systems.
    Stennis Space Center (SSC): The Army, under the BRAC 2005, will 
soon transfer the Mississippi Army Ammunition Plant to SSC, offering 
significant EUL potential with the transfer of 1.5 million square feet 
of plant space and 4,500 acres of land. Some of the under-utilized 
property can be available for out-leasing. These potential leases could 
help bring jobs and growth to an area devastated by Hurricane Katrina.
    Glenn Research Center (GRC): GRC has under-utilized land outside 
the campus gates that has a high potential for out-leasing due to its 
proximity to the airport, interstate highways, and to GRC. 
Additionally, Plum Brook Station has an under-utilized water intake 
capacity (Rye Beach) from Lake Erie in which the surrounding 
communities and farms have expressed interest. Other parts of Plum 
Brook Station may also be available for out-leasing.
    Goddard Space Flight Center (GSFC): GSFC has identified several EUL 
candidates, including a Science Exploration and Education Center, to 
provide public knowledge and engagement related to Earth and Space 
Science and buildings and land where collocation of scientific research 
or technology partners could strengthen NASA's ability to attract and 
retain talent and foster collaboration with industry and academia. The 
Wallops Flight Facility has several aircraft facilities where EUL 
authority could maximize the economic benefit and flexibility to pursue 
additional commercial opportunities to sustain facility infrastructure 
and promote economic development on the Eastern Shore.
    Langley Research Center (LaRC): As part of its Master Plan for New 
Town, LaRC has identified up to 400 acres in the northern portion of 
the Center for leasing or collaborative use opportunities with outside 
entities, which could be a candidate for use of EUL authority.

Q7.  The current Shuttle flight rate between now and 2010 is 
optimistic. What is NASA's contingency plan if the actual Shuttle 
flight rate turns out to be insufficient to complete all the planned 
ISS assembly and logistics flights by the end of 2010? How would a 
major delay impact on ISS utilization and operations?

A7. There is sufficient schedule margin in 2010 such that, if a flight 
had to slip out of 2008 or 2009, it could still be flown before the end 
of 2010. If there is an unforeseen event that leads to insufficient 
schedule margin remaining in which to conduct any planned missions, 
NASA will discuss the impacts with the International Partners and 
develop a revised transportation plan.
    NASA has no plans to fly the Shuttle after 2010, and indeed the 
Shuttle cannot fly after 2010 without causing major disruptions to the 
Exploration Program. These plans support ISS utilization and 
operations.
                   Answers to Post-Hearing Questions
Responses by Tommy W. Holloway, Chairman, ISS Independent Safety Task 
        Force

Questions submitted by Chairman Mark Udall

Q1.  Your testimony refers to the need for ``sufficient support from 
the Administration and Congress. . .to ensure that the resources are 
provided and the safety-critical aspects of the ISS assembly and 
operations are enabled and maintained.''

Q1a.  Did the task force comment on whether the current level of 
resources is sufficient or not?

A1a. With the exception of funding for logistics transportation after 
Shuttle retirement, the Task Force believes the current level of 
funding for the ISS is adequate.

Q1b.  What level of resources would be considered sufficient?

A1b. The ISS budget should be augmented to support the logistics 
transportation requirements. Care should be taken in future core budget 
(budget for other than logistics transportation) reductions to avoid 
deletion of critical engineering skills to maintain the current level 
of attention to safety-critical aspects of ISS operations.

Q1c.  What, if any, are the safety and other implications to the ISS if 
additional resources are not found for the program?

A1c. The major safety implications are the loss of the skills to detect 
and correct emerging safety issues before they become a problem. It is 
critical that critical skills be maintained in all disciplines and 
experienced and highly skilled managers be maintained to avoid safety 
implications becoming a reality.

Q2.  If NASA had to return the ISS crew to Earth for whatever reason, 
could the ISS survive in an un-crewed mode, and if so, for how long?

A2. In the opinion of the Task Force Chairman, the ISS survival in a 
un-crewed mode depends on the reason the ISS was un-crewed and the type 
and number of future failures. The Mission Control Center (MCC) can 
operate the ISS without a crew but, of course, the MCC cannot perform 
maintenance and repair tasks to repair or replace failed components. 
For some failures the ISS could not survive in the un-crewed mode and 
for many others the ISS could survive for months and perhaps years 
depending on future failures.

Q3.  You testified that ``I think it would be unlikely that the COTS 
will be able to provide a substantial part of the logistics program in 
the most critical period following the retirement of the Shuttle 
program.'' What actions do you believe NASA should take to ensure a 
robust logistics supply capability for the ISS in the post-Shuttle 
period? What should NASA be doing to ensure a crew transfer and crew 
rescue capability for U.S. astronauts after 2010?

A3. Currently there are only three systems operating or being developed 
that could provide post-Shuttle logistics support. They are:

        a.  The Shuttle

        b.  COTS

        c.  ISS partner logistics vehicles (Russian Progress, ESA ATV 
        and Japanese HTV

    The Task Force made the following recommendation relative to the 
post-Shuttle logistics transportation (Final Report of the 
International Space Station Independent Safety Task Force, page 59):

    5.2.1 The ISS Program should develop a fully integrated logistics 
support plan with off and on ramps of available and planned capability 
for the logistics support for the Assembly Complete/six crew member/
post-Shuttle era. The plan should include projected budget requirements 
for logistics support.

        a.  The Program should not be required to commit the ISS to an 
        unproven logistics support system such as COTS. If a proven 
        logistics support system is not available, the Program should 
        commit to the future capability that is determined to have the 
        highest chance of success until emerging capabilities are 
        proven. The Administration and the Congress should support this 
        position.

        b.  To ensure that it is not forced into dependency on an 
        unproven capability, the Program should procure additional 
        spare proven capability to assure a smooth transition to 
        unproven capabilities later and to minimize transition through 
        down periods on logistics delivery systems.

    5.2.2 The ISS Program should develop an option that ensures that 
the two remaining exterior logistics flights are given the highest 
priority for flight, in front of Node 3 if necessary, to avoid 
exacerbating a problem should all planned Shuttle flights not be 
completed (ref. Shuttle Manifest Considerations).
    5.2.3 NASA should develop roles, responsibilities, and critical 
review mechanisms for COTS and other future non-NASA systems that will 
fully support ISS requirements. The ISS Program should be responsible 
for managing and conducting the NASA review and approval of hazard 
analyses and participating in the required design reviews to ensure 
safety requirements are being meet.
    5.2.4 In early 2009, NASA should seek legislation for an extension 
of the 2005 amendment to the Iran Non-Proliferation Amendments Act.

    This means procure enough proven capability to support logistics 
until the systems under development is proven. Since production and 
therefore procurement of flight systems will take two to three years, 
careful phasing of procurement of new systems with backup capability 
from proven systems should be employed. Practically, this means buy 
enough Russian Progresses to ensure adequate ISS logistics 
transportation until the next system is operational. Then sequence the 
emerging systems based on the capability required and procurement 
considerations.

Questions submitted by Representative Tom Feeney

Q1.  The ISS Independent Safety Task Force was very concerned about the 
adequacy of the ISS's post-Shuttle logistics support. According to 
NASA, there is a $300 million shortfall in the ISS-Crew-Cargo Services 
budget based on current estimates, with an additional $600 million 
shortfall held as a lien against the Exploration Systems Mission 
Directorate budget. What critical decision milestones should Congress 
and NASA focus on as COTS is being developed? Can you recommend any 
early indicators that Congress and NASA might use to predict whether 
COTS is progressing as advertised?

A1. The Task Force Chairman cannot recommend any reliable early 
indicators to predict whether COTS is progressing as advertised. It is 
not possible to make an early determination that a new major 
development program with daunting crew safety requirements is going to 
meet technical requirements and be on schedule. As reported in the 
``Final Report of the International Space Station Independent Safety 
Task Force,'' (page 58) the following summarizes the NASA safety 
requirements for approaching and being attached to the ISS:

    The IISTF considers the design and development of a new support 
vehicle and logistical system to dock with the ISS to be a formable 
technical challenge. The significant safety requirements to be able to 
safely rendezvous and berth or dock to the ISS include:

        <bullet>  the system must be two failure tolerant (i.e., can 
        sustain two failures without causing a catastrophic ISS 
        hazard).

        <bullet>  the system must have on-board fault detection, 
        isolation, and reconfiguration capability for low-level 
        redundancy management.

        <bullet>  the system must have vehicle self-monitoring of 
        critical capabilities and functions and auto-corrective 
        actions, including hold, retreat, or escape maneuvers.

        <bullet>  the vehicle must have an independent collision 
        avoidance maneuver function.

        <bullet>  the system must support ISS crew and ground 
        monitoring and abort capability.

        <bullet>  the flight system must have robustness against failed 
        capture capabilities (if the vehicle is captured by the RMS) or 
        failed docking (if the vehicle is actively docked to the ISS) 
        while ensuring a safe recovery or separation from the ISS.

    Considering the above, it is critical that the ISS Program performs 
a series of safety reviews and approves Hazard Reports to ensure that 
all of the safety requirements are adequately implemented. The ISS 
Program must also participate in major design reviews to ensure that 
the design is implementing the necessary safety requirements.

    It is the Task Force Chairman's opinion that early in a development 
program it is very difficult to determine if a program such as COTS 
will successfully meet its technical requirements and stay on schedule. 
Monitoring by personnel who are experienced in development programs and 
are accountable for safety requirements can determine that a program is 
failing to meet technical requirements or is behind on its schedule; 
but, conversely, it is not possible to judge that the program will meet 
future technical and schedule expectations. As the program progresses 
through Preliminary Design Review, Critical Design Review (CDR), and a 
flight certification review the ability to determine technical 
readiness and schedule integrity increases. The final test is a flight 
test program to demonstrate the requirements are met and the system 
performs as advertised.
    It is the opinion of the Chairman of the Task Force that 
procurement commitments for an emerging ISS logistics transportation 
system should not be made until the system is proven by flight test or, 
if an emerging capability is mandatory earlier than that schedule would 
provide, no earlier than CDR.
    It is also the opinion of the task force Chairman that the most 
difficult development challenge will be the development of the 
spacecraft that rendezvous and docks with the ISS rather than the 
launch rocket.
    The difficulties and schedule delays that ESA has had in developing 
the Automated Transfer Vehicle (ATV) should be a measure of the 
technical challenge. There are no reasons to expect others will be more 
successful in the foreseeable future.
                   Answers to Post-Hearing Questions
Responses by G. Paul Neitzel, Professor of Fluid Mechanics, Georgia 
        Institute of Technology

Questions submitted by Chairman Mark Udall

Q1.  You testified that NASA's plans for ISS utilization are 
``shortsighted and inconsistent with the types of systems that will 
best allow us to return to the Moon between 2015, and 2020, and prepare 
for more ambitious systems.'' Could you please discuss specific 
examples of the systems that are needed and for which R&D is not 
currently included in NASA's ISS utilization plans?

A1. Although the President's Vision for Space Exploration does not 
specifically call for a manned mission to Mars, it seems 
``shortsighted'' to be developing new systems to take us to the Moon 
that will not employ the best possible solutions to long-standing 
needs, such as management of liquids (propellants, cooling agents, 
waste, etc., ), heat rejection, fire detection/suppression, and 
operation of life-support systems. I have characterized in my original 
written testimony the challenges of designing fluid systems capable of 
operating on the lunar or Martian surface as ``routine,'' but we must 
recognize that long-duration stays aboard either surface will require 
the development of new technologies for the efficient utilization of 
available resources that cannot be fully validated prior to their 
implementation. Many of the systems that are likely to be necessary 
will involve the handling of multi-phase flows (e.g., of bubbly liquids 
or dusty gases) that can operate differently in a partial-gravity 
environment. A substantial investment in research on the behavior of 
fluid systems in zero-to-partial gravity is required so that the 
engineering of any eventually needed technologies is well-grounded 
scientifically to ensure highest performance and reliability.
    The principal limitation for any launch vehicle is up-mass. A 500- 
to 1000-day manned mission to Mars with limited re-supply requires the 
development of mass-efficient systems to satisfy these needs to permit 
maximum transport of food, water and materials and supplies to be used 
on the planetary surface. Missions to the Moon that aim to establish 
laboratories and habitats will likewise require the transport of 
materials and supplies to enable effective lunar research, exploration, 
in situ resource utilization, and habitat construction. These new, 
mass-efficient systems will need to be dual-use, i.e., capable of 
functioning both in a reduced-gravity (1/6 lunar and 3/8 Martian) 
environment as well as in the microgravity environment experienced 
during the journey itself. Existing systems developed for the Shuttle 
era are more than a quarter-century old and do not incorporate results 
of the incredible amount of research and development done over the last 
25 years.
    NASA's ISS utilization plan indeed includes projects that will 
evaluate systems chosen as candidates for addressing some of the issues 
raised above. However, NASA has decided to focus on projects considered 
to be at mid-to-high Technology Readiness Levels (TRL), i.e., ready for 
implementation. In some instances, a single system is being 
investigated as a potential solution to a given problem. This 
eliminates considerations of trade-offs between candidate systems and 
between systems designed to accomplish other tasks, reducing the 
likelihood of arriving at an optimal configuration. Given that the 
earliest possible launch date is nearly eight years away, does it make 
sense to be selecting new solutions to long-standing issues at such an 
early date, particularly in light of the rapid technological progress 
being made in such areas as micro- and nano-scale systems?

Q2.  In your testimony, you evaluate NASA's planned ISS research and 
state that ``The small number of projects being investigated, although 
relevant to exploration, is inconsistent with the conduct of a robust, 
safe exploration program that will send astronauts to the Moon no later 
than 2015.'' Could you please elaborate on why you think the number of 
research investigations is inconsistent with the conduct of a robust 
and safe exploration program?

A2. As mentioned in response to the first question above, NASA has 
seemingly restricted its attention to focus on a very small number of 
systems at mid-to-high TRLs for more efficiently solving some of the 
long-standing problems associated with space travel. The rapid pace of 
scientific and technological development within the last decade or so, 
particularly in the areas of computational capability and micro- and 
nano-scale systems suggests that there are several avenues that could 
be explored to ensure that the best and most reliable solutions (and in 
some cases the only solutions) to these problems are found. The ISS is 
the only test bed available for the conduct of long-duration 
experimentation under true microgravity conditions. Additionally, for 
research at small length scales, terrestrial experiments, numerical 
simulation and theory can go a long way in narrowing down candidates to 
the subset likely to hold the most promise for exploration applications 
and, therefore, worthy of further testing/validation aboard the ISS.

Q2a.  What should be done to correct the situation?

A2a. The tremendous expertise available within the external (to NASA) 
research community should be drawn upon to seek the best, most reliable 
solutions to the aforementioned problems. NASA should immediately 
reinstitute a vigorous external research program in both fundamental 
and applied science so that the required systems can be envisioned and 
tested in a timely manner for ultimate implementation aboard the next 
generation of space flight vehicles.

Q3.  Could you please describe, in specific terms, the type of 
logistics support that might be needed for meaningful research on the 
ISS?

A3. The ISS U.S. laboratory was intended to simplify access by 
experimenters to space. Some hardware, designated as ``facility 
class,'' was designed to accommodate roughly 80 person of the 
experiments envisioned to be conducted within their respective 
disciplines. One example of this is the Fluids and Combustion Facility 
consisting of the Fluids Integrated Rack and the Combustion Integrated 
Rack. These facilities provide power, standard instrumentation, video 
capability, etc., necessary to support many of the common experimental 
tasks, while also providing the outer levels of containment required 
for safety. Thus, the experiment-specific hardware to be developed for 
each investigation is simplified, streamlining the path to flight. It 
is important to the conduct of ``meaningful research'' that these 
facilities be transported to and properly integrated with the ISS.
    A critical component limiting meaningful research is crew time. At 
its present size, a permanent crew of three is able to do little more 
than keep the ISS flying and tend to ``housekeeping'' tasks. Those ISS 
research investigations that have been conducted to-date have been 
chosen because of their minimal resource (in terms of both hardware and 
crew) requirements. Research necessary for the development of new, 
innovative systems to permit lunar and Martian exploration will require 
experiments that are more complex than those currently possible. 
According to Mr. Gerstenmaier's written testimony, NASA plans to 
increase crew size to six members in 2009. This will permit more crew-
intensive research to be conducted, such as those investigations 
requiring the use of facility-class hardware mentioned in the previous 
paragraph. In addition to crew time, ISS Experiments require 
significant ground support, including training astronauts to conduct 
experiments and provisions for in-flight communication between 
investigators and astronauts. These costs must be properly funded, in 
addition to the more direct research costs.

Q4.  Mr. Gerstenmaier's testimony notes that ``The ISS is critically 
important to the success of future long-duration missions. . .because 
it is the only facility that combines the ambient environment and 
research capabilities needed to understand the extent of these risks 
[associated with long duration human exploration] with the ability to 
develop and test appropriate countermeasures.'' Could you please 
comment on NASA's plans to address these risks?

A4. It is my understanding that NASA has a plan to use the ISS until 
roughly 2019 as a platform for research on risks to health associated 
with long-duration human exploration and the development of appropriate 
countermeasures. This seems to be a prudent course of action.

Q5.  The ISS safety task force found that systems design, testing, and 
procedures and mitigation approaches to respond to potential 
uncontrolled fire or toxic spills, for example, were adequate. Based on 
your expertise, are risks associated with uncontrolled fire or the 
behavior of toxic spills in microgravity well understood? If not, what 
further aspects of potential uncontrolled fire or toxic spills need to 
be understood to ensure robust mitigation approaches and response 
procedures?

A5. It is not clear that we are adequately prepared to handle major 
incidents such as an uncontrolled fire or toxic spill in a microgravity 
environment. NASA's principal approach to fire safety has been to focus 
on prevention. However, as ISS systems age and the amount of material 
on-orbit grows, the likelihood of a fire incident increases; the same 
holds true for toxic spills. We know that fires burn and spread 
differently in microgravity and the transport and effectiveness of 
suppressants is also affected by the absence of body force. Liquid and 
solid toxic spills likewise behave differently in microgravity than in 
a gravitational environment and differently from one another.
    Surprisingly, despite the known toxicity of certain flammable 
materials that must be used on spacecraft and despite the risk of fire, 
the cleanup of spacecraft following a fire is currently not a NASA 
priority, according to the 2000 National Research Council report, 
Microgravity Research in Support of Technologies for the Human 
Exploration and Development of Space and Planetary Bodies. Hazard-
mitigation and cleanup strategies need to account for the differences 
in dispersal and deposition characteristics for particles and liquid 
droplets in microgravity. During the Shuttle era, the plan, in the 
event of such an accident, was to refurbish the spacecraft following 
its return to Earth, something not possible with the ISS or a lunar 
habitat and not practical for a spacecraft traveling to Mars.
    To ensure the safest possible spacecraft environment, NASA must be 
prepared to deal with accidents such as uncontrolled fire and toxic 
spills. A well-coordinated program of ground-based research and 
microgravity experiments should be in place to address these issues, 
but none exists, at least within the external research community.

Questions submitted by Representative Tom Feeney

Q1.  What specifically should NASA do within their current budget to 
ensure the most productive utilization of the ISS after the Shuttle is 
retired?

A1. Presently, there is no guarantee that the ISS will be utilized 
productively following he retirement of the Shuttle in 2010. The ISS 
National Laboratory Plan intends to rely upon other federal agencies 
and commercial ventures to make use of this facility, bearing the 
significant transportation costs from their own budgets. Transportation 
to and from the ISS is to be provided by COTS being developed 
presently. Thus, there are many things that have to come together in 
order for the present ISS National Laboratory Plan to be viable.
    It is, in my opinion, unlikely that sufficient interest on the part 
of other federal agencies and commercial ventures will arise to fully 
utilize the research facilities of the ISS at assembly complete. On the 
other hand, this platform provides a research capability that is 
central to the solution of problems associated with activities to be 
pursued under the President's Vision for Space Exploration. In 
addition, the ISS is the only facility capable of supporting non-
exploration research requiring access to long-duration microgravity. 
NASA needs to pursue aggressively lines of investigation of both 
fundamental and applied natures and both exploration and non-
exploration relevance that are suitable for study aboard the ISS and 
that would benefit from its unique microgravity environment. The former 
NASA external research community was effectively abolished and there 
are few flight experiments ``waiting in the wings.'' For a relatively 
modest investment by NASA from its current budget--say $70-$100M per 
year--a reasonably healthy research program (of roughly half the size 
it was immediately prior to its cancellation) could be restarted and 
maintained, ensuring the productive utilization of this significant 
facility in the post-Shuttle era.

Q2.  In your testimony, you outline the risks associated with the 
reduced levels of research funding, and note that NASA sometimes 
regards research as a spigot that can be turned off and on at will. 
Given the reductions and the loss of researchers in the pipeline that 
has already taken place, what can NASA do now to ensure an appropriate 
level of exploration-related research is available when needed in the 
2015 timeframe?

A2. NASA needs to reinvest immediately in its external research program 
with a commitment to funding such research out to the expected lifetime 
of the ISS. The importance of advanced training at the graduate level 
for supplying future researchers in the microgravity life and physical 
sciences central to NASA's mission and the motivation provided by 
space-based research for American youth to pursue careers in the STEM 
disciplines cannot be overstated. With a long-term commitment of 
research support from NASA, some of those principal investigators from 
NASA's former external research community would likely be willing to 
return to the program to enable their research to be completed and new 
investigators would be stimulated to think about microgravity-related 
problems. The first stage of exploration-related research should be 
oriented to improving our depth of understanding of fluid and 
combustion phenomena and material handling in microgravity, fundamental 
research that could be underway now in ground-based facilities if NASA 
were funding it.
                   Answers to Post-Hearing Questions
Responses by Cristina T. Chaplain, Director, Acquisition and Sourcing 
        Management, Government Accountability Office

Question submitted by Chairman Mark Udall

Q1.  Your testimony refers to risks related to the newness of both 
NASA's relationships with the Commercial Orbital Transportation System 
(COTS) suppliers and the COTS vehicles being developed. What 
contingencies do you think NASA should consider given these risks?

A1. Current contingency plans available to NASA in the event that the 
COTS program does not meet cost, schedule and performance thresholds 
are limited and problematic at best. NASA has focused primarily on one 
major contingency to COTS and that is the use of international partner 
vehicles--those existing and those currently in development--if COTS 
vehicles are not ready at the time of Shuttle retirement. NASA has 
stated its preference for the use of COTS, but acknowledges that 
reliance on partners may be necessary. However, NASA must acknowledge 
several constraints associated with reliance on international partners. 
First, all of the international partner vehicles--Russian, European and 
Japanese--have payload limitations and only one can carry crew. Second, 
the new European and Japanese vehicles are still under development. The 
European vehicle is slated to make its first test launch in early 2008 
and the Japanese vehicle is scheduled for its first operational flight 
in 2009. These tests must go smoothly in order for NASA to be able to 
transition to use of these vehicles at the time when the Shuttle is 
retired. Third, NASA may face restriction in its use of Russian 
vehicles because of the expiration at the end of 2011 of an exception 
under the Iran, North Korea, and Syria Non-Proliferation Act. Finally, 
NASA may need to resolve potential export controls challenges in 
working with the international partners to ensure inter-operability 
with the International Space Station before those vehicles can begin 
logistics operations.
    A NASA official stated publicly that the agency could also consider 
additional Shuttle flights past the currently set 2010 retirement date. 
While this may be an additional contingency plan to COTS, there are 
challenges associated with extending the Shuttle flights. First, if 
NASA has already begun to shutdown both the suppliers and workforce 
necessary for Shuttle operations by the time it makes the decision to 
extend the Shuttle retirement date, the agency will have to overcome 
shortfalls in both workforce and equipment as a result of those 
closures. Our previous work has noted that production restarts when 
some suppliers are let go but found to be needed later, can lead to 
funding gaps. Supplier viability presents another challenge. Over the 
years, the Shuttle Program has experienced many instances of suppliers 
dropping off unpredictably, making supply chain management more 
difficult and costly.
    NASA also faces the prospect of continuing to experience delays 
because of weather and launch debris as it has with previous missions. 
As recently as the Endeavor, NASA stated it has had design problems 
that plague the program and require unanticipated additional resources, 
which can potentially impact the current flight schedule.
    Finally, according to NASA, adding Shuttle flights will increase 
the costs of Shuttle operations. NASA officials said that they plan to 
rely on funding from the Constellation program in order to fund 
additional Shuttle flights after 2010. By pushing the retirement of the 
Shuttle back, NASA would again have to reassess its cost estimates and 
funding options for COTS and the Constellation program. Our previous 
work has found that developing cost estimates is a complex task for a 
transition of this magnitude. Although NASA has identified funding 
needs through fiscal year 2010 for transition activities relating to 
the retirement of the Shuttle and the ramping up of the Constellation 
program, those total costs are currently being developed. Additionally, 
many transition and retirement activities will occur after the 
retirement date, and according to NASA officials, such efforts could 
last through 2020. Our previous work has also noted that NASA does not 
yet know the extent of the Shuttle Program's environmental liabilities. 
Paying for such liabilities later may complicate NASA's future fiscal 
landscape, especially when there will be other competing demands, such 
as Constellation's crew exploration vehicle, the crew launch vehicle, 
and other new exploration activities.

Questions submitted by Representative Tom Feeney

Q1.  The ISS Independent Safety Task Force was very concerned about the 
adequacy of the ISS's post-Shuttle logistics support. According to 
NASA, there is a $300 million shortfall in the ISS Crew-Cargo Services 
budget based on current estimates, with an additional $600 million 
shortfall held as a lien against the Exploration Systems Mission 
Directorate budget. What critical decision milestones should Congress 
and NASA focus on as COTS is being developed? Can you recommend any 
early indicators that Congress and NASA might use to predict whether 
COTS is progressing as advertised?

A1. NASA is relying on the availability of COTS vehicles after retiring 
the Shuttle in 2010 to provide logistics support and re-supply to the 
ISS. The COTS services currently under development for demonstration to 
NASA have received funding for cargo services only. Crew capabilities 
are an option written into the agreements between NASA and its primary 
COTS developers that will require NASA to provide further funding at a 
later date.
    GAO has performed extensive work in determining important 
milestones that indicate progress for development of new systems. 
Currently, one of NASA's COTS developers is entering Critical Design 
Review, which is the final review of system drawings before fabrication 
of their system.\1\ For this milestone, GAO has found that completing 
90 percent of drawings portends successful fabrication. In addition, 
all technologies should have been fully matured and tested in a 
relevant environment. Each critical component should also exhibit 
``form, fit and function'' characteristics at this point. Congress 
should closely consider these indicators of how well the proposed 
vehicles meet requirements and what the delivery time frames will 
actually be. If the technologies needed to meet requirements are not 
mature, design and production maturity will be delayed. Critical Design 
Review can provide a clear and realistic indication of the schedule for 
delivery of the capability.
---------------------------------------------------------------------------
    \1\ The second primary COTS developer has not completed the 
previous phase, as described in the agreement with NASA, which required 
the company to secure sufficient funding for the development program by 
February 2007. NASA officials told us that they extended the deadline 
for that developer, but as of September 2007 the company still had not 
accomplished the financial requirement necessary to proceed to Critical 
Design Review.
---------------------------------------------------------------------------
    While the COTS vehicles are in some measure based on existing 
systems, they are nonetheless being developed for new purposes. The 
four capabilities--unpressurized cargo delivery, pressurized cargo 
delivery, pressurized cargo delivery, and return and crew transport--
are due to be delivered in a staggered schedule, rather than all on a 
single date. As such, testing events will also be very important to 
informing both NASA and the Congress on the progress of the COTS 
vehicles. If a vehicle fails a test, the program could face schedule 
delays. Furthermore, the COTS vehicle tests require berthing with the 
ISS. A NASA deputy program manager for the ISS stated that the new 
European vehicle will be ready for test launch to the ISS shortly, but 
because of ISS's scheduling windows, that vehicle cannot make that test 
flight until late January 2008. Similar constraints will be put upon 
COTS vehicle tests, so the success of those tests will be critical to 
NASA's assessment of when those capabilities will be available.



</pre></body></html>
